<html>
<title> - OVERSIGHT HEARING ON THE STATE OF WATER SUPPLY RELIABILITY IN THE 21st CENTURY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



       THE STATE OF WATER SUPPLY RELIABILITY IN THE 21st CENTURY

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON WATER, OCEANS, AND WILDLIFE

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, February 26, 2019

                               __________

                            Serial No. 116-6

                               __________

       Printed for the use of the Committee on Natural Resources
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                               __________
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
35-277 PDF                  WASHINGTON : 2019 

--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a3a250a293f393e222f263a6429252764">[email&#160;protected]</a> 



                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 
                                 ------                                

              SUBCOMMITTEE ON WATER, OCEANS, AND WILDLIFE

                        JARED HUFFMAN, CA, Chair
             TOM McCLINTOCK, CA, Ranking Republican Member

Grace F. Napolitano, CA              Doug Lamborn, CO
Jim Costa, CA                        Robert J. Wittman, VA
Gregorio Kilili Camacho Sablan,      Garret Graves, LA
    CNMI                             Jody B. Hice, GA
Jefferson Van Drew, NJ               Aumua Amata Coleman Radewagen, AS
Nydia M. Velazquez, NY               Daniel Webster, FL
Anthony G. Brown, MD                 Mike Johnson, LA
Ed Case, HI                          Jenniffer Gonzalez-Colon, PR
Alan S. Lowenthal, CA                Russ Fulcher, ID
TJ Cox, CA                           Rob Bishop, UT, ex officio
Joe Neguse, CO
Mike Levin, CA
Joe Cunningham, SC
Raul M. Grijalva, AZ, ex officio

                              -----------
                              
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, February 26, 2019.......................     1

Statement of Members:
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     6

Statement of Witnesses:

    Diedrich, Bill, Family Farm Alliance, Los Banos, California..    34
        Prepared statement of....................................    35
    Ibach, Harrison, President, Humboldt Fishermen's Marketing 
      Association, Humboldt, California..........................    47
        Prepared statement of....................................    48
    Nelson, Jonathan, Policy Director, Community Water Center, 
      Visalia, California........................................    19
        Prepared statement of....................................    20
    Udall, Brad, Senior Water and Climate Research Scientist, 
      Colorado Water Institute, Colorado State University, Fort 
      Collins, Colorado..........................................     7
        Prepared statement of....................................     9
    Willardson, Tony, Executive Director, Western States Water 
      Council, Murray, Utah......................................    23
        Prepared statement of....................................    25
        Questions submitted for the record.......................    32
Additional Materials Submitted for the Record:

    Rep. Cox Submission

        South Valley Water Association, statement for the record.    64

    Rep. Napolitano Submission

        Napolitano, Hon. Grace F., Letter to Secretary of the 
          Interior, dated August 28, 2009........................    65

    Rep. Van Drew Submission

        Van Drew, Hon. Jefferson, Letter to Chairman Grijalva, 
          dated February 26, 2019................................    69
                                     


 
OVERSIGHT HEARING ON THE STATE OF WATER SUPPLY RELIABILITY IN THE 21st 
                                CENTURY

                              ----------                              


                       Tuesday, February 26, 2019

                     U.S. House of Representatives

              Subcommittee on Water, Oceans, and Wildlife

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 1324, Longworth House Office Building, Hon. Jared Huffman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Huffman, Napolitano, Costa, 
Sablan, Cox, Neguse, Levin, Cunningham; McClintock, Hice, 
Radewagen, and Fulcher.

    Mr. Huffman. Good morning, everyone. The Subcommittee on 
Water, Oceans, and Wildlife will come to order.
    The Subcommittee is meeting today to hear testimony on the 
state of water supply reliability in the 21st century.
    Under Committee Rule 4(f), any opening statements at this 
hearing will be limited to the Chairman, the Ranking Member, 
the Vice Chair, and the Vice Ranking Member. This allows us to 
hear from our witnesses sooner and helps keep Members on 
schedule. Therefore, I ask unanimous consent that all other 
Members' opening statements be made part of the record if they 
are submitted to the Committee Clerk by 5 p.m. today, or the 
close of the hearing, whichever comes first.
    Hearing no objection, it is so ordered.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thanks, everyone, for joining us today. I 
believe this is an important hearing, an important chance to 
examine the state of water supply reliability in our Nation.
    As I mentioned at our last WOW Subcommittee hearing, one of 
my goals this Congress is to focus on the factual and the 
scientific baseline for natural resource issues in this 
Subcommittee's jurisdiction through what I informally referred 
to as ``WOW 101'' hearings. This is the second one.
    Finding consensus on tough issues, of course, is hard. But 
I believe we can make progress on that front if we can develop 
a common understanding of the baseline facts and science before 
jumping right into the most contentious policy debates. And 
that is why we are having these hearings.
    I am also personally meeting with every member of this 
Subcommittee on both sides of the aisle, to get feedback and 
explore areas where we can work together. Thanks to the members 
that have met with me so far. I truly believe that there are 
good ideas on both sides of the aisle, and I am hopeful this 
Subcommittee will disprove that old notion that ``water is for 
fighting over,'' and instead work to come up with common-sense, 
scientifically-based solutions to the challenges we face.
    So, let's get started. Today, we will be looking at the 
state of our Nation's water supply and water supply challenges. 
As many here know, the western United States has been suffering 
from frequent and increasingly severe drought in recent years.
    For example, in my home state of California, we recently 
emerged from the state's worst drought in 1,200 years, 
according to some credible scientific reports. In the northern 
Great Plains, we recently experienced an extreme drought that 
NOAA categorized as a ``$1 billion disaster.'' And the Colorado 
River, which supplies water to 40 million people and 5.5 
million acres of farmland in seven western states and Mexico, 
is currently going through its 19th year of drought, with no 
end in sight.
    Today, we will hear from witnesses about the specific 
challenges caused by these water shortages. We will hear today 
from community voices about what happens when rural communities 
literally run out of water for basic human needs because of 
drying wells. We will hear how water shortages have impacted 
coastal communities and thousands of fishermen. In my district 
and along the Pacific Coast, fishing families have been dealt 
multi-million-dollar blows in recent years because of water 
shortages that have battered our salmon fisheries.
    We will also hear about the great costs of water shortages 
to agriculture, cities, tribes, and western states.
    And, finally, we will hear today what the science says 
about how climate pressures will make our water challenges more 
difficult in the future. Climate pressures, including warming 
temperatures, shrinking snowpack, more volatile precipitation, 
rising seas, just to name a few, will reduce our water supply 
and impact millions of Americans. It is important that this 
Subcommittee soberly assess and plan for these challenges.
    Part of that process requires a thoughtful evaluation of 
policy options. I look forward to a thorough examination of the 
policy options that this Subcommittee can pursue to promote 
water supply reliability and resilience now and in the years to 
come.
    One policy option that we will hopefully agree on is the 
need to invest in water infrastructure. Much of our existing 
infrastructure is nearing the end of its design life and is in 
great need of maintenance and repair.
    Last Congress, I worked across the aisle with 
Representative Gosar on a bill that would regularly require the 
Bureau of Reclamation to assess and publicly disclose major 
repair and rehabilitation needs for Reclamation projects. That 
bill recently passed the Senate as part of the omnibus public 
lands package, and I think it is a good first step in working 
across the aisle to address our repair and maintenance needs. I 
hope we will see it move through the House and signed by the 
President soon.
    I will also commit to work across the aisle on other areas 
of bipartisan agreement, such as the need to construct new 
water infrastructure to grow our water supply. That new 
infrastructure can include a variety of projects, including 
smart storage, water reuse, desalination, and water-use 
efficiency projects. It is imperative that this Subcommittee 
work on these kinds of common-sense projects that will promote 
water supply reliability for all stakeholders.
    To conclude, I look forward to this Subcommittee evaluating 
and addressing our water challenges in a deliberative and open 
way. Communities need clean water to drink. Farmers need water 
to irrigate their crops. Fish and wildlife and the people whose 
livelihood depend on them need water to survive and to thrive. 
This Subcommittee will work hard to ensure water supply 
reliability for all of these important stakeholders.
    Finally, I would like to welcome members of the Association 
of California Water Agencies, ACWA. I see several in the crowd 
here this morning. We look forward to working with you on all 
of these issues to promote water supply sustainability and 
reliability.

    [The prepared statement of Mr. Huffman follows:]
 Prepared Statement of the Hon. Jared Huffman, Chair, Subcommittee on 
                      Water, Oceans, and Wildlife
    Thank you everyone for joining us today for an important hearing 
examining the state of water supply reliability in our Nation.
    As I mentioned at our last ``WOW'' hearing, one of my goals this 
Congress is to work to reset the factual and scientific baseline for 
natural resources issues in this Subcommittee's jurisdiction through 
what I informally refer to as ``WOW 101.''
    Finding consensus on tough issues is a formidable task. But I 
believe we can make progress on that front if we can develop a common 
understanding of the baseline facts and science before jumping right 
into the most contentious policy debates. That's why we're having these 
101 hearings.
    I am also personally meeting with every member of this 
Subcommittee, on both sides of the aisle, to solicit feedback and 
explore areas where we can work together. I truly believe there are 
good ideas on both sides of the aisle. And I'm hopeful that this 
Subcommittee can work together to disprove that old notion that ``water 
is for fighting over,'' and instead work to come up with common-sense, 
scientifically-based solutions to the challenges before us.
    So, let's get started. Today, we'll be looking at the state of our 
Nation's water supply and the water supply challenges we'll face in the 
21st century.

    As many here know, the western United States has been suffering 
from frequent and increasingly severe drought in recent years:
    For example, in my home state of California, we recently emerged 
from the state's worst drought in 1,200 years, according to some 
scientific reports.
    In the northern Great Plains, we recently experienced an extreme 
drought that NOAA categorized as a ``billion-dollar disaster.''
    And the Colorado River--which supplies water to 40 million people 
and 5.5 million acres of farmland in seven western states and Mexico--
is currently going through its 19th year of drought, with no end in 
sight.

    Today, we'll hear from witnesses about the specific challenges 
caused by these water shortages.
    We'll hear today from community voices about what happens when 
rural communities literally run out of water for basic human needs 
because of drying wells. We'll hear how water shortages have impacted 
coastal communities and thousands of fishermen. In my district and 
along the Pacific Coast, fishing families have been dealt multi-
million-dollar blows in recent years because of water shortages that 
have battered our fisheries. We'll also hear about the great costs of 
water shortages to agriculture, cities, tribes, and western states.
    And finally, we'll hear today what the science says about how 
climate pressures will make our water challenges more difficult in the 
future. Climate pressures--including warming temperatures, shrinking 
snowpack, more volatile precipitation, and rising seas, to name a few--
will reduce our water supply and impact millions of Americans. It's 
important that this Subcommittee soberly assess and plan for these 
challenges.
    Part of that planning requires a thoughtful evaluation of policy 
options. I look forward to a thorough examination of the policy options 
that this Subcommittee can pursue to promote water supply reliability 
now and in the years to come.
    One policy option that we'll all hopefully agree on is the need to 
invest in our water infrastructure. Much of our existing water 
infrastructure is nearing the end of its design life and is in great 
need of maintenance and repair.
    Last Congress, I worked across the aisle with Representative Gosar 
on a bill that would regularly require the Bureau of Reclamation to 
assess and publicly disclose major repair and rehabilitation needs for 
Reclamation water projects. That bill recently passed the Senate as 
part of the omnibus public lands package, and I think it is a good 
first step in working across the aisle to address our repair and 
maintenance needs. I hope we see it move through the House and signed 
by the President soon.
    I'll also commit to work across the aisle on other areas of 
bipartisan agreement--such as the need to construct new water 
infrastructure to grow our water supply. That new infrastructure can 
include a variety of projects, including smart storage, water reuse, 
desalination, and water-use efficiency projects. It's imperative that 
this Subcommittee work on these kinds of common-sense projects that 
will promote water supply reliability for all stakeholders.
    So, to conclude, I look forward to using my role on this 
Subcommittee to evaluate and address our water challenges in a 
deliberative and open way. Communities need clean water to drink. 
Farmers need water to irrigate their crops. Fish and wildlife and the 
people whose livelihoods depend on them need water to survive and 
thrive. This Subcommittee will work hard to ensure water supply 
reliability for all of these important stakeholders.
    Ranking Member McClintock, I hope we can find opportunities to work 
together to get things done. While we may have some differences in 
outlook, there are many common-sense solutions that Republicans and 
Democrats can pursue on this Subcommittee, and I hope you'll join us in 
that effort.
    Finally, I would like to welcome members of the Association of 
California Water Agencies in the audience today--we look forward to 
hearing from you and working with you as well to promote water supply 
reliability.
    With that, I want to invite the Ranking Member to say a few 
remarks, and then we will welcome and introduce our witnesses.

                                 ______
                                 

    Mr. Huffman. With that, I want to invite the Ranking Member 
to say a few remarks, and then we will welcome and introduce 
our witnesses.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Thank you, Mr. Chairman. According to the 
EPA, since 1901, global precipitation has actually increased at 
an average rate of roughly one-tenth of an inch per decade, 
while precipitation in the contiguous 48 states has increased 
at a rate of nearly two-tenths of an inch per decade. Globally, 
annual rainfall alone produces roughly 18,000 gallons of fresh 
water every day for every man, woman, and child on this planet. 
The problem is this abundance of fresh water is unevenly 
distributed over time and space.
    Throughout the 20th century, it was the policy of this 
government to guarantee abundant water for all the people and 
regions of our country. We built reservoirs to transfer water 
from wet years to dry years, and we built canals to transfer 
water from wet regions to dry ones. By doing so, we made the 
deserts bloom, we protected our communities from floods and 
droughts, and we opened up vast tracts of land to support a 
prosperous population made possible by water abundance.
    Sadly, these policies were reversed over the last 45 years. 
In my region, 4 years of drought, combined with massive pulse-
flow water releases mandated by environmental laws, drained our 
reservoirs to nearly deadpool levels. The next year, an 
atmospheric river opened up, requiring the loss of massive 
amounts of water to the ocean, because we had no place to store 
it--not for lack of suitable sites, but because of inaction in 
using them.
    The climate is constantly changing, which requires constant 
adaptation. Up until 5,000 years ago, the Sahara was one of the 
wetter regions of our planet, with frequent monsoons that 
produced the largest freshwater lake in the world. During the 
Roman warm period, much of the Roman grain supply was grown in 
North Africa.
    The foresight of America's 20th century water engineers 
should be more apparent today. In the modern warm period, water 
will be stored for less time as snow in the mountains, which 
means that without new reservoirs to capture this runoff, it 
will be lost to the ocean.
    During the last several Congresses, the House sent major 
legislation to the Senate to expedite and reform the permitting 
process that has made the construction of new reservoirs 
endlessly time consuming and ultimately cost-prohibitive. 
Unfortunately, the Senate failed to act.
    As one example, the Shasta Dam was built to an elevation of 
600 feet and stores about 4\1/2\ million acre-feet of water. 
But it was designed to an elevation of 800 feet. The difference 
is 9 million acre-feet of water storage. Yet, less than 20 feet 
of additional elevation, about 600,000 acre-feet of additional 
storage, has been stalled for decades in an endless cycle of 
environmental studies with no end in sight.
    Droughts are nature's fault. They happen. But water 
shortages are our fault. They are a choice that we made when we 
stopped building adequate storage to meet the needs of the next 
generation.
    We are told that reservoirs are old-fashioned, and we must 
look to solutions like conservation, recycling, and 
desalination. Well, we need to understand what that actually 
means.
    Conservation does not add a drop to our water supply, it 
merely copes with the shortage that our own policies have 
imposed. And there is a limit to how much conservation can be 
mandated before it begins to have a significant negative impact 
on the quality of life for our people. Californians are soon to 
get a major lesson in this when mandated, year-round water 
rationing signed by Governor Brown takes effect in a few years.
    Recycling and desalination makes sense in deserts where 
water is scarce and can't be imported. Fortunately, most 
regions of our country are blessed with abundant water. 
According to the California Energy Commission, surface water 
storage costs between $400 and $800 per acre-foot; while water 
desalination costs between $1,800 and $2,800 per acre-foot; and 
water recycling between $1,200 and $1,800 per acre-foot.
    In other words, storing water before it is lost to the 
ocean costs a mean of $600, while reclaiming it once it has 
been lost to the ocean costs about $2,300. Water desalination 
is a great idea if you don't mind your water bill quadrupling.
    We should be looking at the most cost-effective ways to 
produce water abundance, not the most expensive. That is the 
difference between abundance and scarcity, the difference 
between prosperity and rationing, and the difference between 
the policies before us today.
    I yield back.

    [The prepared statement of Mr. McClintock follows:]
    Prepared Statement of the Hon. Tom McClintock, Ranking Member, 
              Subcommittee on Water, Oceans, and Wildlife
    According to the EPA, since 1901, global precipitation has 
increased at an average rate of 0.08 inches per decade, while 
precipitation in the contiguous 48 states has increased at a rate of 
0.17 inches per decade. Globally, annual rainfall alone produces 
roughly 18,000 gallons of fresh water every day for every man, woman 
and child on this planet.
    The problem is that this abundance of fresh water is unevenly 
distributed over space and time. Throughout the 20th century, it was 
the policy of this government to guarantee abundant water for all the 
people and regions of our country. We built reservoirs to transfer 
water from wet years to dry years and we built canals to transfer water 
from wet regions to dry ones. By doing so, we made the deserts bloom 
and opened up vast tracts of land to support a prosperous population 
made possible by water abundance.
    Sadly, these policies were reversed over the last 45 years. In my 
region, 4 years of drought, combined with massive pulse flow water 
releases mandated by environmental laws, drained our reservoirs nearly 
to dead-pool levels. The next year, an atmospheric river opened up, 
requiring the loss of massive amounts of water to the ocean because we 
had no place to store it--not for lack of suitable sites, but for lack 
of action in utilizing them.
    The climate is constantly changing, which requires constant 
adaptation. Up until 5,000 years ago, the Sahara was one of the wetter 
regions of the planet, with frequent monsoons that produced the largest 
freshwater lake in the world. During the Roman Warm Period, much of the 
Roman grain supply was grown in North Africa.
    The foresight of America's 20th century water engineers should be 
more apparent today. In the Modern Warm Period, water will be stored 
for less time as snow in the mountains, which means that without new 
reservoirs to capture this runoff, it will be lost to the ocean.
    During the last several Congresses, the House sent major 
legislation to the Senate to expedite and reform the permitting process 
that has made the construction of new reservoirs endlessly time 
consuming and ultimately cost-prohibitive. Unfortunately, the Senate 
failed to act.
    As one example, the Shasta Dam was built to an elevation of 600 
feet and stores more than 4\1/2\ million acre-feet of water. But it was 
designed to an elevation of 800 feet. The difference is 9 million acre-
feet of water storage. Yet less than 20 feet of additional elevation--
about 630,000 acre-feet of additional storage--has been stalled for 
more than 20 years in an endless cycle of environmental studies with no 
end in sight.
    Droughts are nature's fault. They happen. But water shortages are 
our fault. They are a choice we made when we stopped building adequate 
storage to meet the needs of the next generation.
    We are told that reservoirs are old-fashioned, and that we must 
look to solutions like conservation, recycling and desalination. We 
need to understand that this actually means.
    Conservation does not add a drop to our water supply--it merely 
copes with a shortage that our own policies have imposed. And there is 
a limit to how much conservation can be mandated before it begins to 
have a significant negative impact on the quality of life for our 
people. Californians are soon going to get a major lesson in this when 
mandated year-round water rationing signed by Governor Brown takes 
effect in a few years.
    Recycling and desalination make sense in deserts where water is 
scarce and can't be imported. Fortunately, most regions of our country 
are blessed with abundant water. According to the California Energy 
Commission, surface water storage costs between $400 and $800 per acre 
foot while water desalination costs $1,800 to $2,800 per foot and water 
recycling $1,200 to $1,800 per foot. In other words, storing water 
before it is lost to the ocean costs a mean of $600 while reclaiming it 
once it's been lost to the ocean costs $2,300. Water desalination is a 
great idea if you don't mind your water bill quadrupling.
    We should be looking at the most cost-effective ways to produce 
water abundance--not the most expensive. That is the difference between 
abundance and scarcity--the difference between prosperity and 
rationing--and the difference between the policies before us.

                                 ______
                                 

    Mr. Huffman. Thank you, Mr. McClintock. We will now hear 
from our witnesses.
    Let me remind the witnesses that under our Committee Rules, 
they must limit their oral statements to 5 minutes. But their 
entire statement will still appear in the hearing record.
    When you begin, the lights on the witness table will turn 
green. After 4 minutes, you will see the yellow light come on. 
Your time will have expired when the red light comes on, and I 
will ask you to please complete your statement.
    I will also allow the entire panel to testify before we 
turn to questions from the Members.
    I will now begin with the witnesses. I see that Mr. Neguse 
is here. Our first witness is from Colorado. We will invite the 
gentleman from Colorado to introduce his home state 
constituent.
    Mr. Neguse. Thank you, Mr. Chairman, for giving me the 
opportunity to do that. And I am so honored and pleased to 
introduce Mr. Bradley H. Udall from my district, the Colorado 
2nd District.
    Brad currently serves as the Senior Water and Climate 
Research Scientist for Colorado State University's Colorado 
Water Institute. He helped author the Fourth National Climate 
Assessment, and he is an expert, literally in the sense of the 
word, in anything related to western water.
    I also would be remiss if I didn't point out the weight, 
certainly, that we all feel, and that certainly Brad must be 
feeling, in testifying in this room. If you all look to the 
back of the room, you can see the picture of his father, the 
legendary Mr. Morris Udall.
    Brad, it is such an honor to have you here today, and I 
certainly know that your father would be very proud, as is the 
state of Colorado. Thank you for taking the time to come 
testify and help us learn about a topic that is extremely 
important to our district, our state, and our country.
    I yield back, Mr. Chair.
    Mr. Huffman. Thank you.
    It is an honor to have you, Mr. Udall.

  STATEMENT OF BRAD UDALL, SENIOR WATER AND CLIMATE RESEARCH 
SCIENTIST, COLORADO WATER INSTITUTE, COLORADO STATE UNIVERSITY, 
                     FORT COLLINS, COLORADO

    Mr. Udall. Thank you, Chairman Huffman, Ranking Member 
McClintock, and other members of the panel. Thank you for 
providing me an opportunity to speak. I am a senior scientist 
at Colorado State University, where I study how climate change 
will affect Western U.S. water supplies. Today, I want to focus 
on the Colorado River.
    After 19 years of unprecedented low flows and over-use in 
the lower basin, the Nation's two largest reservoirs, Lakes 
Mead and Powell, are now barely 40 percent full. Without major 
action by the Colorado River Basin states, there is a 
substantial risk of draining Lake Mead to deadpool in the next 
7 years, an event that would prove to be very challenging.
    Since 2000, Colorado River flows have been 19 percent below 
the 20th century average. Temperatures in the basin are now 2 
degrees Fahrenheit warmer, and those temperatures are certain 
to continue rising. Scientists have begun using aridification 
to describe the ongoing hot and dry climate in the basin, 
rather than just drought.
    In 2017, Jonathan Overpeck and I found that higher 
temperatures due to climate change had reduced the flow of the 
Colorado River by approximately 6 percent, and that additional 
warming could reduce flows by approximately 20 percent by 2050, 
and up to 35 percent by 2100, should precipitation remain the 
same.
    Higher temperatures increase evaporation from soils and 
water bodies, increase sublimation from snowpacks, and increase 
water use by plants, due to a longer growing season and more 
warmth on any given day. Other studies have come to similar 
conclusions.
    The 2018 National Climate Assessment found that snowpacks 
are being reduced, so melt runoff is occurring earlier in the 
year, and flows in the fall are lower. More of our 
precipitation is occurring as rain, rather than snow.
    The not-yet-approved Drought Contingency Plan is an 
important first step to solving the basin's problems. It 
significantly reduces the chance of emptying Lake Mead. Most 
critically, the DCP buys us time to implement more permanent 
solutions. However, it leaves many hard decisions for the next 
plan.
    Negotiations for that replacement plan should begin next 
year. This plan needs to be a climate change plan for the 
basin. The planning process should be open and inclusive. It 
should solve the over-use problem in the lower basin and 
prepare for extended and unprecedented low flows. It should 
also re-visit a number of long-standing assumptions about how 
the river is being managed, including the upper basin's so-
called delivery obligation, who bears the burden of solving the 
lower basin's over-use, and how the reservoirs are operated.
    I want to offer a few suggestions for how the Federal 
Government might help ensure water security in the basin. 
Additional ideas are in my written testimony.
    With climate change, the past is no longer a guide to the 
future. This makes planning very difficult. Scientists need to 
devise new ways to predict future runoff, and find other ways, 
including scenarios to help decision makers grapple with this 
very different future.
    Agriculture will be at the center of additional water 
shortages in the basin, because of its approximately 70 percent 
of total water use. Deficit irrigation, rotational fallowing, 
crop switching, irrigation efficiency all offer opportunities 
to save water, while keeping Ag. in production. There is much 
that a coordinated effort, between Interior with WaterSMART and 
USDA with its Farm Bill, can do to ensure that the harm to Ag. 
is minimized.
    The Salton Sea deserves significant Federal resources. 
Without a functioning Salton Sea, the Imperial Irrigation 
District's ability to contribute to a meaningful resolution of 
the lower basin's over-use will be seriously constrained. 
Interior needs to continue to fund our National Streamgage 
Network. Congress should continue to support existing programs 
like NOAA's RISA, Interior's Climate Adaptation Science 
Centers, and the USDA Climate Hubs.
    Finally, any solution must aim at the root cause of these 
temperature-induced flow reductions. The ultimate goal must be 
net zero greenhouse gas emissions as soon as is practical, 
ideally net zero by 2050, but no later than 2070. Greenhouse 
gas reductions must be pursued through a suite of actions, 
including carbon pricing, investments in technology, tax 
credits, and other techniques.
    In conclusion, climate change is water change, and it is 
already impacting the Colorado River. My father was a member of 
this Committee for over 30 years, and he chaired it for 14. 
This very hearing room is named for him. That generation did 
not shy away from solving the great problems of its day, 
including how to provide reliable water supplies for the 
American Southwest.
    Similarly, this generation should not shy away from solving 
the great problems of today, which include how do we adapt to 
climate change, and how do we stop it? Climate change threatens 
all we hold dear. This is especially clear when it reduces our 
life-giving water supplies.
    Climate change is the key threat to 21st century water 
supply reliability. To minimize this threat we must act now by 
adapting to the coming changes with smart water management 
policy, with technology, with science, and also by reducing 
greenhouse gas emissions as quickly as we can.
    Thank you for your time.

    [The prepared statement of Mr. Udall follows:]
Prepared Statement of Brad Udall,\1\ Senior Water and Climate Research 
 Scientist/Scholar, Colorado Water Institute, Colorado State University
---------------------------------------------------------------------------
    \1\ In addition to my position at Colorado State University, I am a 
co-investigator with the DOI Southwest Climate Adaptation Science 
Center, and a member of the Colorado River Research Group. 
(www.coloradoriverresearchgroup.org).
---------------------------------------------------------------------------
    Chairman Huffman, Ranking Member McClintock, and other members of 
the panel, thank you for providing me an opportunity to speak on this 
important issue.
    I am a senior scientist at Colorado State University where I study 
how climate change will affect western U.S. water supplies. For over 15 
years, I have published and spoken extensively on the impacts of 
climate change on western rivers, and how we might reduce those 
impacts. Today I want to use my time to focus on the Colorado River.
   1. the 21st century climate challenge for the colorado river basin
    Nineteen years of unprecedented drought in the gaged record have 
brought the Colorado River basin to the brink of the first ever major 
water delivery reductions in the Lower Basin. The combined contents of 
the two largest reservoirs in the United States, Lakes Mead and Powell, 
are now barely 40 percent full (Figure 1). Last month the U.S. Bureau 
of Reclamation said that there is a 69 percent chance for the first-
ever shortage in 2020 and a 21 percent chance that Lake Mead will be 
less than 25 percent full in 2023 \2\ (Figure 2). At this level, the 
reservoir's ability to supply water to Nevada, California, Arizona and 
Mexico is at risk.
---------------------------------------------------------------------------
    \2\ January 2019 Projections from Reclamation's Mid-Term Operations 
Model (MTOM) model here: https://www.usbr.gov/lc/region/g4000/riverops/
crss-5year-projections.html. Note that these projections use the full 
111 years of historical hydrology (1906-2016) which includes the 
pluvial at the beginning of the 20th century. The actual risk using 
some form of `stress test' hydrology without the wet period would be 
substantially higher.
---------------------------------------------------------------------------

 Figure 1: Combined Contents of Lakes Powell and Mead 2000 to January 
                               31, 2019.
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


      Figure 2: Shortage Probabilities for 2019 to 2023 from 
                   Reclamation's January 2019 study.
                   
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    .epsSince 2000 flows have been 19 percent below the 20th century 
average (Figure 3). 2018 was the hottest and driest year in the 4-
Corners region since records were first kept in 1895 (Figure 4). 
Temperatures in the basin are now over 2+ F warmer than the 20th 
century average, and those temperatures are certain to continue rising. 
Because the term drought implies a temporary condition, and this 19-
year drought has been anything but that, scientists have begun using 
``aridification'' to describe the ongoing hot and dry climate in the 
basin.\3\
---------------------------------------------------------------------------
    \3\ It should be noted that it is possible that the Colorado River 
may see a decade or more of higher flows in the 21st century--our 
enhanced water cycle is now capable of generating very large flows. But 
on balance, the science tells us that over the course of the 21st 
century the greatest risk is for flow reductions and ongoing 
aridification.

 Figure 3: Reservoir Contents, Upper Basin Natural (undepleted) Flows, 
Precipitation, and Temperature for various periods to end of September 
                                 2018.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



Figure 4. 2018 was a record setting hot and dry year in large parts 
                       of the American Southwest.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



    In addition to climate change, overuse has also contributed to 
the problem. Water users in the Lower Basin states consume roughly 10.2 
million acre-feet \4\ (maf) annually, while inflows from upstream 
average 9 maf leaving an imbalance of 1.2 maf/year, or about 7 percent 
of the total flow in the system. This imbalance, known as the 
``Structural Deficit,'' along with the low flows, has helped to drive 
both Lakes Mead and Powell lower (Figures 1 and 5).
---------------------------------------------------------------------------
    \4\ An acre-foot is 1 foot of water depth over an area of 1 acre or 
about 325,000 gallons. This is enough water for 2 to 4 families per 
year.
---------------------------------------------------------------------------

 Figure 5. Contents in millions of acre-feet of Lakes Powell and Mead, 
                  January 1, 2000 to January 31, 2019.
                  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



              the salience of warming temperatures
    In 2017, Dr. Jonathan Overpeck \5\ and I published a peer-reviewed 
paper \6\ which said that higher temperatures due to climate change had 
reduced the flow of the Colorado River by approximately 6 percent, and 
that additional warming could reduce flows by approximately 20 percent 
in 2050, and up to 35 percent by 2100, should precipitation remain the 
same.\7\ Higher temperatures increase evaporation from soils and water 
bodies, increase sublimation from snowpacks, and increase water use by 
plants due to a longer growing season and more warmth on any given day. 
A thirstier atmosphere which can now hold more moisture due to higher 
temperatures also contributes to the problem. Given the large 2+ F 
warming in the basin, we called the current period a ``hot drought'' 
and the flow losses ``temperature-induced flow reductions'' to 
distinguish them from a more normal ``dry drought'' that causes 
precipitation-related flow reductions.
---------------------------------------------------------------------------
    \5\ Dr. Overpeck is Now Dean of the University of Michigan School 
for Environment and Sustainability. At the time of the paper he was the 
Director of the Institute of the Environment at the University of 
Arizona and the Thomas R. Brown Distinguished Professor of Science.
    \6\ Udall and Overpeck, 2017, The 21st century Colorado River hot 
drought and implications for the future.
    \7\ In the paper these numbers all have ranges on them. The range 
of current flow reduction was from 3% to 10%; 6% is roughly the mid-
point of this range. The range in 2050 was from 8% to nearly 30%, using 
3 different temperature sensitivities and a broad range of future 
emissions. In 2100 the range was from 12% to 55%. In the text above, I 
round to the middle of these ranges.
---------------------------------------------------------------------------
    Last year Dr. Dennis Lettenmaier,\8\ his doctoral student Mu Xiao, 
and I published another peer-reviewed paper \9\ showing that 50 percent 
of the flow reduction from 2000 to 2014 was due to higher temperatures 
and the remaining 50 percent was due to shifting precipitation 
patterns.
---------------------------------------------------------------------------
    \8\ Distinguished Professor of Geography at the University of 
California at Los Angeles.
    \9\ Xiao, Udall and Lettenmaier, 2018. On the Causes of Declining 
Colorado River Streamflows.
---------------------------------------------------------------------------
    Other recent papers have also found significant impacts of 
temperatures on Colorado River flows \10\ and other western rivers. 
Southwestern U.S. megadroughts--droughts lasting decades-have been 
shown to be much more likely in the 21st century as it warms, even if 
precipitation increases.\11\
---------------------------------------------------------------------------
    \10\ See Dettinger, Udall, & Georgakakos, 2015; McCabe, et al., 
2017; Overpeck & Udall, 2010; Vano, Das, & Lettenmaier, 2012; Vano et 
al., 2014; Vano & Lettenmaier, 2014; Woodhouse, et al., 2016.
    \11\ Ault, et al., 2016; Cook, Ault, & Smerdon, 2015.
---------------------------------------------------------------------------
    The 2018 4th National Climate Assessment \12\ found that the 
hydrologic cycle has already been profoundly modified by climate 
change. In the West, snowpacks are being reduced, snowmelt runoff is 
occurring earlier in the year, and flows in the fall are lower. More of 
our precipitation is occurring as rain rather than snow. Previous 
National Assessments in 2009 and 2014 reported similar results. Studies 
also note that past hydrology is no longer a suitable guide to future 
hydrology, a concept sometimes known as the ``Death of Stationarity.''
---------------------------------------------------------------------------
    \12\ https://nca2018.globalchange.gov.
---------------------------------------------------------------------------
    It is clear the Colorado River, and the entire Southwest, has 
shifted to a new hotter and drier climate, and, equally important, will 
continue to shift to a hotter and drier climate for several decades 
after we stop emitting greenhouse gasses. Last year humans emitted over 
37 billion tons of CO<INF>2</INF>, an increase of 2.7 percent over 
2017.\13\ Given these unprecedented changes to our climate and water 
supplies, our 20th century water management systems will need 
fundamental modifications to ensure that humans, our economy, and our 
environment suffer the least harm from likely future reductions in 
water supplies.
---------------------------------------------------------------------------
    \13\ https://www.washingtonpost.com/energy-environment/2018/12/05/
we-are-trouble-global-carbon-emissionsreached-new-record-high/
?utm_term=.874be32b4d7b.
---------------------------------------------------------------------------
                 3. the drought contingency plan (dcp)
    The seven Basin states are close to a ``Drought Contingency 
Agreement \14\'' that will implement large proactive reductions in 
deliveries in the basin to protect Lakes Mead and Powell from reaching 
dangerously low volumes. In the Lower Basin, Central Arizona 
agriculture will be especially hit hard along with more manageable 
shortages for Las Vegas and central Arizona municipalities. If flows 
remain low, California agriculture and municipalities in Southern 
California will be impacted in future years.
---------------------------------------------------------------------------
    \14\ The DCP is actually a set of agreements. https://www.usbr.gov/
dcp/.
---------------------------------------------------------------------------
    The states, the Central Arizona Project, irrigation districts, 
NGOs, Indian tribes and others deserve recognition for the hard work 
needed to agree on very difficult reductions in water use. And 
Reclamation has been within its rights to strongly encourage all of the 
parties to finish these agreements soon.
    The agreement is an important first step. To be sure, it 
significantly reduces the chance of emptying Lake Mead, an event that 
would prove to be very challenging for the entire Southwest. Most 
critically, the DCP buys us time to implement more permanent solutions. 
And on paper the DCP `solves' the Structural Deficit. It is, however, 
not perfect. It has mechanisms to account for and repay any shortages 
should flows later partially refill reservoirs. These paybacks have the 
potential to put the reservoirs back into precarious territory just 
when they show signs of recovery. Although the agreement has not been 
finalized, I am very optimistic that it will be completed soon.
    This agreement will only last 7 years. New negotiations will need 
to begin by the end of 2020 to replace the existing 2007 agreement on 
shortage sharing and reservoir operations \15\ which expires in 2026. 
Hard issues left unresolved by the DCP will make the coming 
negotiations even more challenging.
---------------------------------------------------------------------------
    \15\ https://www.usbr.gov/lc/region/programs/strategies/
RecordofDecision.pdf.
---------------------------------------------------------------------------
      4. the 2020-2026 negotiations leading to the 2026 agreement
    In the long term, the Basin states need not just a Drought 
Contingency Plan, but a Climate Change Plan that accounts for likely 
future declines in flows. Should flows continue to drop, as the science 
suggests is likely, additional reductions in consumption will be 
needed. Agreeing on reductions that cause the least harm to water 
users, the overall economy and the environment will be an exceedingly 
difficult task, much harder to come by than those achieved in the DCP. 
To ensure water reliability in the 21st century, planning for major 
flow reductions should be the main charge for those leading the 
negotiations for the new 2026 agreement.
4.1. An Open, Inclusive EIS Process Needed
    The negotiations will need a full Environmental Impact Statement 
including the transparency that such a process requires. (With the 
exception of Arizona, the DCP process lacked transparency and 
inclusion.) This process should allow for alternatives supplied by the 
states, tribes, municipalities, academia, NGOs and others. The 2007 
process, for example, incorporated an NGO-sponsored `Conservation 
Before Shortage' alternative that provided some of the ideas 
implemented in the 2007 agreement and later in the DCP. Reclamation 
should support making modeling tools available to interested parties; 
modeling allows for thinking with numbers in much the same fashion that 
writing allows for thinking with words. Without these open access 
tools, some stakeholders will be unable to fully participate in the 
process.
4.2. Permanent Structural Deficit Solution Needed and Plans for 
        Extended Low Flows
    A permanent solution to the Structural Deficit should be part of 
the 2026 negotiations. The negotiation also needs to consider how water 
management will respond to potential future unprecedented low flows 
that require reductions in additional to those needed to solve the 
Structural Deficit. The current rules, laws and agreements imply 
solutions that may lead to litigation, may be undesirable and perhaps 
even impractical. Rules, laws and agreements around ``equalization,'' 
who bears the burden of solving the Structural Deficit, and the 
agreement around the Upper Basin delivery `obligation' will all need to 
be considered.
    With each passing year, the existing 2007 reservoir rules reduce 
the possibility of `equalization releases' from Lake Powell to Lake 
Mead. It has been these large (e.g., 3-5 maf in 1 year) releases that 
have allowed the Structural Deficit to persist. The combination of 
future large temperature-induced flow reductions and the likely 
continuation of the existing high bar for equalization means that it is 
very likely that at least 1.2 maf/year of demand will need to be 
permanently removed from the river in the 2026 agreement with 
provisions for additional reductions if needed.
    Contrary to what the 1968 Colorado River Basin Project Act says, 
the Central Arizona Project (and to a much lesser degree, Nevada) 
should not have to bear the entire burden of solving the Structural 
Deficit. This is because 5m people in Phoenix and 1m people in Tucson 
rely at least to some extent on this surface water. (Tucson has no 
surface water, although it does sit atop a large but not infinite 
supply of groundwater.) This fact has been acknowledged implicitly by 
inclusion of shortages to California in the DCP. It is extremely likely 
that additional shared sacrifice by all Lower Basin entities will be 
needed.
    Since 1922, the Lower Basin has relied on Section III(d) of the 
Colorado River Compact which appears to obligate the Upper Basin to 
deliver 75 maf every 10 running years as a backstop to future potential 
low flow conditions. That wording of that clause says that the Upper 
Basin shall not cause the flow to decline below 75 maf. However, if 
climate change causes those flow reductions, and if the Upper Basin is 
well under their Compact Section III(a) consumptive use limit as they 
currently are, the Upper Basin has a strong case to make that Section 
III(d) does not apply. Were this to occur, the Upper Basin would have 
been in serious drought for a number of years and its reservoirs would 
likely be empty. In addition, water to meet such a `compact call' would 
come disproportionately from already suffering Upper Basin 
municipalities including Colorado's Front Range, Albuquerque, and Salt 
Lake City. This could lead to lengthy litigation, an outcome that would 
do little to provide either water or an immediate solution. In such a 
situation, the Lower Basin would need to reduce uses well beyond that 
needed to solve the Structural Deficit.
4.3. The Tension between Water Conservation to Raise Lake Levels and 
        Later Recovery
    Well-meaning existing efforts (``Intentionally Created Surplus'' 
and variants) allowed by the 2007 agreement to prop up Lake Mead with 
unused conserved water may have an implicit flaw, which is that these 
waters are accounted for and are later allowed to be withdrawn from the 
system, potentially at times when the system is more exposed. This year 
Metropolitan Water District announced plans to withdraw its previously 
stored water rather than have it stranded by the existing rules which 
prevent withdrawals at low lake elevations. This is the water 
management equivalent of a bank run, and without a surefire mechanism 
of deposit insurance, such untimely withdrawals may happen in the 
future.
    To be sure, these efforts were designed to encourage water 
conservation and this has occurred. But there remains a tension between 
encouraging conservation and at the same time allowing the recovery of 
this water later which actually means that no real conservation 
occurred--the storer merely shifted water use in time. These water 
storage efforts allow us to push the problem forward in time, hoping 
that Mother Nature will rescue us. But they can make low flow years 
worse, with storing entities desiring to recover these saved supplies 
during such low years exactly when the reservoirs are bottoming out. 
Unfortunately, there is no clear way to provide the equivalent of 
deposit insurance, which in this case would be a supply of emergency 
water to prop up either the reservoir or the depositor.
    These rules might make sense in a system where a reasonable 
expectation is that a better future will soon occur. In a declining 
system, however, these rules push difficult decisions to the future 
when those decisions will be even more challenging. It is not clear how 
to solve this problem, but at least shedding light on it may help 
identify solutions.
4.4. Developing Future Hydrology that accounts for Warming and Non-
        Stationarity
    One of the most difficult aspects of water resource management in 
the era of climate change is that the past is no longer a guide to the 
future.\16\ Current floods and droughts are now routinely exceeding the 
envelope of the historic record. This makes planning, including 
probabilistic modeling, very difficult.
---------------------------------------------------------------------------
    \16\ Milly et al., ``Stationarity Is Dead.''
---------------------------------------------------------------------------
    Current projections for the future of the basin often use the full 
range of historical hydrology from 1906 onward to generate 
probabilities of future delivery reductions. Yet we know these 
probabilities are understated because of a very wet period at the 
beginning of the 20th century that will likely not reoccur. In these 
modeling efforts, the wet years refill reservoirs and bail out the 
system. In recent years Reclamation has investigated using shorter 
periods (``stress test hydrology'') that remove this wet period and use 
only the more recent dry period. It is possible that even these efforts 
understate the future risk. Other work is ongoing to understand the 
increasing influence of temperature on streamflows, including the 
physical mechanisms for the uncoupling of runoff from precipitation. 
Much more work needs to be done.
    Reclamation has also been experimenting with future hydrology 
scenarios that step back from probabilities. These scenario-based 
efforts attempt to provide plausible futures for decision makers 
without explicit, overly precise and misleading probabilities. 
Additional work is needed in this area and Reclamation needs to be 
given the resources to pursue all of this work. This is a national 
problem as well.
                  5. other actions and considerations
5.1. Agricultural Solutions
    Agriculture will be at the center of additional water shortages in 
the basin because of its approximately 70 percent of total water use. 
The Drought Contingency Plan provides money and a plan to replace 
Colorado River water with groundwater to partially mitigate harm to 
Arizona irrigators. With potential cuts to locations outside of central 
Arizona and in California, groundwater is unlikely to be available as a 
replacement source.
    In 2017 Greg Peterson and I published a study \17\ on how 
agriculture might adapt to lower flows. We looked at deficit irrigation 
of alfalfa, rotational fallowing, crop switching, irrigation efficiency 
\18\ and water conservation. All of these water saving techniques offer 
the promise of at least some water savings, although each also has 
distinct costs. Perhaps the most promising of these techniques is 
switching to less water intensive crops, although it is also the least 
known and least tried. Crop switching requires growers to change labor, 
equipment, markets, transportation, storage and more. For crop 
switching to work, growers will need assistance and assurance that 
these new products will be financially viable.
---------------------------------------------------------------------------
    \17\ http://www.cwi.colostate.edu/media/publications/cr/232.pdf.
    \18\ Improperly done, irrigation efficiency measures can 
paradoxically increase water consumption. Properly done, irrigation 
efficiency can provide needed flexibility and save water. See (Grafton 
et al., 2018; Ward & Pulido-Velazquez, 2008).
---------------------------------------------------------------------------
    There is much the Federal Government can do to assist with such a 
transformation. The U.S. government should help facilitate all of these 
techniques through programs at Reclamation such as WaterSMART,\19\ and 
through the Farm Bill. The Department of the Interior and the U.S. 
Department of Agriculture need to ensure that inter-departmental 
coordination occurs so that programs can be integrated as much as 
possible. Given that agriculture will bear much of the brunt of coming 
reductions, it is imperative that USDA be as active as possible in 
mitigating the impacts to agricultural users. In addition, Reclamation 
should consider a broad study to see where its large backlog of 
infrastructure needs might overlap with opportunities to pursue 
irrigation efficiency and water conservation.
---------------------------------------------------------------------------
    \19\ https://www.usbr.gov/watersmart/.
---------------------------------------------------------------------------
5.2. The Salton Sea
    The Salton Sea stands out as an area of special concern--2017 
marked the last year of extra flows into the sea to mitigate transfers 
to San Diego. It has now begun to decline rapidly, falling 1.7 feet in 
the past 2 years, threatening both a critical ecological resource and 
human health in the Imperial and Coachella Valleys. Impacts are already 
being noted.\20\ There are a number of reasonably simple actions that 
could be taken to resolve problems, and also importantly, to allow 
future Colorado River problems to be solved. Without a functioning 
Salton Sea, the Imperial Irrigation District's ability to contribute to 
a meaningful resolution of the existing Structural Deficit, and 
additional demand reduction if necessary, will be seriously 
constrained.
---------------------------------------------------------------------------
    \20\ https://www.desertsun.com/story/news/2019/02/08/salton-sea-
california-fish-bird-die-off-winter/2818025002/.
---------------------------------------------------------------------------
    Plans exist to minimize the developing impacts at the sea; what has 
been missing is resources to implement these ideas. The USGS Salton Sea 
Science Office needs a full-time director based near the sea. 
Reclamation could support hydrologic studies, engineering review and 
general construction management for Salton Sea habitat projects. The 
U.S. Fish & Wildlife Service Salton Sea Wildlife Refuge should be fully 
staffed and funded, including money for the Red Hill Bay project.
    Despite its size and apparent last minute nature, the Imperial 
Irrigation District's recent $200m request is reasonable. There is a 
need for long-term funding for Salton Sea monitoring and O&M which is 
largely unmet by California's bond funding.
5.3. New Diversions in the Basin
    Despite the ongoing aridification and warning signs that the river 
is overallocated and overused, additional diversions are still being 
planned in the Basin. Given all that we know, these plans should be 
delayed or if built only allowed to divert when the harm to existing 
users will be very low, such as when Lakes Powell and Mead are full or 
nearly full. With serious shortages already possible, the last thing 
this basin should consider is additional diversions.
5.4. The Federal Role in Policy
    The Federal Government through Reclamation has long played an 
important role in the basin. Historically, that role has been primarily 
to build and run the massive infrastructure. In recent years, 
Reclamation has provided important scientific support to the Basin 
states in their negotiation of new water agreements. The agency has 
played a critical convening and process role, while letting the states 
lead on policy, as is appropriate given state ownership of most water 
rights. However, when the states fail to lead, Reclamation has rightly 
threatened, scared and cajoled the states back to their proper role. 
This is as it should be and Reclamation should continue to provide 
scientific support, management and the appropriate leadership on new 
water agreements including a willingness to impose solutions if the 
states are unable or unwilling to make the difficult choices required.
5.5. Science and Data Collection
    Interior through the USGS and its partners needs to continue to 
fund our national stream gage network, and expand that network where 
scientists and decision makers agree that additional gaging is 
necessary. To use a navigation analogy, climate change puts us in 
uncharted territory. With less than complete ``maps'' of our climate 
future, we need to make sure that our instruments are working and 
providing the very best information on our location.
    Congress should continue to support existing programs like the 
NOAA-funded Regional Integrated Sciences and Assessment (RISA) 
programs, the Department of Interior Climate Adaptation Science Centers 
(CASC), Reclamation's water science efforts and the USDA Climate 
Hubs,\21\ all of which serve to connect scientists with decision makers 
so that useful science can be created and understood. These programs 
have a known track record of knowledge coproduction, which includes the 
breaking down of barriers between scientists and decision makers. The 
RISA and CASC programs have been especially good at assessing the state 
of science for stakeholders. The Climate Hubs are much newer, show 
great promise with helping agriculture adapt to climate change, but 
need more resources. Reclamation's scientist-engineers are very 
talented and deserve recognition and support for moving emerging 
science into useful engineering.
---------------------------------------------------------------------------
    \21\ I have served as the Director of the Western Water Assessment 
RISA, am a co-investigator for the Southwest Climate Adaptation Science 
Center and serve as one of Colorado State University's liaisons to the 
Northern Plains Climate Hub.
---------------------------------------------------------------------------
    Note that these actions will have widespread national benefits 
beyond the Colorado River.
5.6. Greenhouse Gas Reduction Efforts
    Finally, any solution set must aim at the root cause of the 
temperature-induced flow reductions. Climate change is as serious a 
problem as humans have ever faced and thus requires not one, but a vast 
set of solutions. The ultimate goal must be net zero greenhouse gas 
emissions as soon as is practical, ideally with net zero reductions by 
2050 but no later than by 2070.\22\ This is achievable but will take 
great leadership. To the extent we fail to do this, we will impose 
great costs on ourselves, our youth, and especially on future 
generations. Greenhouse gas reductions must be pursued through a suite 
of actions including carbon pricing, investments in technology, tax 
credits, and even thru Climate Smart Agriculture \23\ which aims to 
increase farm yields while sequestering carbon in soil.
---------------------------------------------------------------------------
    \22\ These are the recommendations from the recent IPPC 1.5 Degree 
Special Report.
    \23\ Colorado State University has a new Climate Smart Agriculture 
initiative and works with the USDA Climate Hubs. Climate Smart 
Agriculture was initially conceived by the Food and Agriculture 
Organization in 2013. See Lipper et al, 2014.
---------------------------------------------------------------------------
                             6. conclusions
    Scientists have attributed changes in the global water cycle to 
human caused climate change including enhanced precipitation in 
hurricanes like Harvey which dropped 50+ inches of rain in 4 days,\24\ 
record-setting droughts like the one in California from 2012 to 
2017,\25\ and recent flow declines in the Rio Grande.\26\ Climate 
change is also clearly impacting river flows in the Colorado River, 
too. Simply put, climate change is water change.
---------------------------------------------------------------------------
    \24\ Risser & Wehner, 2017; Trenberth, et al., 2018.
    \25\ Diffenbaugh, Swain, & Touma, 2015.
    \26\ Chavarria & Gutzler, 2018.
---------------------------------------------------------------------------
    My father was a member of this Committee for over 30 years and 
chaired it for 14 years. This very hearing room is named for him, and 
his portrait overlooks us all. His generation, the greatest generation, 
revered science and the knowledge it provided that allowed us to build 
the amazing water supply infrastructure that now exists on the Colorado 
River.
    That generation did not shy from solving the great problems of its 
day, including how to provide reliable water supplies for the American 
Southwest and how to clean up our environment. My best guess is that in 
this very room the ground breaking 1968 Colorado River Basin Project 
Act was passed out of Committee.
    Similarly, this generation should not shy away from solving the 
great problems of today, which include how do we adapt to climate 
change and how do we stop it. The science on climate change is now 200 
years old, and is very, very clear. When major oil companies accept the 
science \27\ and say we must act, as they have,\28\ the debate should 
be over. It is over in every other major country.
---------------------------------------------------------------------------
    \27\ https://www.scientificamerican.com/article/oil-giant-accepts-
climate-consensus-denies-responsibility-forwarming/.
    \28\ https://corporate.exxonmobil.com/en/Energy-and-environment/
Environmental-protection/Climate-change; http://reports.shell.com/
sustainability-report/2015/energy-transition/addressing-climate-
change.html.
---------------------------------------------------------------------------
    Climate change threatens all we hold dear--our economic well-being, 
our culture, our way of life, our environment, our kids and future 
generations. This is especially clear when it reduces our life-giving 
water supplies as it is now doing in the Colorado River Basin. Climate 
change is the key threat to 21st century water supply reliability.
    To minimize this threat, we must act now by adapting to the coming 
changes with smart water management and policy, with technology, with 
science and also by reducing greenhouse gas emissions as quickly as we 
can.
    Thank you for your time.
                               references

Ault, T.R., et al. (2016). Relative impacts of mitigation, temperature, 
and precipitation on 21st-century megadrought risk in the American 
Southwest. Science Advances, 2(10), e1600873. https://doi.org/10.1126/
sciadv.1600873.

Chavarria, S.B. & Gutzler, D.S. (2018). Observed Changes in Climate and 
Streamflow in the Upper Rio Grande Basin. JAWRA Journal of the American 
Water Resources Association, 54(3), 644-659. https://doi.org/10.1111/
1752-1688.12640.

Cook, B.I., Ault, T.R., & Smerdon, J.E. (2015). Unprecedented 21st 
century drought risk in the American Southwest and Central Plains. 
Science Advances, 1(1), e1400082. https://doi.org/10.1126/
sciadv.1400082.

Dettinger, M., Udall, B., & Georgakakos, A. (2015). Western water and 
climate change. Ecological Applications, 25(8), 2069-2093.

Diffenbaugh, N.S., Swain, D.L., & Touma, D. (2015). Anthropogenic 
warming has increased drought risk in California. Proceedings of the 
National Academy of Sciences, 112(13), 3931-3936. https://doi.org/
10.1073/pnas.1422385112.

Grafton, R.Q., et al. (2018). The paradox of irrigation efficiency. 
Science, 361(6404), 748-750. https://doi.org/10.1126/science.aat9314.

McCabe, G.J., et al. (2017). Evidence that Recent Warming is Reducing 
Upper Colorado River Flows. Earth Interactions, 21(10), 1-14. https://
doi.org/10.1175/EI-D-17-0007.1.

Overpeck, J. & Udall, B. (2010). Dry times ahead. Science, 328(5986), 
1642-1643.

Risser, M.D. & Wehner, M.F. (2017). Attributable Human-Induced Changes 
in the Likelihood and Magnitude of the Observed Extreme Precipitation 
during Hurricane Harvey: Changes in Extreme Precipitation in TX. 
Geophysical Research Letters, 44(24), 12,457-12,464. https://doi.org/
10.1002/2017GL075888.

Trenberth, K.E., et al. (2018). Hurricane Harvey Links to Ocean Heat 
Content and Climate Change Adaptation. Earth's Future, 6(5), 730-744. 
https://doi.org/10.1029/2018EF000825.

Vano, J.A., Das, T., & Lettenmaier, D.P. (2012). Hydrologic 
Sensitivities of Colorado River Runoff to Changes in Precipitation and 
Temperature*. Journal of Hydrometeorology, 13(3), 932-949. https://
doi.org/10.1175/JHM-D-11-069.1.

Vano, J.A. & Lettenmaier, D.P. (2014). A sensitivity-based approach to 
evaluating future changes in Colorado River discharge. Climatic Change, 
122(4), 621-634. https://doi.org/10.1007/s10584-013-1023-x.

Vano, J.A., et al. (2014). Understanding Uncertainties in Future 
Colorado River streamflow. Bulletin of the American Meteorological 
Society, 95(1), 59-78.

Ward, F.A. & Pulido-Velazquez, M. (2008). Water conservation in 
irrigation can increase water use. Proceedings of the National Academy 
of Sciences, 105(47), 18215-18220.

Woodhouse, C.A., et al. (2016). Increasing influence of air temperature 
on upper Colorado River streamflow. Geophysical Research Letters, 
2015GL067613. https://doi.org/10.1002/2015GL067613.

                                 ______
                                 

    Mr. Huffman. Thank you, Mr. Udall. The next witness is Mr. 
Jonathan Nelson from the Community Water Center, a non-profit 
environmental justice organization based in California's San 
Joaquin Valley. The Community Water Center works to ensure that 
all communities have access to safe, clean, and affordable 
drinking water. The Chair now recognizes Mr. Nelson to testify.
    Welcome, sir.

STATEMENT OF JONATHAN NELSON, POLICY DIRECTOR, COMMUNITY WATER 
                  CENTER, VISALIA, CALIFORNIA

    Mr. Nelson. Thank you, Chairman Huffman, Ranking Member 
McClintock, and members of the Subcommittee. My name is 
Jonathan Nelson. I am the policy director of the Community 
Water Center, or CWC, an environmental justice organization 
that works in the southern San Joaquin Valley and central coast 
of California, whose vision is to ensure that all communities 
in California and in America can have access to safe, clean, 
and affordable water, through organizing education and 
advocacy.
    CWC also works as part of national coalitions to address 
issues related to safe and affordable drinking water supply 
across America.
    At CWC, we believe that access to safe drinking water is a 
basic human right. Yet, each year, millions of Americans are 
impacted by unsafe water supply, including more than 1 million 
in California. The data shows toxic drinking water 
disproportionately impacts low-income communities of color. 
Access to safe drinking water supply is a public health crisis, 
and it is happening under our watch.
    With this as quick background, I would like to offer two 
points at the intersection of climate change and water supply.
    First, climate change is already hurting access to safe 
water supply in our communities. Climate science is clear that 
droughts have the potential to become more frequent, longer, 
and more severe. We saw that during the recent historic drought 
in California, where over 10,000 Californians were impacted by 
loss of water supply.
    Communities like East Porterville, which had already faced 
inequitable development and contaminated water, went dry as 
farmers increasingly tapped into groundwater at unsustainable 
rates, resulting in a reality where low-income communities 
simply could not afford to chase the falling groundwater table. 
It was a human catastrophe. Just imagine going home at the end 
of today and not having water in your house, and having to have 
your family rely on portable community showers and tanked 
water.
    What is worse, Stanford has documented the negative 
relationship between stressed water supply and water quality. 
The take-away is that climate change and more severe droughts 
are the new normal, and we cannot look at issues of water 
supply and water quality in isolation; they are fundamentally 
connected.
    The second point I would like to offer is to take proactive 
action now to protect water supply for our most vulnerable 
communities before the next water shortage crisis hits. CWC has 
worked with others in California to recently pass proactive 
drought preparedness legislation that would require more 
advance drought emergency planning, and that also requires the 
state of California to proactively identify communities that 
may be at risk of future water supply shortage in the event of 
a drought.
    CWC is also working to implement legislation that requires 
better stewarding of our precious groundwater resources, to 
make sure that they last for future generations.
    Finally, as already has been pointed out, we need far 
greater levels of Federal investment, which has shrunk 
dramatically in recent decades. These are just some of the 
actions that we can take to avoid another climate-caused water 
catastrophe, and we would like to work with this Congress in 
taking action before it is too late.
    To close, we believe that access to safe and affordable 
drinking water is a basic human right. Yet, millions are 
impacted by toxic water each year. This is not an abstract 
issue, if you live in one of these impacted communities, and it 
is only going to get worse as we move forward into a new normal 
of climate change. Climate change is going to only accelerate 
the challenges, but we can take action now to protect our 
communities. So, we urge Congress to act. Thank you.

    [The prepared statement of Mr. Nelson follows:]

Prepared Statement of Jonathan Nelson, Policy Director, Community Water 
                      Center, Visalia, California

         introduction and background on community water center

    Chairman Huffman, Ranking Member McClintock, and members of the 
Subcommittee, thank you for the opportunity to present testimony as 
part of this informational hearing.
    My name is Jonathan Nelson and I am the Policy Director of the 
Community Water Center. I am here today to share with you information 
and our perspective on the challenges and solutions regarding access to 
safe drinking water supply in California, and particularly in 
California's San Joaquin Valley and Central Coast regions.

    As background, the Community Water Center is an Environmental 
Justice non-profit founded in 2006 and headquartered in Visalia, 
California, in the Southern San Joaquin Valley. The vision of the 
Community Water Center, or CWC, is to ensure all communities have 
access to safe, clean, and affordable water. CWC works as a catalyst 
for community-driven water solutions through organizing, education, and 
advocacy in California's San Joaquin Valley and Central Coast. We build 
grassroot capacity to address water challenges in small, rural, low-
income communities and communities of color, and also engage on 
statewide drinking water policy. CWC also works as part of national 
coalitions to address issues related to safe and affordable drinking 
water across the country.

    In our view, those directly impacted by water contamination must 
lead in creating and advocating for solutions. At CWC, we strive to 
reduce barriers that prevent impacted residents from participating 
effectively in decision making, and we firmly believe that in order to 
solve California's drinking water crisis, all stakeholders must have a 
seat at the table.

                background on our drinking water crisis

    At CWC, we believe that access to safe drinking water is a basic 
human right, not a privilege. Yet each year millions of people across 
the country depend on drinking water systems that serve unsafe water 
\1\ and in California alone more than 1 million Californians are 
exposed to unsafe drinking water from the taps in their homes, schools, 
and communities.\2\ Although water problems exist statewide in 
California, they disproportionately impact low income communities and 
communities of color.\3\
---------------------------------------------------------------------------
    \1\ Maura Allaire et al., National trends in drinking water quality 
violations, 115 Proc. Nat'l Acad. of Sci., U.S. 2078, 2078 (2018), 
https://perma.cc/Y9FU-SC7C (``[I]n 2015, nearly 21 million people 
relied on community water systems that violated health-based quality 
standards.'') (this number only includes those who rely on water 
systems and not on private domestic wells).
    \2\ https://www.politifact.com/california/statements/2019/feb/14/
gavin-newsom/true-more-million-californians-dont-have-clean-dri/.
    \3\ http://d3n8a8pro7vhmx.cloudfront.net/communitywatercenter/
pages/52/attachments/original/1394398105/
Balazsetal_Arsenic.pdf?1394398105.
---------------------------------------------------------------------------
    California's San Joaquin Valley and Central Coast, where we 
organize in, is particularly impacted. The San Joaquin Valley alone 
hosts some of the most contaminated water basins in the nation,\4\ yet 
nearly 95 percent of San Joaquin Valley residents rely on groundwater 
for their domestic needs.\5\ This results in the San Joaquin Valley 
having the highest rates of drinking water contamination and the 
greatest number of public water systems with Maximum Contaminant Level 
(MCL) violations in the state.\6\
---------------------------------------------------------------------------
    \4\ Exceedance/Compliance Status of Public Water Systems, Cal. 
Water Bd., https://perma.cc/CF55-6XYW (last visited October 13, 2018, 2 
PM),; Eli Moore et al., The Human Costs of Nitrate-Contaminated 
Drinking Water in the San Joaquin Valley 11 (2011), https://perma.cc/
67GX-3ASC.
    \5\ Carolina Balazs et al., Social Disparities in Nitrate-
Contaminated Drinking Water in California's San Joaquin Valley, 119 
Envtl. Health Persp. 1272, 1273 (2011), https://perma.cc/JX8V-DHXC.
    \6\ http://waterboards.ca.gov/water_issues/programs/hr2w/
index.shtml.
---------------------------------------------------------------------------
    In addition to the acute health risks associated with the Central 
Valley's and Central Coast's water contamination, communities face the 
disproportionate economic burden that stems from a lack of basic urban 
water infrastructure. Residents are often forced to pay twice for 
water, having to purchase bottled water to supplement the unsafe tap 
water delivered to their homes. These drinking water costs alone can 
amount to as much as 10 percent of a household's income.\7\ In other 
words, those most affected by the lack of safe water are also those 
least able to afford the extra cost of alternative water sources.
---------------------------------------------------------------------------
    \7\ http://d3n8a8pro7vhmx.cloudfront.net/communitywatercenter/
pages/52/attachments/original/1394397950/assessing-water-
affordability.pdf?1394397950.
---------------------------------------------------------------------------
    Droughts and other water supply stressers only exacerbate the 
challenge. California has recently emerged from the most severe drought 
in the state's recorded history. Thousands of wells went dry, which 
forced communities and residents to turn on old, contaminated back-up 
wells or rely on emergency drinking water supplies like trucked water 
or bottled water. For a long time, many residents were filling buckets 
from their neighbors' water hoses in order to have enough water for 
basic sanitation. And we still have communities and private well owners 
whose wells remain dry years later.
    Finally, the communities most impacted by unsafe drinking water 
were for decades continuously and deliberately excluded from full 
participation in their local water decision-making governance. And 
still today there are challenges in ensuring adequate participation by 
local communities in water governance.
    We know through experience that if you give communities a seat at 
the table, and empower them with the information they need, that they 
can meaningfully participate in the decision-making process--and that 
the solutions that result will better reflect the needs of communities.
     solutions to secure safe drinking water supply for vulnerable 
               communities in the face of climate change
    I would like to spend the remainder of my remarks today outlining a 
few areas of need at the intersection of climate change and access to 
safe drinking water supply.

The first point is acknowledging that climate change is already having 
a direct impact on access to safe drinking water supply for vulnerable 
communities.

    The California community of East Porterville was severely and 
disproportionately impacted during the 2011-2017 drought. East 
Porterville is an unincorporated community of around 7,000 people in 
Tulare County, California. Up until recently, due to inequitable 
development patterns, nearly all East Porterville residents were served 
by private domestic wells. As many as 300 wells were reported dry over 
the drought years of 2014 and 2015. What is worse, many wells in the 
area had tested positive for nitrates, a dangerous contaminant. As 
surface water deliveries diminished, farmers increasingly tapped into 
groundwater at unsustainable rates. This resulted in plummeting 
groundwater levels, causing land subsidence and a reality where low-
income communities could not afford to keep drilling to chase the 
falling groundwater table--causing domestic and shallow municipal wells 
to go dry.
    In response, CWC worked collaboratively with both local and state 
government to address what had become a grave public health crisis. The 
solution involved both interim and long-term drinking water solutions. 
The interim measures included emergency bottled water, water tanks, and 
portable showers--however these band-aid measures came at great 
financial cost to the state of California, an estimated $633,500 per 
month just for East Porterville--that's $7.6 million per year.\8\ The 
long-term solution involved a consolidation for residents on domestic 
wells into the city of Porterville's water system. CWC conducted large-
scale community outreach to ensure residents understood their options 
and what to expect if they chose to connect to the city of 
Porterville's water system. Since then, more than 700 East Porterville 
homes have been connected to the city of Porterville's public water 
system and now have a source of safe and reliable water for years to 
come.
---------------------------------------------------------------------------
    \8\ https://water.ca.gov/-/media/DWR-Website/Web-Pages/What-We-Do/
Emergency-Management/Files/East-Porterville/East-
Porterville_Feasibility-Study_Public-Draft_Rev_060316-1.pdf--pg. 35.
---------------------------------------------------------------------------
    Unfortunately East Porterville was not an isolated incident. In 
2014, USDA granted more than $4 million in emergency funding to 11 
public water districts in Tulare County alone to address water supply 
shortfalls.\9\ Over 10,000 Californians suffered inadequate access to 
water supply during the drought.\10\ Most of these Californians resided 
in low-income communities of color that at worst had experienced 
historic discrimination and at best insufficient levels of funding 
investment. Climate change science tells us there will be more East 
Porterville type emergencies in the future, as droughts become more 
frequent, longer, and more severe. It is not a question of if the next 
drought strikes, but when.
---------------------------------------------------------------------------
    \9\ https://www.visaliatimesdelta.com/story/news/local/2014/07/28/
tulare-county-gets-million-drought-help/13266557/.
    \10\ State of California Household Water Supply Shortage Reporting 
System.
---------------------------------------------------------------------------
    The East Porterville story also illustrates what real solutions 
look like--in this case, funding to support consolidation of households 
to a nearby water agency that still had access to water, coordination 
between multiple levels of government, engagement with community-based 
organizations. These solutions will continue to be needed as we grapple 
with a new normal at the intersection of climate change, drought, and 
our most vulnerable communities.
    Finally, it is worth noting the relationship between water supply 
and water quality, which is often not talked about. We repeatedly found 
increased challenges with water quality in California's Central Valley 
due to the drought and the resulting (even more) stressed water supply 
as the composition of the aquifers changed. 6Stanford University has 
recently released a study \11\ documenting the negative relationship 
between stressed water supply and water quality in the aquifers. The 
takeaway is we cannot look at issues of water supply and water quality 
in isolation--they are fundamentally connected.
---------------------------------------------------------------------------
    \11\ https://news.stanford.edu/press-releases/2018/06/05/
overpumping-groundwater-increases-contamination-risk/.

The second point is around proactively building resilient drinking 
water institutions, particularly in our most vulnerable and 
disadvantaged communities, in order to secure a safe and affordable 
---------------------------------------------------------------------------
water supply in the face of climate change.

    What do we mean by building resilient drinking water institutions? 
To us, resilient drinking water institutions are those that have the 
capacity to provide safe drinking water both now and for the long term, 
in the face of complex challenges such as resulting from water 
contamination, over-depletion of groundwater sources, and stressors 
like population growth--and perhaps most critically, climate change.
    There are a number of actions we are pursuing in California to 
better prepare for when the next drought hits, so that we never again 
subject so many to such horrific conditions. In addition to responding 
to the real-time impacts of climate change and drought emergencies, CWC 
has worked over the last few years to pass proactive drought 
preparedness legislation. For example, CWC worked collaboratively with 
numerous other organizations to put forward legislation in 2017, 
California Assembly Bill 1668, that would require certain planning 
measures to be taken before a drought hits so that we can build more 
resiliency ahead of time for our most vulnerable communities. 
Importantly, the legislation would (1) require the state of California 
to work with the appropriate water and government stakeholders to 
develop recommended guidelines for drought and water shortage 
contingency planning/emergency response, and (2) proactively identify 
communities that may be at risk of water shortage in a future drought. 
This is just one example of policies we are pursuing in California to 
build resiliency for our most vulnerable communities in response to a 
future of increased climate change and drought.
    Another important effort in California to prepare for a future of 
climate change and increased drought is to better steward our precious 
groundwater sources. In 2014 California passed legislation, the 
Sustainable Groundwater Management Act or SGMA, to address a reality of 
over-pumping of groundwater aquifers that directly contributed to so 
many vulnerable Californians losing access to water during the drought. 
SGMA requires the creation of Groundwater Sustainability Agencies and 
Plans in order to achieve sustainability of groundwater use while 
protecting the needs of communities and drinking water. SGMA is still 
in the early stages of implementation and we have serious concerns that 
the interests of small communities are being overshadowed or even 
ignored by larger, more powerful interests. That said, SGMA does at 
least offer a pathway toward greater sustainability of how groundwater 
is used--so that it can be preserved and stewarded for the generations 
to come.
    Most importantly it must be noted that lasting change must start 
within the community and has to be sustained by the community. We must 
ensure that both funding processes and planning processes allow for 
meaningful community engagement, not just a rubber stamp, so that 
solutions can best reflect their needs.
    Finally, we need to acknowledge that we need far greater levels of 
Federal investment. A recent California State Water Board report found 
that ``the percentage of federal support in the total public spending 
on infrastructure for water utilities has fallen from over 30% in the 
1970s to less than 5 percent in 2015.'' \12\ Congress must invest more 
into ensuring access to a safe and affordable drinking water supply if 
we are ever to secure every American's basic human right to water in 
our country.
---------------------------------------------------------------------------
    \12\ https://www.waterboards.ca.gov/water_issues/programs/
conservation_portal/assistance/docs/2019/draft_report_ab401.pdf.
---------------------------------------------------------------------------
                               conclusion
    To reiterate, we believe that access to safe, clean and affordable 
drinking water is a basic human right. Securing this basic human right 
for everyone in the United States is within reach if we muster the 
political will and back it with the necessary funding investments. The 
need is more urgent than ever in the face of climate change, which is 
accelerating the set of challenges to ensuring universal access to a 
safe and affordable water supply. We urge Congress to act.
    Thank you again for the opportunity to present as part of this 
hearing, and please do not hesitate to reach out if we can be a further 
resource or of assistance.

    Thank you.

                                 ______
                                 

    Mr. Huffman. Thank you, Mr. Nelson. Next we will recognize 
Mr. Tony Willardson, who serves as the Executive Director of 
the Western States Water Council. The Council is appointed by 
the 18 Republican and Democratic governors of the western 
states to work on water policy issues.
    Thank you for being here, Mr. Willardson. The Chair now 
recognizes you for 5 minutes.

   STATEMENT OF TONY WILLARDSON, EXECUTIVE DIRECTOR, WESTERN 
               STATES WATER COUNCIL, MURRAY, UTAH

    Mr. Willardson. Thank you, Chairman Huffman and Ranking 
Member McClintock, and other members of the Subcommittee. We 
appreciate the opportunity to testify on positions that the 
Council has adopted. I would point out that we are a government 
entity. We are an instrumentality of each and every 
participating state, which includes the 17 reclamation states 
and Alaska.
    A secure water future is increasingly uncertain, due to a 
number of factors. This includes limited data regarding water 
supply, as well as demands in existing uses; unpredictable 
climate extremes, such as drought; aging and often inadequate 
infrastructure; competing and poorly defined water rights; 
changing values and regulatory requirements; and integrated 
collaborative and grass roots approaches needed to water 
resources management. And this is going to require stronger 
cooperation that transcends geographical boundaries between 
states, Federal agencies, tribes, and local communities.
    Emphasizing, obviously, from our state perspective, the 
states have a primary responsibility for water resources 
management. But also we strive to cooperate with national, 
regional, local, and tribal entities with their 
responsibilities and seek cooperation, rather than conflict and 
litigation.
    Water data is an area where we need to place a high 
priority. There are many vital water data programs, but in 
2007, the National Science and Technology Council simply stated 
that quantitative knowledge of U.S. water supply is currently 
inadequate. That remains the case.
    Here, this Committee has jurisdiction over the USGS and 
their Groundwater and Streamflow Information Program, over the 
National Water-Quality Assessment and water use data, as well 
as land imaging and thermal infrared imaging with Landsat. And 
I mentioned the Bureau of Reclamation's Agrimet weather station 
network, as well.
    We need to invest more in the water data that is critical 
for decision making. The Council supports state and Federal 
applied research and hydroclimate data collection programs that 
assist water agencies at all levels of government to adapt to 
climate variability, and make sound scientific decisions. 
Future decision making will depend on our ability to 
understand, monitor, predict, and adapt to climate variability. 
It has serious consequences, as has been described.
    The Council also supports Reclamation's drought response 
program, as well as other Federal programs, including the 
National Integrated Drought Information System. I co-chair the 
executive council for NIDIS. It is a recurring threat, and NOAA 
estimates between 2015 and 2017, it cost this country $11 
billion. We need to improve our ability to observe, understand, 
model, predict, and adapt to variability.
    And the Bureau of Reclamation has a rule here, as well, and 
particularly given their interest in forecasts as part of 
reservoir operations. Seasonal to sub-seasonal forecasting is 
an area where we need a better understanding of hydro-climatic 
processes, dynamical earth system modeling, and probabilistic 
outlooks of climate extremes. We need to improve our western 
observing systems as it relates to extreme events.
    The Council also supports integrated energy and water 
program and project planning. We enjoy diverse and abundant 
energy resources in the West that include renewable and non-
renewable. We need to maintain adequate and sustainable 
supplies of clean water and energy, which are inter-related 
challenges.
    And I would also mention the Council supports hydropower 
development, a reasonable development that includes protecting 
our environmental resources, consistent with the state's 
authority under the Clean Water Act section 401. Hydropower is 
a vital part of our energy portfolio.
    I had mentioned briefly infrastructure and the challenges 
that we face there with the aging infrastructure. Many have 
exceeded their design life. Inadequate and untimely funding is 
increasing those costs. The Council particularly supports 
funding for rural water projects, many of which have been 
unfunded, as well as for tribal water projects.
    And I would conclude by mentioning the importance to us of 
using the Reclamation Fund, which was created by Congress in 
1902 with revenues and receipts from water and power sales, 
from Federal land sales, from mineral leasing and oil and gas 
revenues to fund these kinds of projects. Currently, the 
unobligated balance is nearly $16 billion, and that money has 
been spent for other Federal purposes, contrary to the original 
intent of Congress.
    Thank you for the opportunity to testify.

    [The prepared statement of Mr. Willardson follows:]
  Prepared Statement of Tony Willardson, Executive Director, Western 
                          States Water Council
                     introduction/vision statement
    Chairman Huffman, Ranking Member McClintock and members of the 
Subcommittee: My name is Tony Willardson and I am the Executive 
Director of the Western States Water Council (WSWC). The Council is a 
bi-partisan government entity created by western governors in 1965 as a 
policy advisory body representing 18 western states. Our members are 
appointed by their governors, and we have a small staff located in Salt 
Lake City, Utah.
    My testimony is based on our existing policy position statements 
covering many water issues that fall under the jurisdiction of the 
Subcommittee and Committee. All our policy positions are available 
online at www.westernstateswater.org/policies-2/.
    Water is an increasingly scarce and precious resource and should be 
a public policy priority. In the West, water is critically important to 
our public health, economy, food security, environment, and western way 
of life. We must cultivate a water conservation ethic through greater 
understanding of, and appreciation for, water's value.
    Population growth, competing economic and ecological demands, and 
changing social values have stressed surface and groundwater supplies 
in many areas. As a result, the number and complexity of conflicts 
among users and uses is increasing. A secure water future is becoming 
increasingly uncertain. Numerous factors contribute to the uncertainty, 
including our unpredictable climate, aging and often inadequate 
infrastructure, data limitations regarding water supplies and demands, 
competing or poorly defined water rights, and a constantly evolving 
regulatory landscape.
    An integrated, collaborative, and grassroots approach to water 
resources management is essential to ensure an adequate, secure and 
sustainable supply of water of suitable quality to meet our diverse 
economic and environmental needs now and in the future. This will 
require stronger collaboration and cooperation that transcends 
political and geographic boundaries between states, Federal agencies, 
tribes, and local communities. We should work together to identify 
water problems and develop optimal solutions at the lowest appropriate 
level of government. Striving for cooperation rather than conflict and 
litigation, we must recognize and respect national, state, regional, 
local and tribal differences in values related to water resources.
    The States' primary stewardship over water resources is fundamental 
to a sustainable water future. Federal water planning, policy 
development, regulation, protection, and management must recognize, 
defer to, and support state water laws, plans, policies, and programs, 
as well as state water rights administration, adjudication and 
regulation, compacts and settlements. Rather than attempt to dictate 
water policy, the Federal Government should engage states early in 
meaningful consultation--avoiding, or at least minimizing, the need for 
Federal regulatory mandates. Further, the Federal Government should 
contribute its fair share of funding in support of Federal obligations 
and objectives that may be implemented as part of state water planning, 
management, and protection programs and projects.
    A secure and sustainable water future will be determined by our 
ability to maintain, replace, expand and make the most efficient use of 
critical water infrastructure. We must preserve and improve existing 
infrastructure, as well as encourage and support innovative water 
supply strategies and new storage options to better balance supplies 
with demands.
    All levels of government must prioritize the collection, analysis 
and open sharing of reliable data regarding water availability, 
quality, and usage given its importance to research for sound science 
and data driven decision making.
                               water data
    The Western States Water Council urges the Congress and the 
Administration to give a high priority to the allocation and 
appropriation of sufficient funds for vital water data programs, which 
benefit so many, yet have been, or are being allowed to erode to the 
point that it threatens the quantity and quality of basic water data 
provided to a myriad, growing and diffuse number of decision makers and 
stakeholders, with significantly adverse consequences. (WSWC Position 
#428, October 26, 2018)
    This includes the Bureau of Reclamation's Agrimet network of 
weather stations and similar networks that provide data used for 
improving agricultural water use efficiency and ground-truthing, 
calibrating and validating remote-sensing platforms such Landsat. (WSWC 
Position #418, March 14, 2018)
    Quoting from a 2007 National Science and Technology Council report, 
A Strategy for Federal Science and Technology to Support Water 
Availability and Quality in the United States, September 2007: ``Many 
effective programs are underway to measure aspects of our water 
resources. However, simply stated quantitative knowledge of U.S. water 
supply is currently inadequate. A robust process for measuring the 
quantity and quality of the Nation's water resources requires a systems 
approach. Surface water, groundwater, rainfall, and snow-pack all 
represent quantities of water to be assessed and managed--from the 
perspectives of quantity, quality, timing, and location.''
    Sound decision making demands accurate and timely data on 
precipitation, temperature, evapo-transpiration, soil moisture, snow 
depth, snow water content, streamflow, groundwater, water quality and 
similar information.
    The demands for water and related climate data continue to 
increase, and this information is used by Federal, state, tribal, and 
local government agencies, as well as private entities and individuals 
to: (1) forecast flooding, drought and other climate-related events; 
(2) project future water supplies for agricultural, municipal, and 
industrial uses; (3) estimate streamflows for hydropower production, 
recreation, and environmental purposes, such as for fish and wildlife 
management, including endangered species needs; (4) facilitate water 
management and administration of water rights, decrees, and interstate 
compacts; and (5) design and construct resilient water infrastructure 
projects.
    Without timely and accurate information, human life, health, 
welfare, property, and environmental and natural resources are at 
considerably greater risk of loss. Data gathering and analysis needs 
transcend administrative agency boundaries and congressional committee 
jurisdiction requiring collaboration. State-of-the-art technology has 
been and is being developed to provide real or near real-time data in 
formats that can be shared and used by different computer programs with 
the potential to vastly improve the water-related information available 
to decision makers in natural resources and emergency management, and 
thus better protect the public safety, welfare and the environment.
    Vital information is gathered and disseminated through a number of 
important Federal programs that provide useful products to assist in 
visualizing and interpreting data on water and snow, making water 
supply and availability information more accessible, and easy to 
interpret.
    These include, but are not limited to: (1) the Snow Survey and 
Water Supply Forecasting Program, administered by the National Water 
and Climate Center (NWCC) in Portland, Oregon, and funded through 
USDA's Natural Resources Conservation Service (NRCS); (2) NWCC's Soil 
and Climate Analysis Network (SCAN); (3) the U.S. Geological Survey's 
(USGS) Groundwater and Streamflow Information Program (GWSIP) and 
National Streamflow Network, which are funded through the Department of 
the Interior; (4) Landsat thermal data, archived and distributed by the 
USGS, and other remotely sensed data acquired through the National 
Atmospheric and Space Administration (NASA) and its water-related 
missions; (5) the National Oceanic and Atmospheric Administration's 
(NOAA) National Weather Service and Climate Programs Office; and (6) 
the Environmental Protection Agency's National Environmental 
Information Exchange Network (NEIEN).
    Over many years, the lack of capital investments in water data 
programs has led to the discontinuance, disrepair, or obsolescence of 
vital equipment needed to maintain existing water resources related 
data gathering activities. There is a serious need for adequate and 
consistent Federal funding to maintain, restore, modernize, and upgrade 
Federal water, weather and climate observation programs, not only to 
avoid the loss or further erosion of critical information and data, but 
also to address emerging needs, with a primary focus on coordinated 
data collection and dissemination.
                           climate adaptation
    The Council supports state and Federal applied research and 
hydroclimate data collection programs that would assist water agencies 
at all levels of government in adapting to climate variability and 
making sound scientific decisions. (WSWC Position #421, March 14, 2018)
    Climate variability has serious potential consequences for water 
supply availability, water resources planning and management, water 
rights administration, flood management, and water quality management. 
Further, much of the West's water infrastructure was designed and 
constructed prior to our current understanding of climate variability, 
often from short hydrologic records from the first half of the 20th 
century. The impacts of climate variability can include increased 
frequency and intensity of severe weather (droughts and floods), 
reduction of mountain snowpacks, changes in timing and amount of 
snowmelt runoff, and changes in plant and crop evapotranspiration 
resulting in changed water demand patterns.
    Climate variability leads to additional stress on western water 
resources, which are already challenged by population growth, 
competition for scarce resources, increasingly stringent environmental 
regulations, and other factors. Water resources planning and management 
at all levels of government and sound future decision making depend on 
our ability to understand, monitor, predict, and adapt to climate 
variability. The Council has over the years co-sponsored several 
workshops to gather input on climate adaptation and research needs, 
including research on extreme events. These workshops and various 
Federal reports have helped in identifying knowledge gaps, research 
needs, opportunities to improve planning capabilities, and other 
activities that would assist in climate adaptation including those that 
could impact water quality and thus, available water supply.
    Applied research needs and improvements to water resources planning 
capabilities include subjects such as evaluation of modifications to 
reservoir flood control rule curves, evaluation of the adequacy of 
existing Federal hydroclimate monitoring networks, improvements to 
extreme precipitation observing networks and forecasting capabilities, 
development and improvement of applications for remote sensing data 
(satellite imagery), preparation of reconstructed paleoclimate datasets 
for drought analyses, and development of new guidelines for estimation 
of flood flow frequencies.
                          drought preparedness
    The Council supports the Bureau of Reclamations Drought Response 
Program, as well as other Federal programs including, but not limited 
to, the National Integrated Drought Information System (NIDIS), under 
the National Oceanic and Atmospheric Administration (NOAA), and other 
programs designed to improve our forecasting and response capabilities. 
Further, the Council urges and encourages the Congress and the 
Administration to assess and consider the need for a comprehensive 
national drought preparedness and response program on par with Federal 
efforts to address natural disasters such as hurricanes, tornadoes, 
floods and similar extreme events. (WSWC Policy Position #430, October 
26, 2018)
    Since its inception the Council has been actively involved in 
national drought preparedness, planning and response, as well as 
related policy and program development and implementation. Drought is a 
recurring threat. According to the National Oceanic and Atmospheric 
Administration (NOAA), National Centers for Environmental Information, 
from 2015-2017, economic losses due to drought have been estimated at 
$11.1 billion.
    The Bureau of Reclamation's current Drought Response Program 
supports a proactive approach to drought and provides financial 
assistance to water managers and users via its WaterSMART program to: 
(1) develop drought contingency plans; (2) implement drought resiliency 
projects to build the capacity of communities to mitigate and respond 
to drought--increasing the reliability of water supplies, improving 
water management and operational flexibility, facilitating voluntary 
sales, transfers or exchanges of water, and providing benefits for fish 
and wildlife and the environment; and (3) undertake emergency actions 
to minimize losses due to drought through temporary construction 
activities and other activities, including water purchases and the use 
of Reclamation facilities to convey and store water.
    The Council strongly supports legislation to permanently authorize 
Title I activities under the Reclamation States Emergency Drought 
Relief Act and provide adequate appropriations to meet priority needs 
and continue the Reclamation Drought Response Program. There is a 
continuing need for making permanent the temporary authority allowing 
Reclamation the flexibility to continue delivering water to meet 
authorized project purposes, meet environmental requirements, respect 
state water rights, work with all stakeholders, and provide leadership, 
innovation, and assistance.
    There is a need for maintaining and improving existing monitoring 
networks that help provide drought early warning signals, as well as 
for tracking the impacts of drought. There is a continuing need for 
developing new monitoring technologies, such as remote sensing, that 
provide more timely data on water availability and better spatial 
coverage for assessing water supplies and drought impacts. The 
collection of basic monitoring data on streamflow, snow pack, 
groundwater levels, and weather and climate data are essential to 
understanding water availability and interpreting the early signs of 
drought. (WSWC Position #429, October 26, 2018)
                  subseasonal and seasonal forecasting
    The Council urges the Federal Government to support and place a 
priority on research to improve subseasonal to seasonal (S2S) forecasts 
and research related to extreme events, including research on better 
understanding of hydroclimate processes, paleoflood analysis, design of 
monitoring networks, and probabilistic outlooks of climate extremes. 
Further, the Council supports development of an improved observing 
system for Western extreme precipitation events such as atmospheric 
river storms, as well as baseline and enhanced stream, snow and soil 
moisture monitoring capabilities.
    Western states experience great subseasonal, seasonal, and annual 
variability in precipitation, with serious impacts and consequences for 
water supply planning and management, drought and flood preparedness 
and response, water rights administration, operation of water projects, 
and aging water infrastructure. Sound decision making to protect life 
and property by reducing flood risks and to inform decisions involving 
billions of dollars of economic activity for urban centers, 
agriculture, hydropower generation, and fisheries depends on our 
ability to observe, understand, model, predict, and adapt to 
precipitation variability on operational time scales ranging from a few 
weeks to a season or more. Investments in observations, modeling, high-
performance computing capabilities, research and operational 
forecasting of precipitation provide an opportunity to significantly 
improve planning and water project operations to reduce flood damages, 
mitigate economic and environmental damages, and maximize water storage 
and water use efficiency. (WSWC Position #399, April 14, 2017)
    The Federal Government should place a priority on continuing 
Federal research to develop new and improved predictive capabilities 
for precipitation at subseasonal to seasonal time scales (as described 
in the report to Congress prepared by NOAA pursuant to Title II of PL 
115-25). Our present scientific capability for forecasting beyond the 
weather time domain--beyond the 10-day time horizon--and at the 
subseasonal to interannual time scales important for water management 
is not skillful enough to support water management decision making. The 
Council has sponsored a number of workshops on hydroclimate data and 
extreme events, to identify actions that can be taken at planning to 
operational time scales to improve readiness for extreme events. 
Multiple approaches have been identified at these workshops that could 
be employed at the planning time scale, including ensembles of global 
circulation models, paleoclimate analyses, and improved statistical 
modeling, to improve flood frequency analysis and/or seasonal 
forecasting. (WSWC Position #407, June 29, 2017)
    Advances in forecasting research, such as the hydrometeorological 
testbed program on West Coast atmospheric rivers, demonstrate the 
potential for improving extreme event forecasting at an operational 
time scale. The Federal Government should sustain and expand its 
Hydrometeorology Testbed-West program, in partnership with states and 
regional centers, to build upon the initial progress made in that 
program for developing and installing new technologies for 
precipitation observations.
    The responsibility for operational weather forecasting rests with 
the National Weather Service (NWS), but improvements through Forecast 
Informed Reservoir Operations (FIRO) is also of particular interest to 
the Bureau of Reclamation and U.S. Army Corps of Engineers, which can 
also contribute to this effort.
                        infrastructure financing
    The Council supports appropriate Federal investments in water 
infrastructure projects and programs that provide jobs and economic 
security, while protecting the environment--as well as dedicated 
Federal water infrastructure funding. (WSWC Position #419, March 14, 
2018)
    The West and the Nation depend on an intricate and aging system of 
weirs, diversions, dams, reservoirs, pipelines, aqueducts, pumps, 
canals, laterals, drains, levees, wells, stormwater channels, and water 
and wastewater treatment and hydroelectric power plants. Maintaining 
and delivering sufficient supplies of water of suitable quality is key 
to maintaining the Nation's and the West's economic prosperity, meeting 
our environmental needs, and sustaining our quality of life, both now 
and in the future. Appropriate water-related infrastructure investments 
ensure our continued ability to store, manage, conserve, and control 
water during both floods and droughts--as well as protect and treat our 
water resources. Existing and new infrastructure is critical to meet 
drinking water, wastewater treatment, irrigation, hydropower, flood 
control, interstate compact, tribal and international treaty, fish and 
wildlife habitat needs.
    Water infrastructure in the West is financed and maintained under a 
complex network of state, tribal, local, private, and Federal 
ownership, benefiting a broad segment of water users and other 
stakeholders. Aging water infrastructure has deteriorated--due to 
underfunded and deferred maintenance, repair, and replacement needs--
and in many cases has exceeded its useful life span, raising public 
health and safety issues, risking loss of life and threatening public 
and private property. Inconsistent, inadequate, and untimely funding 
increases project construction and financing costs, as well as risk, 
including the failure of critical infrastructure. Substantial and 
sustained investments in water project construction, maintenance, 
rehabilitation and replacement is necessary and pays long-term 
dividends to the economy, public health and safety, and the 
environment. The Council supports appropriate infrastructure asset 
management and capital budgeting.
    Existing Federal, state and local programs to publicly finance 
water-related infrastructure projects are crucial, but insufficient to 
meet water quality and water resources management challenges related to 
future growth, including municipal, industrial, agricultural, 
environmental, and energy needs. Water infrastructure systems require 
ongoing, thoughtful investments to account for life cycle costs, and 
should be managed with planned retirement or replacement in mind.
    The Federal Government has a significant role to play in financing 
and cost-sharing for water-related infrastructure given Federal 
economic and environmental objectives, Federal tribal trust and treaty 
obligations, other past commitments, and Federal regulatory mandates. 
Federal financial resources are limited, and many authorized Federal 
water infrastructure projects have not been started or remain 
incomplete for decades due to inconsistent, incremental, or 
insufficient appropriations; permitting and licensing backlogs; 
duplicative environmental reviews; litigation delays; and oversight by 
multiple Federal agencies without adequate interagency coordination.
    Further, current Federal budget scoring guidelines assess the full 
cost of infrastructure investments up front, while disproportionately 
discounting long-term economic, public health and safety, and 
environmental benefits--sometimes making new water project investments 
challenging to justify financially.
    Local water district and state agency investments, private capital 
markets, performance-based contracting, and other alternatives offer 
help to close the Federal funding, delivery, and maintenance gaps, and 
meet some of our national water infrastructure needs in partnership 
with Federal agencies. Such partnerships have the potential to reduce 
overall project development costs and risks associated with such 
capital investments, expedite project delivery and associated water 
resource benefits, improve efficiencies and cost effectiveness, and 
maximize the respective strengths of the public and private sectors. 
Opportunities exist to leverage Federal and non-Federal funding through 
grants, loans and credit enhancements, as well as provide greater 
access to private sources of financing.
    One challenge is that Federal agencies often lack legislative 
authority to dedicate a sustained revenue stream to assure non-Federal 
investors are fairly compensated for the costs and risks of 
constructing or maintaining Federal water projects, sometimes requiring 
approval through an act of Congress to proceed. The Council supports a 
method of congressional budget scoring that considers the unique timing 
of the costs and benefits of water infrastructure investments, and 
accounts for long-term public health and safety, economic and 
environmental benefits, with fair and appropriate discounting.
    There is no one-size-fits-all program, but several Federal 
financial and technical assistance programs, grants, loans, cost-share 
programs, and Federal-state-local or public-private partnerships have 
proven beneficial to the timely completion and ongoing maintenance of 
infrastructure projects at all scales.
    The Congress and the Administration should work together to ensure 
adequate, stable, and continuing Federal appropriations for 
constructing, maintaining, and replacing critical Federal water 
projects and to assist states and local governments as they address 
their water infrastructure needs. Further, they should work together 
and with the states to streamline permitting processes and coordinate 
environmental and other regulatory reviews to eliminate duplicative 
procedures, reduce costs of compliance and construction, and ensure 
timely completion, maintenance, or relicensing of authorized 
infrastructure projects so vital to the West and the Nation.
    Moreover, the Council supports the creation and maintenance of 
dedicated water infrastructure funding through special accounts with 
dedicated receipts to be promptly appropriated for authorized purposes 
following their deposit, as well as a variety of grant, loan, credit 
enhancement and other financial incentive programs to help meet diverse 
needs at all scales.
                          rural water projects
    The Council strongly supports congressional action to expedite 
construction of authorized rural water supply projects in a timely 
manner, including projects that meet tribal trust and other Federal 
responsibilities--recognizing and continuing to defer to the primacy of 
western water laws and tribal settlements in allocating water among 
users. (WSWC Position #423, August 3, 2018)
    Across the West, rural and tribal communities are experiencing 
water supply shortages due to drought, declining streamflows and 
groundwater supplies, and inadequate infrastructure, with some 
communities hauling water over substantial distances to satisfy their 
potable water needs. Often water supplies that are available to these 
communities are of poor quality and may be impaired by naturally 
occurring and man-made contaminants, including arsenic and carcinogens, 
which impact communities' health and their ability to comply with 
increasingly stringent Federal water quality and drinking water 
mandates. At the same time, many rural and tribal communities in the 
West are suffering from significant levels of unemployment and simply 
lack the financial capacity and expertise to finance and construct 
needed drinking water system improvements.
    In 2014, the Bureau of Reclamation working with other Federal 
agencies and the Western States Water Council sought to identify and 
evaluate rural water needs and the demand for new rural water supply 
projects. Reclamation estimated the costs for rural potable water 
supply system improvements in the 17 western states to be in the range 
of $5 billion to $9 billion for non-Indian projects and approximately 
$1.5 billion for specific Indian water supply projects. Reclamation 
also estimated that the cost to complete currently authorized projects 
that are under construction rose from the $2 billion originally 
authorized to $2.4 billion (in 2014) and costs continue rising. Given 
past levels of funding these priority projects will not likely be 
completed until well after 2065 at a cost of more than $4.8 billion.
    Reclamation has not requested funds for grants to undertake 
additional appraisal investigations or feasibility studies for new 
rural water projects, given the significant backlog of authorized 
projects and lack of Federal funding. Federal expenditures for rural 
water projects generate significant returns on the investment through 
increased national and local economic benefits, as well as improvements 
in quality of life. However, project benefits cannot be fully realized 
until the projects are completed.
                       reclamation fund spending
    The Council has a long-standing policy in support of fully 
appropriating receipts accruing to the Reclamation Fund for authorized 
projects, including rural and tribal water supply projects, as well as 
supporting an investigation of converting it to a true revolving trust 
fund. (WSWC Position #408, June 29, 2017)
    Under the Reclamation Act of 1902, the Reclamation Fund was 
envisioned as the principle means for financing Federal western water 
and power projects with revenues from western resources--but these 
receipts are only available for expenditure pursuant to annual 
appropriation acts. Receipts are largely derived from water and power 
sales, project repayments, and receipts from public land sales and 
leases, as well as oil and mineral-leasing and related royalties, 
almost exclusively from western lands, many adjacent to rural and 
tribal communities. With growing receipts--in part due to energy 
development across the rural West--and declining Federal appropriations 
for Reclamation Act purposes, the unobligated balance grows larger and 
larger (and is expected to soon exceed $16 billion), while the money is 
actually spent elsewhere, for other Federal purposes, contrary to the 
Congress' original intent.
    The Council is committed to continuing to work cooperatively with 
the Congress, the Department of the Interior and Bureau of Reclamation 
to meet our present rural water needs in the West for present and 
future generations, within the framework of state water law. The 
Council recommends that the Congress and the Administration investigate 
the advantages of converting the Reclamation Fund from a special 
account to a true revolving trust fund with annual receipts to be 
appropriated for authorized purposes in the year following their 
deposit (similar to some other Federal authorities and trust accounts).
                    tribal water rights settlements
    The Council has consistently supported negotiated settlement of 
disputed tribal water claims, as well as steps to ensure that 
settlements, once enacted, will be funded. Unresolved tribal claims 
leave tribal and non-tribal water supply reliability uncertain. (WSWC 
Position #412, October 20, 2017)
    The settlement of Native American water right claims is one of the 
most important aspects of the United States' trust obligation and is of 
vital importance to the country as a whole and not just individual 
tribes or states. The public interest and sound public policy require 
the resolution of tribal water rights claims in a manner that is 
equitable and least disruptive to existing uses of water. Negotiated 
quantification of tribal water rights claims is a highly desirable 
process which can achieve quantifications fairly, efficiently, and with 
the least cost. The advantages of negotiated settlements include: (1) 
the ability to be flexible and to tailor solutions to the unique 
circumstances of each situation; (2) the ability to promote 
conservation and sound water management practices; and (3) the ability 
to establish a foundation for cooperative partnerships between Native 
American and non-tribal communities.
    The successful resolution of certain claims may require physical 
solutions, such as development of Federal water projects and improved 
water delivery and application techniques that provide tribes with 
``wet water.'' The United States has developed many major water 
projects that compete for use of waters claimed by Native American and 
non-tribal communities and has a responsibility to assist in resolving 
such conflicts. Tribal water rights settlements involve a waiver of 
tribal water right claims and tribal breach of trust claims that 
otherwise could result in court-ordered judgments against the United 
States and increase costs for Federal taxpayers. The obligation to fund 
resulting settlements is analogous to, and no less serious than, the 
obligation of the United States to pay judgments rendered against it.
    Current Federal budgetary pressures and legislative policies make 
it difficult for the Administration, the states and the tribes to 
negotiate settlements knowing that they may not be funded because 
either they are considered earmarks or because funding must be offset 
by a corresponding reduction in some other expenditure, such as another 
tribal or essential Interior Department program. Tribal water rights 
settlements are not and should not be defined as congressional 
earmarks.
    Steps should be taken to ensure that any water settlement, once 
authorized by the Congress and approved by the President, will be 
funded. Congress should expand opportunities to provide funding for the 
Bureau of Reclamation to undertake project construction related to 
settlements from revenues accruing to the Reclamation Fund, recognizing 
the existence of other legitimate needs that may be financed by these 
reserves.
                        energy & water planning
    The Council supports integrating water and energy program and 
project planning, including promoting conservation and use efficiency, 
while seeking to minimize economic, environmental and other costs. 
(WSWC Position #420, March 16, 2018)
    The West enjoys diverse and abundant energy resources, including 
renewable and non-renewable resources, and the West is a leader in the 
planning, development, diversification, management and protection of 
the Nation's water and energy resources. Maintaining adequate and 
sustainable supplies of clean water and energy present interrelated 
challenges. Water is scarce in much of the region and may or may not 
always be sufficient for all proposed uses. Power plant cooling and 
other energy development related water requirements can be significant 
on state, local and westwide scales.
    An integrated approach to water and energy resource planning, 
development, diversification, management and protection is necessary to 
achieve a thriving and sustainable future for the West. Effectively 
planning for the future requires gathering and integrating data and 
information on past, present and future water and energy supplies and 
demands, including demands by different sectors, uses and users. In 
general, current water use data (especially consumptive water use data) 
are not sufficient for detailed and comprehensive analyses to support 
many water/energy decisions and policy makers' needs. The Council has 
worked collaboratively with state and Federal agencies to develop a 
better understanding of water and energy supplies and demands.
    Public-private partnerships are increasingly important in 
addressing our future water and energy challenges; and there is a 
continuing need for Federal and state water and energy resource 
agencies, public utility commissions, and other planners, regulators 
and policy makers to better define and consider the nexus between water 
and energy resources in their respective areas of jurisdiction. 
Continuing water and energy nexus research and development is needed to 
further our understanding and evaluate the effectiveness of different 
policies and programs given various future scenarios.
                               hydropower
    The Council supports Federal legislative and administrative actions 
to authorize and implement reasonable hydropower projects and programs 
that enhance our electric generation capacity and promote economic 
development, through streamlined permitting processes, while 
appropriately protecting environmental resources. The future 
development of potential hydropower resources should be appropriately 
undertaken in compliance with substantive and procedural state water 
law and interstate compacts, and consistent with the states' authority 
under Clean Water Act Section 401. Further, all rights and preference 
privileges of existing water and power users should be respected. (WSWC 
Position #391, March 22, 2016)
    The hydropower resources of the West have been developed through 
partnerships between energy and water users and continue to be 
inextricably connected. Clean, efficient, inexpensive hydropower is a 
vital part of the energy resources needed to meet our present and 
future energy demands. Hydropower is a prominent component of 
electricity generation in a number of western states, and important 
part of state renewable portfolio standards. Hydropower is the largest 
source of renewable electricity in the United States, representing 
about 48 percent of total renewable electricity generation, with 
approximately 101 gigawatts (GW) of capacity and nearly 7 percent of 
total electricity generation. (www.energy.gov/sites/prod/files/2016/10/
f33/Hydropower-Vision-Chapter-2-10212016.pdf--p. 76)
    The potential exists for further public and private hydropower 
development by upgrading existing generators, developing small hydro 
and the power potential from existing man-made conduits and canals, as 
well as hydroelectric pumped storage projects. Such development can 
often be undertaken with little impact on the environmental and 
important ecological resources, requiring minimal further environmental 
review. Permitting requirements may be appropriately minimized and 
streamlined so as to promote reasonable development while avoiding 
unnecessary costs.

    Thank you for the opportunity to testify.

                                 ______
                                 

     Question Submitted for the Record by Rep. Cunningham to Tony 
   Willardson, Executive Director of the Western States Water Council
    Question 1. This is an issue that is particularly relevant to the 
folks of South Carolina's 1st District. Down in my district you've got 
the Ashley River and the Cooper River coming together to form the 
Charleston Harbor before discharging into the Atlantic Ocean. My 
district is among the East Coast's most vulnerable areas when it comes 
to rising sea levels. The lack of infrastructure and drainage systems 
to handle the uncompromising sea level rise often puts our community 
under water. It also leads to habitat loss, seawater encroachment, 
flooding, and a loss of water quality. Scientists expect climate change 
to increase the frequency of very heavy precipitation events. In my 
home state of South Carolina, they say that ``When it rains, it floods 
in Charleston.'' A recent study showed that Charleston is one of the 
most at-risk cities in the United States, and they predict that 
Charleston could be underwater in 80 years. This is a very important 
issue that doesn't just affect Colorado or the western United States, 
it affects all of us.

    What emerging technologies and management approaches can 
communities implement that will help them manage increasingly 
unpredictable precipitation and flood conditions?

    Answer. Thank you for the question Rep. Cunningham.

    Each individual state is unique, and South Carolina faces its own 
particular challenges. While as a region, the West is generally more 
concerned with scarcity, drought and water supply availability, we are 
also vulnerable to flooding and other unpredictable climate extremes. 
Sea level rise and its impact on coastal communities is obviously an 
issue for our West Coast states, and Texas on the Gulf of Mexico. In 
order to improve our resiliency to climate variations, there are both 
short- and long-term actions that the Council supports focused on an 
integrate, collaborative and grassroots approach that will require 
stronger collaboration and cooperation that transcends political and 
geographic boundaries between states, Federal agencies, tribes, and 
local communities.
    First, we need to invest more to maintain, restore, modernize and 
upgrade water, weather and climate observation networks. We need to be 
able to better define the problems, which requires placing a high 
priority on funding vital water data monitoring and visualization 
programs, and related geospatial applications for climate adaptation 
planning. Critical Federal on-the-ground and remote sensing programs 
include the U.S. Geological Survey's Streamflow Information Program and 
the National Land Imaging Program (and Landsat). The National Oceanic 
and Atmospheric Administration (NOAA) uses Light Detection and Ranging 
(LiDAR), often from aircraft, to gather topographical data supporting 
activities such as inundation and storm surge modeling, hydrodynamic 
modeling, sediment transport modeling, shoreline and habitat mapping, 
emergency response, hydrographic surveying and coastal vulnerability 
analysis. NOAA has also developed and is refining its National Water 
Model, which is primarily designed to predict flooding. Better data and 
science will lead to better decisions, and hopefully allow public and 
private decision makers to take more informed actions to avoid and/or 
mitigate adverse consequences.
    Second, the Council supports state and Federal applied research 
programs that would assist water and emergency management agencies at 
all levels of government in adapting to climate variability and making 
sound scientific decisions. More informed decision making depends on 
our ability to understand, monitor, predict, and adapt to climate 
variability. The West and the Nation experience great sub-seasonal, 
seasonal and annual precipitation variability. Decision makers need 
more skilled dynamical and probabilistic modeling to better understand 
hydroclimate processes and improve forecasts of rainfall and runoff. 
This involves a greater investment in atmospheric and other sciences, 
as well as high-capacity computing resources for timely and multiple 
runs of very complex models.
    Third, the West and the Nation depend on an intricate and aging 
water infrastructure system. Greater investment is needed to maintain 
its reliability and our ability to store, manage, conserve, control, 
protect and treat our water supplies. As our ability to predict 
precipitation events improves, particularly extreme events, 
opportunities will become apparent to implement forecast informed 
reservoir operations (FIRO) with more confidence to more efficiently 
operate projects and time reservoir releases to maximize storage for 
both water supply and flood protection.
    Many water projects have exceeded their design life, and others 
have deteriorated due to underfunded and deferred maintenance, repair 
and replacement. Inadequate, inconsistent, and untimely Federal funding 
increases construction, maintenance and financing costs. Often the lack 
of a dedicated revenue stream raises costs. Moreover, Federal budget 
scoring assesses the full cost of investments upfront, while 
disproportionately discounting long-term benefits.
    Existing Federal, state and local programs to publicly finance 
water infrastructure are crucial, but insufficient. The Federal 
Government will continue to play a significant role in cost sharing and 
financing projects with national benefits. Further, opportunities also 
exist to leverage Federal, non-Federal and private capital through 
grants, loans and credit enhancements.
    Long-term difficult decisions and expensive investments may be 
necessary to adapt to climate variability and extreme events related to 
sea level rise. Speaking from personal experience, my home state of 
Utah is obviously not susceptible to sea level rise, but much of our 
population is located along the Wasatch Front, adjacent to the Great 
Salt Lake. A terminal lake, its levels have dropped to the point that 
it isn't so great--as a result of multiple years of drought! However, 
in the 1980s the lake rose unrelentingly due to unusually wet weather 
patterns. I remember volunteering to fill sand bags on a Sunday night 
at midnight, and for days water ran in a makeshift channel through 
downtown Salt Lake City. That year there was also significant damage to 
the spillway outlets at the Federal Glen Canyon Dam as Upper Basin 
flows on the Colorado River peaked.
    In response to the flooding and rising lake levels, communities 
around the lake seriously considered the need to dike around their 
sewage treatment plants. Salt Lake City improved its storm drain 
system. The state of Utah with Federal funding raised I-80 near the 
lake, not once, but twice. The state also built a pumping plant to move 
lake water into our West Desert to evaporate. The Corps of Engineers 
completed a long-delayed flood control reservoir above the city, 
Mountain Dell. The Bureau of Reclamation redesigned and rebuilt the 
outlets at Glen Canyon. Similar measures are likely to be needed across 
the country as we adapt to changing climate conditions and increasing 
variability.

                                 ______
                                 

    Mr. Huffman. Thank you, Mr. Willardson. Next we recognize 
Mr. Bill Diedrich, who will be testifying on behalf of the 
Family Farm Alliance.
    Thank you for being here, Mr. Diedrich. The Chair 
recognizes you for 5 minutes.

 STATEMENT OF BILL DIEDRICH, FAMILY FARM ALLIANCE, LOS BANOS, 
                           CALIFORNIA

    Mr. Diedrich. Good morning, Chairman Huffman, Ranking 
Member McClintock, and members of the Subcommittee. My name is 
Bill Diedrich. On behalf of the Family Farm Alliance, I thank 
you for this opportunity to present this testimony on 
reliability of water supplies in the western United States.
    I am a fourth-generation California farmer, and I cherish 
the role that sustainable, irrigated agriculture plays in 
producing safe and affordable food supply. Those of us who 
understand say we have dirt in our veins. My written testimony 
illustrates the problems the western farmers and ranchers face, 
in terms of water supply reliability. The testimony outlines 
what producers like me and others across the West are doing to 
address these challenges, and it provides policy 
recommendations that we believe lay the foundation for more 
effectively addressing water supply reliability in the western 
United States.
    The most helpful thing that Congress can do for states 
suffering from unreliable water supply is to urge creativity, 
innovation, and flexibility on the part of Federal water 
management and regulatory agencies.
    My state of California is still recovering from the 2012-
2016 drought, the worst drought in its recorded history. Record 
dry conditions, coupled with water supply reductions related to 
regulatory actions and aging water infrastructure, resulted in 
water supply reductions or constraints for all beneficial uses 
of water in California.
    During the height of recent drought, for 3 years in a row, 
many agricultural water users effectively received no 
allocations at all from the Federal Central Valley Project, one 
of the largest irrigation water projects in the world. These 
challenges continue, despite recent and continued 
precipitation. As of last week, nearly every reservoir in 
California is at or over its historical average for this time 
of year. Still, CVP farmers south of the delta were given an 
initial allocation of only 35 percent of their contract 
amounts.
    What this means is that California has plentiful snow, 
plentiful rain, and nearly adequate reservoir levels. Yet, at 
this time the San Joaquin Valley CVP Ag. water service 
contractor irrigators are likely to receive less than half of 
their contracted water supplies when the final allocations are 
made. These initial allocation numbers are critical to making 
crop planting decisions.
    California's groundwater resources are an overdraft, and 
the drought has made this worse. The Sustainable Groundwater 
Management Act passed by the state of California in 2014 will 
become fully implemented and begin the process of eliminating 
this overdraft by 2040.
    There are only two ways to achieve this: increase supply or 
reduce demand. This will magnify the surface water shortfall 
and jeopardize the safe and affordable food supply produced in 
the Central Valley of California. This groundwater depletion 
has occurred in the San Joaquin Valley, predominantly as a 
result of reduction in reliability of surface water supplies.
    The recent and current water crisis in California provides 
a real-world sense of the types of challenges western 
irrigators face in times of reduced water supply reliability. 
These include competition for scarce water supplies, 
insufficient water infrastructure, growing populations, 
endangered species, and increased climate variability.
    Water management in the West is becoming increasingly 
complex and inflexible. Water managed for environment is not 
held to an equal standard of accountability as other beneficial 
uses. The Federal Endangered Species Act needs to be 
implemented in a multi-faceted way across agencies to better 
benefit species, the environment, and rural communities. 
Considering increased climate variability and competing needs, 
it is obvious the western water storage capacity is 
insufficient.
    Given these challenges, in order to secure future water 
supply reliability, we must depend on collaborative, science-
based water management decisions; increase our investments in 
water infrastructure; and diversify our water portfolio, 
including water recycling, conservation, reservoir 
optimization, and weather forecasting technologies. What works 
for one region doesn't work for all.
    Thank you, and I would stand for any questions members of 
the Subcommittee have. Thank you.

    [The prepared statement of Mr. Diedrich follows:]
 Prepared Statement of William Diedrich, representing The Family Farm 
                                Alliance
    Good morning Chairman Huffman, Ranking Member McClintock, and 
members of the Subcommittee. My name is William Diedrich, and on behalf 
of the Family Farm Alliance (Alliance), I thank you for this 
opportunity to present this testimony on a matter of critical 
importance to our membership: the reliability of water supplies in the 
western United States. The Alliance is a grassroots organization of 
family farmers, ranchers, irrigation districts, and allied industries 
in 16 western states. The Alliance is focused on one mission: To ensure 
the availability of reliable, affordable irrigation water supplies to 
western farmers and ranchers. We are also committed to the fundamental 
proposition that western irrigated agriculture must be preserved and 
protected for a host of economic, sociological, environmental, and 
national security reasons--many of which are often overlooked in the 
context of other national policy decisions.
    The Family Farm Alliance has a long history of collaboration with 
partners in all levels of government, conservation and energy 
organizations, and Native American tribal interests who seek real 
solutions to water resources challenges in the West. We seek to 
advocate for a proper role for the Federal Government on water matters, 
a vision that focuses on research and development; full integration, 
coordination and maximum sustainable use of resources; and planning 
that is driven from the ``ground up.'' The Alliance also has a well-
established relationship with Congress, with 70 invitations to testify 
before congressional committees on Western agriculture, water and 
environmental matters in the past decade.
    This testimony will illustrate the problems Western farmers and 
ranchers face in terms of water supply reliability, outline what 
producers like me and other Westerners are doing to address these 
challenges, and provide policy recommendations that we believe lay the 
foundation for effectively addressing water supply reliability in the 
western United States.
                          personal background
    I am a fourth-generation California Central Valley farmer and I 
appreciate the role of a sustainable irrigated agriculture industry. I 
have also been very involved in water issues and see the importance of 
reliable water for the many important needs that exist. At my core, I 
am a Californian and an American, and I believe the health of our 
communities, our ecosystems and our farmers and ranchers are directly 
related to our prosperity as a state and a Nation. Water shortages 
affect all sectors of the Western economy, creating problems for cities 
and towns, manufacturers, builders, service providers, and individual 
citizens that are just as challenging as the difficulties faced by 
farmers and ranchers. The environment, too, is stressed by water 
shortages. In many areas of the West, we see fish and wildlife, 
plentiful or endangered, struggling to adapt and survive in extremely 
harsh conditions during times of drought.
    Water connects us all--farms, cities and the environment--and while 
decreased water supply reliability presents unique problems for each 
sector, our solutions should be interconnected and mutually 
beneficial--not divisive. That requires a willingness of all parties, 
including Federal agencies, to be creative and flexible. That is 
happening in some places. In other places, it's not. The most helpful 
thing that Congress can do for states suffering from a lack of water 
supply reliability is to encourage, demand, and even mandate, where 
necessary, creativity, innovation and flexibility on the part of 
Federal water management and regulatory agencies.
    The Family Farm Alliance is an organization made up of farmers and 
ranchers in the West, but the water shortage problems we all face vary 
by region, topography, climate, soil conditions, hydrology, and crop. 
These problems have some elements in common, including inadequate or 
deteriorating water storage infrastructure, inflexible or outdated 
operational requirements and regulatory conditions, and government 
agencies that are not nimble enough, or not motivated, to seek out and 
embrace better ways of doing things to ensure the most benefit for the 
broadest suite of public interests. Solutions also vary by state or by 
region, but they, too, are characterized by certain common elements, 
including creativity, flexibility and balance. I will discuss water 
supply reliability issues in a few different areas of the West, as well 
as some examples of successful solutions and potential solutions. Since 
I'm from California, I'll begin there.
            recovering from the 2012-2016 california drought
    California is still recovering from the 2012-2016 drought, the 
worst drought in its recorded history. Record dry conditions, coupled 
with water supply reductions related to regulatory actions and aging 
water storage and conveyance infrastructure, resulted in water supply 
reductions or constraints for most sectors in California. In 2014, vast 
areas of farm land in the San Joaquin and Sacramento Valleys received 
no surface water at all--a 100 percent reduction. Those same areas were 
again zero-ed out in 2015. Overall, agricultural water supplies in the 
Central Valley have had their reliability reduced by 65 percent since 
1992. During the drought, nearly 75 percent of the state's irrigated 
farm land (7 million acres), received 20 percent or less of its normal 
surface water supply and according to the California Department of 
Water Resources (DWR), nearly 692,000 acres of farmland were fallowed 
in 2014 as a result of water shortages.
    During the height of the recent drought, for 2 years in a row, many 
agricultural water users received no allocations at all from the 
Federal Central Valley Project (CVP), one of the largest water projects 
in the world. Table 1 shows the CVP allocations from 2014-2016. In both 
2014 and 2015 no surface water supplies were allocated to water users 
on the Tehama-Colusa Canal, and in the San Luis Unit and Friant 
Division of the CVP. Settlement contractors, primarily agricultural 
water users, have water rights that pre-date the Federal project, 
making them priority rights on the system, yet even allocations to 
those senior water rights holders were reduced during the drought.

 Table 1. Central Valley Project Water Allocations (2014, 2015 & 2016)
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


SOURCE: BUREAU OF RECLAMATION 2019

    Almost as large as the Federal CVP, California's State Water 
Project (SWP) cut agricultural deliveries by 80 percent in 2015.
    In most areas where surface water supplies were severely reduced or 
eliminated, farmers turned to groundwater to maintain their permanent 
crops--grapes, tree fruits, nuts, citrus--that represent a lifetime's 
investment. But groundwater supplies are not infinite and were severely 
depleted during the drought in areas that received no surface water. 
Groundwater also isn't cheap. Wells cost upwards of $200,000 each and 
they are expensive to run, so many farmers pump only enough water to 
keep their trees alive, but not producing. Often, farmers tear out 
mature, productive trees and vines and replace them with saplings that 
won't produce a crop for years, but require far less water to keep 
alive in challenging conditions. And in some places like the citrus 
belt in the Friant Division of the CVP, there is no groundwater at all. 
The many small farms there, which produce most of the Nation's oranges, 
had their surface water cut off for the first time in 60 years in 2014 
and 2015.
    Many of my neighbors in 2014 and 2015 were forced to abandon or 
fallow portions of their farms. When one hears that land is 
``fallowed'' it might only seem that the impact is to the farmer, but 
that is definitely not the case. Every acre of farmed land generates 
jobs, economic activity and products. That is why the reduction in the 
water supply reliability of the CVP is so devastating to the rural 
agricultural communities of the Central Valley.
    For every acre fallowed, workers have less work and tractors are 
used less. If I use my tractor less, I buy less fuel, lubricants and 
parts and tires, which means the local businesses that supply these 
things sell less and their companies suffer. When I don't purchase 
inputs for the land (fertilizer, seeds, amendments, etc.), the local 
companies that sell these items suffer reduced sales and the truck 
drivers who deliver these items have less work. With fewer trucks 
running fewer routes, fuel and parts purchases are reduced. If that one 
fallowed acre was intended to be a tomato field, those tomatoes would 
not be trucked to market or the processing plant.
    As you can see, there is a direct interconnection between 
agriculture and many other industries. Press reports will acknowledge 
that California agriculture is a $50 billion industry, but then attempt 
to minimize this impact by suggesting that it is ``only'' 2 percent of 
the GDP of the state. The oft-reported $50 billion number is only the 
farm gate value of the products. It does not include all the other 
industries that benefit from the trucking and processing of the 
agricultural products (and all the fuel, parts, etc., from the 
activities). Clearly, agriculture is a huge economic driver for my 
state, particularly in rural communities. A report by the University of 
California shows that the food and beverage industry contributed $82 
billion and 760,000 jobs that are directly and indirectly linked to 
agricultural products.\1\
---------------------------------------------------------------------------
    \1\ http://giannini.ucop.edu/media/are-update/files/articles/
V18N4_3.pdf.
---------------------------------------------------------------------------
    This is a very concerning time for me, my family, and my neighbors, 
since substantial investments are being made, primarily with the intent 
of converting more of our operation to drip irrigation, which we hope 
will stretch limited water supplies. This conversion creates an 
electrical demand as we move from gravity irrigation to pressurized 
subsurface irrigation. My friend Cannon Michael, who serves on the 
Family Farm Alliance board of directors, recently installed 1 megawatt 
of solar panels to offset the impact of the power cost needed to 
support his drip irrigation conversion. Those investments will be for 
naught if the current lack of reliability for surface water deliveries 
persists into the future and there is no water to conserve or use for 
groundwater recharge.
    My fellow California farmers are doing their best to offset the 
devastating loss of water. For example, producers have been forced to 
buy water, when available, from other sources. In certain instances, 
farmers had no choice but to buy water at a rate more than 25 times 
what they normally would pay. In the absence of once reliable surface 
water supplies, California farmers have looked to groundwater, where 
available, which is not sustainable. Central Valley producers have been 
trying to get ahead of a much feared, but anticipated, drought for 
years. Notably, they've spent about $3 billion to install more 
efficient irrigation systems on almost 2.5 million acres from 2003 to 
2013, according to information compiled by the California Farm Water 
Coalition. These investments will continue as farmers strive to stretch 
and most efficiently manage their water supply.
                  california drought: myth vs. reality
    Here are some facts that are often overlooked in media coverage of 
the recent California drought:

    <bullet> California agriculture grows more than 50 percent of 
            America's fresh fruits, nuts and vegetables across 78,000 
            farms, 400 crops and 450,000 jobs. California's value of 
            agricultural output was $50 billion in 2017.\2\
---------------------------------------------------------------------------
    \2\ California Department of Food and Agriculture, Gianinni 
Foundation of Agricultural Economics--University of California, USDA, 
Assembly Committee on Jobs, Economic Development and the Economy.

    <bullet> California is the country's largest agricultural producer 
            and exporter. Agricultural products were one of 
            California's top 5 exports in 2017, totaling $20.6 billion, 
            over 14.6 percent of total U.S. agricultural exports.\3\
---------------------------------------------------------------------------
    \3\ California Department of Food and Agriculture, California 
Agricultural Statistical Review, 2017-2018.

    <bullet> Crop production per acre-foot of water rose 43 percent in 
            California between 1967 and 2010.\4\
---------------------------------------------------------------------------
    \4\ USDA National Agricultural Statistics Service, California 
Department of Water Resources.

    Some media accounts continue to advance the decades-old myth that 
farmers consume 80 percent of water supplies in California and other 
parts of the West. But if we look at the ``water footprint'' in the 
same way as we have come to talk about the ``carbon footprint,'' we get 
a different picture, particularly in California. Numbers from the 
California DWR provide perspective. According to the Department, 
statewide water use breaks down as follows: 10 percent urban use; 41 
percent agricultural use and 49 percent use for environmental 
management: wetlands, Delta outflow, wild and scenic designations, and 
instream flow requirements.
    We should also recognize that farms transform water into products 
that are needed to sustain the lives of our entire population. We are 
all part of ``agricultural water use'' every day--multiple times per 
day.
    Others in the media suggested that the shift toward higher value 
crops like nuts and wine grapes have led to an increase in agricultural 
water use. During the 2014-2015 drought years, almonds were the 
preferred target of these reports. But according to California DWR, the 
total amount of agricultural water use has held steady since 2000 and 
has actually declined over the longer term.
                the california water reliability crisis
    California has an incredibly diverse and variable climate, with 
precipitation and snowpack totals varying widely from year to year, 
with runoff totals ranging from a high of 52,830,000 acre-feet in 1983 
to the lowest recorded runoff of 6,170,000 acre-feet in the driest 
individual year of 1977. While California has natural variability in 
precipitation and snowpack, water allocations to CVP contractors have 
been disconnected from water year types, predominantly resulting from 
increased requirements for environmental water deliveries. This year is 
a good example of the increasing disconnect between the amount of 
actual water that California receives each year and the ability of the 
Bureau of Reclamation (Reclamation) to operate the CVP and allocate 
water to its contractors in a fashion that reflects the actual 
hydrology.
    As of February 22, 2019, nearly every reservoir in California is at 
or over its historical average for this time of year, snow water 
content is 115 percent of the April 1 peak, and precipitation is 120 
percent of average, but just last week, south of Delta CVP agricultural 
service contractors received an initial allocation of only 35 percent 
of their contract amounts. What this means is that California has 
plentiful snow, plentiful rain, and nearly full reservoirs, yet San 
Joaquin Valley irrigators are likely to receive less than 50 percent of 
their contracted water supplies when the final allocations are made. In 
order to make decisions about planting crops, a farmer must consider 
the water available to grow the crop. Thus, the initial allocation 
numbers are critical. Even if the allocation increases in future 
months, it will be past the time when a farmer must make their decision 
to plant.
Future Projections
    The Sacramento and San Joaquin Rivers Basin Study released by 
Reclamation indicates that throughout the 21st century, temperatures 
are projected to increase, snowpack will likely decline and snowpack 
elevation levels will rise, precipitation will increase during fall and 
winter months, and spring runoff will decrease. These factors will 
exacerbate the existing imbalance between the demands in these river 
basins and the ability to deliver reliable water supplies to 
communities and ecosystems that rely on them. The result of these 
changes, coupled with expected population growth and changes in land 
use, is an average annual unmet water demand for CVP contractors that 
is expected to range between 2.7 million and 8.2 million acre-feet per 
year, with most of the unmet demands occurring south of the Bay-
Delta.\5\
---------------------------------------------------------------------------
    \5\ https://www.doi.gov/sites/doi.gov/files/uploads/
sec_order_no._3343_cal_water_0.pdf.
---------------------------------------------------------------------------
Groundwater
    Groundwater is a critically important part of California's water 
supply, accounting for 40 percent of total annual agricultural and 
urban water uses statewide in an average year, and up to 65 percent or 
more in drought years. About three-quarters of the state's residents--
around 30 million people--depend on groundwater for at least a portion 
of their water supply; for 6 million residents, it is their only 
supply.
    California DWR estimates that on average, 2,000,000 acre-feet is 
withdrawn from the state's aquifers per year more than what is being 
recharged, and much more so during periods of drought. This is nothing 
new; scientists estimate that since California's development in the 
late 1800s, the state's groundwater reserves have been reduced by 
125,000,000 acre-feet, or 4.5 times the capacity of Lake Mead. Most of 
this groundwater depletion has occurred in the San Joaquin Valley, 
predominantly as a result of a reduction in the reliability of surface 
water supplies.
                key challenges facing western irrigators
    The key challenges Western irrigators face in times of reduced 
water supply reliability include competition for scarce water supplies, 
insufficient water infrastructure, growing populations, endangered 
species and increasing weather variability/climate change. Across the 
West, several key water policy challenges stand out:
Water management in the West is becoming increasingly complex and 
        inflexible
    We need a new way of looking at how we manage our limited water 
resources, one that includes a broader view of how water is used, along 
with consideration of population growth, food production and habitat 
needs. The goal should be to integrate food production and conservation 
practices into water management decision making and water use 
priorities, creating a more holistic view of water management for 
multiple uses. We must begin to plan now in order to hold intact 
current options. Planning must allow for flexibility and consider all 
needs, not just focus on meeting future needs from population growth.
    In many parts of the West, litigation stemming from citizen suit 
provisions of environmental laws including the ESA and Clean Water Act 
(CWA) is producing Federal court decisions (or court approved 
``settlements'') that direct Federal agency ``management'' of state 
water resources. Congress should recognize that this type of litigation 
and resulting settlements can actually harm the overall health and 
resilience of landscapes and watersheds by focusing on single species 
management under the ESA. We should seek solutions that reflect a 
philosophy that the best decisions on water issues take place at the 
state and local level. Finding ways to incentivize landowners to make 
the ESA work is far more preferable than the ESA being used as a means 
of ``protecting'' a single species (such as the Sacramento-San Joaquin 
River Delta smelt in California, or the spotted frog, in Oregon) 
without regard for other impacts, including those on other non-listed 
or state-listed species.
    Droughts occur routinely in the West; that is why Reclamation made 
such important investments in water supply infrastructure over the past 
century. However, this infrastructure was never designed to meet the 
burgeoning demands of growing populations and environmental needs in 
the West, while continuing to support farmers, ranchers and rural 
communities during periodic droughts. Unfortunately, future droughts in 
the West are predicted to be deeper and longer than we have 
historically experienced in the 20th century. We believe Congress 
should provide Federal agencies with more flexibility under 
environmental laws and water management regulations to respond to 
drought conditions when they arise. And where such flexibility 
currently exists, Congress should demand that agencies use it promptly 
and with a minimum of bureaucratic delay.
    As one example of where innovation, flexibility and creativity are 
needed, the U.S. Army Corps of Engineers (Corps) operates dozens of 
water projects throughout the West, and it regulates the operations of 
many non-Federal dam and reservoir projects according to criteria that 
in many cases were established decades ago and have not been updated to 
reflect changed conditions or new technology. As a result, projects are 
sometimes forced to waste large amounts of water in order to adhere to 
the letter of a flood-control plan that no longer has a basis in 
reality. The Corps now has existing authority to make short-term 
adjustments to operation criteria during droughts, but the agency 
rarely does so on a proactive basis.
Environmental water management should be held to an equal standard of 
        accountability as other beneficial uses
    We must manage water to meet all needs but in a manner that 
``shares the pain,'' not creates winners and losers, especially when 
the losers are mostly the very beneficiaries--farmers and rural 
communities--the Federal water projects were originally built to serve. 
The past Federal management of water flows in California's Bay-Delta, 
which has redirected millions of acre feet of water away from human 
uses and toward the environment, with little, if any, documented 
benefit to the ESA-listed fish intended for protection, is a prime 
example.
    Good water management requires flexibility, as well as adaptive 
management. More regulation usually reduces this flexibility to balance 
competing demands and find a way forward that works for all 
stakeholders. Federal agencies managing the competing demands for water 
in the West have in some cases failed in creating opportunities for 
more flexible water management during times of crisis, and rarely 
measure their actual results (good or bad) from their water supply 
decisions.
The ESA needs to be implemented in a new way to better benefit species 
        and rural communities
    The original intent of the ESA--stated in the Act itself--was to 
encourage ``the states and other interested parties, through Federal 
financial assistance and a system of incentives, to develop and 
maintain conservation programs which meet national and international 
standards.'' Of special importance to the Family Farm Alliance is that 
the ESA explicitly declared that it was the policy of Congress that 
``Federal agencies shall cooperate with state and local agencies to 
resolve water resource issues in concert with conservation of 
endangered species.''
    The authors of the ESA clearly believed in applying the ESA in a 
way that would foster collaboration and efficiency of program delivery, 
in an incentive-driven manner. Unfortunately, implementation of the ESA 
has developed into an approach that is driven by litigation and 
conflict rather than collaboration. As far as the Act itself is 
concerned, little to no progress has occurred to keep this 40-year-old 
law in step with the challenges facing declining species in an era of 
climate change. The ESA has not been substantially updated since 1988.
    At the heart of the Family Farm Alliance's concerns with the ESA is 
the ever-present potential of serious Federal restrictions being placed 
on the West's irrigation water storage and delivery activities, often 
using federally developed water infrastructure in protecting listed 
species. Future endangered species listings are on the horizon. That 
prospect has the Alliance very concerned about potential new Federal 
restrictions being placed on the water supplies that are crucial to the 
West's $172-billion per year irrigated agricultural economy.
    The ESA, while well intentioned, is a law that is not working as it 
was originally intended. It needs to be more about incentives and 
collaboration and less about litigation and regulation. Fewer than 2 
percent of the species ever listed under the Act have been recovered 
and removed from the list. Meanwhile, the negative economic and 
sociologic impacts of the ESA have been dramatic.
    The Family Farm Alliance for decades has worked to develop 
specific, practical changes to the ESA that we think will make it work 
effectively today. Application of the ESA today must be viewed through 
the prism of other human needs, including food production. To that end, 
management of our natural resources should be geared toward an approach 
that views the entire landscape in a more holistic manner regarding its 
value for wildlife, food production, and other capacities. The 
flexibility built into the Act has the potential to yield net 
conservation benefits for imperiled species, as ESA practitioners have 
recognized.\6\ While a regulatory approach may be necessary for species 
on the brink of extinction, such an approach should be employed 
sparingly, consistent with congressional intent and sound public 
policy.
---------------------------------------------------------------------------
    \6\ P. Henson, R. White, and S.P. Thompson. 2018. Improving 
Implementation of the Endangered Species Act: Finding Common Ground 
Through Common Sense, BioScience (available at https://doi.org/10.1093/
biosci/biy093).
---------------------------------------------------------------------------
Insufficient Storage and Aging Water Infrastructure Must be Addressed 
        to Protect Future Water Supply Reliability
    More surface and groundwater storage is a critical piece of the 
solution to future water shortfalls. Congress should streamline 
regulatory hurdles and work to facilitate the construction of new and 
expanded surface storage facilities, providing a more effective process 
to move water storage projects forward.
    Also, new tools to assist in financing major improvements to aging 
water infrastructure will be needed in the coming years to ensure that 
farmers and ranchers who benefit from these upgrades can afford 
repayment terms. Water infrastructure is a long-term investment, as are 
farms and ranches, and longer repayment and lower interest terms will 
be crucial to reinvesting in these aging facilities to meet the 
challenges of tomorrow. Such improvements could include investments in 
everything from new and expanded water storage reservoirs (both on- and 
off-stream), regulating reservoirs, canal lining, computerized water 
management and delivery systems, real-time monitoring of ecosystem 
functions and river flows for both fish and people, and watershed-based 
integrated regional water management. With the creation of the Water 
Infrastructure Finance and Innovation Act (WIFIA) in the WRRDA 2014, 
the Alliance believes a similar affordable loan program could be 
instituted at Reclamation to assist in providing capital for such 
investments. Also, more flexibility may be needed to allow for private 
investments at Reclamation facilities in order to attract additional 
capital to meet future water supply needs.
    Western irrigators need flexible, streamlined policies and new 
affordable financing tools that can provide balance and certainty to 
support collaborative efforts and manage future water infrastructure 
challenges. Solutions in all of these areas will be crucial to future 
successes in agricultural production, conservation and community 
outcomes in the West.
                          innovative solutions
    For family farmers and ranchers, finding solutions to constantly 
emerging challenges is just business as usual. Nature, the markets and 
the government are always finding new problems to throw at farmers, and 
farmers who are not determined, resourceful and innovative will not 
succeed.
    Irrigators and their local water agencies are responding to the 
challenges of reduced water supply reliability with determination, 
resourcefulness and innovation. They also are bringing those attributes 
to bear in planning for a future where ``drought'' may be a long-term 
or even permanent condition. Throughout the West, farmers, ranchers and 
irrigation agencies have undertaken creative measures to efficiently 
manage increasingly scarce water resources. Some of these actions were 
intended to address the immediate crisis of recent western droughts; 
others have been implemented as part of the broad portfolio of actions 
that successful farmers are employing to stay profitable in today's 
fierce economic and regulatory climate. If Federal agencies are willing 
to work collaboratively with farmers and ranchers, the result would 
likely be better management of water for both economic purposes and 
environmental uses.
    The following are real-world examples that Congress and the 
Administration should consider when developing legislation and polices 
to address the current drought and water management for the future:

Collaboration, Ecosystem Restoration, and New Storage: Yakima Basin 
        (Washington)

    The Yakima River Basin in Washington State does not have enough 
surface water storage facilities, with over 2.4 million-acre feet of 
water needs annually dependent upon only 1 million acre-feet of surface 
water storage capacity. The Yakima Basin is experiencing increased 
pressures and demands on our 1 million acre-feet of reservoir storage 
capacity, while we are now at above average carryover water storage, 
current water storage capacity cannot make up for shortages in the snow 
pack. They desperately need increased water storage carrying capacity 
to meet dry-year demands like those we experienced in 2015, with pro-
ratable (junior) water rights receiving only 47 percent of normal 
supplies--a dire situation for the significant number of permanent 
crops in the Basin.

    To help plan for expanding access to more irrigation and M&I water 
storage capacity and to help relieve tensions in the Yakima Basin over 
water supply management for all needs, a large cross-section of the 
water stakeholder interests and the Yakama Nation have worked together 
over the past several years in developing the Yakima Basin Integrated 
Plan. The Integrated Plan is a well thought out, long-term 
comprehensive set of solutions to restore ecosystem functions and fish 
habitat and improve long-term reliability of water supplies for stream 
flows, agricultural irrigation and municipal supply. The Integrated 
Plan was developed in a public, collaborative process involving local, 
state, Federal and tribal governments plus stakeholders representing 
environmental, irrigation and business interests. The consensus 
achieved by this diverse group represents a major and unprecedented 
accomplishment for the Yakima Basin and for water management in the 
western United States. The Integrated Plan offers a means to avoid a 
tangle of litigation and hardship for these users in future years. The 
Yakima Basin Integrated Plan is believed to be the first basin-wide 
integrated plan in the United States to achieve this level of success.

    Prior efforts to increase water storage in the Yakima Basin have 
failed, in part due to a lack of consensus among the key stakeholders. 
The Integrated Plan offers the best opportunity in decades to resolve 
long-standing problems afflicting the Basin's ecosystem and economy. In 
addition, improving water conservation and management, along with 
making available increased water storage for farms, fish and our 
communities are key components of the Plan. When implemented, the Plan 
will greatly improve operational flexibility to support instream flows 
while meeting the Basin's basic water supply needs under a wide range 
of seasonal and annual snowpack and runoff conditions, both now and 
under a wide range of estimated future hydrologic and climatic 
conditions.

Long-term Environmental Enhancement and Water Supply Reliability: 
        Voluntary Settlement Agreements to update the Sacramento San 
        Joaquin Bay-Delta Water Quality Control Plan (California)

    The California State Water Resources Control Board (SWRCB) oversees 
water rights and water quality in California. The Board is in process 
of updating its Bay Delta Water Quality Control Plan, which identifies 
beneficial uses of the Bay-Delta, water quality objectives for the 
reasonable protection of those beneficial uses, and a program of 
implementation for achieving those objectives.

    The U.S. Department of the Interior, the California Natural 
Resources Agency, and water rights holders throughout California are 
working on a separate but related effort to craft voluntary, 
stakeholder-based outcomes in the watersheds of the Sacramento River 
and major San Joaquin River tributaries. These voluntary settlement 
agreements (VSAs) are a comprehensive plan to improve water quality and 
habitat conditions with a manageable impact to water users and 
highlight the positive outcomes that can occur when agencies choose to 
collaborate with water users. Implementation of the VSAs will maintain 
the viability of native fishes in the Sacramento and San Joaquin River 
watersheds and the Delta ecosystem, while concurrently protecting and 
enhancing water supply reliability, consistent with the statutory 
requirement of providing reasonable protection for all beneficial uses.
    The VSA's have a few key components: \7\
---------------------------------------------------------------------------
    \7\ Framework Proposal for Voluntary Agreements to Update and 
Implement the Bay-Delta Water Quality Control Plan (https://
water.ca.gov/-/media/DWR-Website/Web-Pages/Blogs/Voluntary-Settlement-
Agreement-Meeting-Materials-Dec-12-2018-DWR-CDFW-CNRA.pdf).

    <bullet> Provide additional instream flows averaging between 
            740,000 and 1,040,000 acre-feet in a manner that does not 
            conflict with groundwater management requirements under 
            California law, doesn't reduce flows for wildlife refuges, 
            and maintains reliability of water supply for other 
---------------------------------------------------------------------------
            beneficial uses.

    <bullet> Implementation of significant non-flow measures to address 
            the many factors negatively impacting fish populations, 
            including predation by non-native species, passage 
            barriers, and hatchery productivity.

    <bullet> The development of a comprehensive science and monitoring 
            program, incorporating a structured decision-making 
            process, to inform implementation of flow and non-flow 
            measures.

    <bullet> Dedicated funding for implementation of science and 
            ecosystem and habitat improvement measures of approximately 
            $770 million from a per acre-foot fee placed on water 
            users.

    It is the Alliance's position that locally negotiated, stakeholder 
driven solutions are far more durable than those driven through a 
regulatory process that leads to litigation. The Alliance would urge 
congressional support for Federal efforts to implement California's 
Voluntary Settlement Agreements.
Conservation and Drought Resilience: Colorado River Basin
    In Wyoming, ranchers Pat and Sharon O'Toole have always managed 
their land with conservation in mind. Along the way, they've built 
strong partnerships with Trout Unlimited, Audubon Wyoming and The 
Nature Conservancy; organizations some ranchers once viewed as 
adversaries. Further south, in the fertile North Fork Valley outside of 
Paonia, Colorado, Harrison Topp took the leap from annual vegetable 
production to perennial fruit, growing food in a region with just 15 
inches of annual average precipitation.
    The Family Farm Alliance report, ``Innovations in Agricultural 
Stewardship: Stories of Conservation & Drought Resilience in the Arid 
West,'' \8\ focuses on these two case studies and three others that 
profile producers across the Colorado River Basin and beyond who--with 
curiosity, creativity and seasons of trial and error--are conserving 
resources while enhancing productivity. The Alliance teamed up with the 
National Young Farmers Coalition on this report with the aim of 
elevating the voices of farmers and ranchers who are employing smart 
solutions to build drought resilience, steward water and grow good 
food.
---------------------------------------------------------------------------
    \8\ https://www.youngfarmers.org/wp-content/uploads/2015/05/NYFC-
template-FINAL_low New.pdf.
---------------------------------------------------------------------------
    Some of the farmers highlighted in the Alliance report are 
integrating efficient irrigation technology with soil health to 
increase both productivity and water savings. Others are navigating 
conservation within constraints outside of their control, such as the 
operations of the ditches which deliver water to farms. To paint a 
fuller picture of the complexities and nuances of agricultural water 
conservation in the West, the Alliance worked with the engineering firm 
Applegate Group to create a water balance for three of the case 
studies. These water balances utilize a technical, objective approach 
to assess the producers' water rights, current conservation efforts, 
and barriers or opportunities for future conservation. They underscore 
the reality that conservation practices are different on every 
operation and unique from farm to farm.
    As the pressures of climate variability and drought increase, 
farmers and ranchers are at the forefront of our national adaptation 
strategy. Producers are coming together to help one another, but they 
also need support from consumers, policy makers, scientists, and 
service providers. The Alliance hopes that these case studies will 
provide policy makers and other stakeholders with a more nuanced 
understanding of the diversity and complexity of western agricultural 
water conservation and an appreciation of what continuing to take 
agricultural lands out of production might mean.
Empower Locals to Develop New Storage: Sites Joint Power Authority 
        (California)
    Growing concerns about the delays and costs associated with the 
proposed Sites off-stream reservoir project in the Sacramento Valley of 
California, as well as the need for a local voice, led to the 
formation, in August 2010, of the Sites Project Joint Powers Authority 
(Sites JPA). The Sites JPA, which includes Sacramento Valley counties 
and water districts, was formed with the stated purpose of establishing 
a public entity to design, acquire, manage and operate Sites Reservoir 
and related facilities to improve the operation of the state's water 
system.
    The Project would also provide improvements in ecosystem and water 
quality conditions in the Sacramento River system and in the Bay-Delta, 
as well as provide flood control and other benefits to a large area of 
the state of California. The formation of local JPA's was included as a 
key provision in the 2009 California Water Package Water Bond 
legislation for the purposes of pursuing storage projects that could be 
eligible for up to 50 percent of project funding for public benefits.
    As the Sites JPA began working with the Bureau of Reclamation and 
California Department of Water Resources, the JPA took a common-sense 
approach. The JPA worked with Reclamation and DWR to put together 
Foundational Formulation Principles. In other words, first identifying 
the needs of the water operations system and then designing the project 
that would meet those needs. Local project proponents envisioned a 
project that would be integrated with the system they already had, and 
one that would also operate effectively regardless of future 
operational changes to the larger system, such as construction of new 
conveyance to export water users located south of the Delta. The JPA 
wanted to maximize the benefits associated with existing infrastructure 
and provide as much benefit as possible to both the existing state and 
Federal water projects at the lowest feasible cost.
    The JPA has approached the Sites project with the goal of making 
the best possible use of limited resources, and in the end, local 
irrigators believe they have identified a project that is both 
affordable and will provide significant benefits. The proposed project 
maximizes ecosystem benefits consistent with the state water bond, 
which states that at least 50 percent of the public benefit objectives 
must be ecosystem improvements. Other benefits include water supply 
reliability, water quality improvements, flexible hydropower 
generation, more recreation benefits and increased flood damage 
reduction. In short, the JPA approached the Sites project with the goal 
of generating water for the environment while improving statewide water 
reliability and regional sustainability in Northern California. They 
believe they are achieving that goal.
Collaboration with Diverse Stakeholders: The Western Agriculture and 
        Conservation Coalition (WACCC)
    The Family Farm Alliance sits on the Steering Committee of the 
Western Agriculture and Conservation Coalition (WACC), a diverse group 
of organizations that first came together a decade ago around the Farm 
Bill conservation title with the goal of supporting the common 
interests of agriculture and conservation. Other founding steering 
committee members included Trout Unlimited, The Nature Conservancy, 
California Farm Bureau, Environmental Defense Fund, Public Lands 
Council, Arizona Cattle Growers Association, Wyoming Stock Growers 
Association, and the Irrigation Association. The group has expanded in 
recent years; for a complete list of members, go to: http://
www.waccoalition.org/.
    The WACC is becoming increasingly effective on the narrow list of 
topics its members engage in, including the farm bill that Congress 
passed last December, sending the compromise legislation to the 
President's desk. The new farm bill includes several important 
provisions--many of them driven by the WACC--that will assist Western 
agricultural irrigators. The new farm bill included expanded authority 
under the Environmental Quality Incentives Program (EQIP) for 
irrigation districts--for the first time ever--to receive funding as 
direct applicants for water conservation measures, as well as continued 
eligibility as partners for conservation activities with growers. This 
language was originally proposed and advocated for by the Alliance and 
other WACC partners starting a decade ago. The new EQIP includes 
funding for water conservation scheduling, water distribution 
efficiency, soil moisture monitoring, irrigation-related structural or 
other measures that conserve surface water or groundwater, including 
managed aquifer recovery practices. The farm bill also provides 
improved contracting for partners engaged in work with producers, which 
is intended to be streamlined and made more effective under the 
Regional Conservation Partnership Program. Importantly, the 2018 farm 
bill preserves existing authorization structure and $50 million in 
mandatory funding for the Watershed Protection and Flood Prevention 
Act, a flexible and useful program utilized by Western water managers. 
The demand for this program is probably at least twice as much as what 
was funded, but the farm bill made this mandatory funding, which is 
encouraging.
    The WACC provides a core that can help policy makers and our 
collective members remember that the foundation for some true, 
collaborative solutions that are driven from the constructive 
``center.'' The WACC shared perspective on species conservation is 
rooted in our experience with practical, on-the-ground solutions that 
work well for ranchers, farmers, and other landowners, as well as for 
fish, wildlife and plants. Indeed, maintaining a mosaic of working 
farms and ranches along with lands managed for conservation purposes, 
represents the best opportunity for conserving the ecosystems upon 
which species depend so that species do not decline to the point where 
a listing under the ESA is warranted, and so that currently listed 
species can recover.
    Unless the agricultural industry and conservation come together, 
the public policies and resource management strategies necessary to 
maintain a viable and sustainable rural West will be impossible to 
achieve. There will always be isolated instances of successful 
partnerships. But, these discrete examples of success will not suffice. 
The threats to a viable and sustainable rural West are numerous, 
complex, and variegated. A broad and authoritative voice like that of 
the WACC is needed to effectively address these threats with 
collaborative solutions. The coalition's recent engagement and success 
in the farm bill's conservation title is Exhibit ``A'' toward that end.
                  how the federal government can help
    The Congress and the Federal Government certainly cannot change the 
hydrology of the West, but there is a role it can play to support 
family farmers and ranchers. Policy makers should understand the 
following observations and principles as they develop new solutions to 
the decreasing long-term reliability of western water supplies:

    <bullet> State water laws, compacts and decrees must be the 
            foundation for dealing with shortages.

    <bullet> Water use and related beneficial use data must be 
            accurately measured and portrayed.

    <bullet> Benefits of water use must reflect all economic/societal/
            environmental impacts.

    <bullet> Water conservation can help stretch water supplies, but 
            has its limits in certain situations (impacts to 
            groundwater recharge by moving away from flood irrigation).

    <bullet> Public sentiment supports water remaining with irrigated 
            agriculture, and developing strategic water storage as 
            insurance against shortages.

    <bullet> Technologies for water reuse and recycling are proven 
            effective in stretching existing supplies for urban, 
            environmental and other uses.

    <bullet> Urban growth expansion should be contingent upon 
            sustainable water supplies; using irrigated agriculture as 
            the ``reservoir'' of water for municipal growth is not 
            sustainable in the long run and will permanently damage our 
            Nation's food supply and rural communities.

    <bullet> Planning for water shortage in the West must look to the 
            long-term in meeting the goals of agriculture, energy, 
            cities, and the environment.

    <bullet> A successful water shortage strategy must include a 
            ``portfolio'' of water supply enhancements and 
            improvements, such as water reuse, recycling, conservation, 
            water-sensitive land use planning, and water system 
            improvements. New infrastructure and technologies can help 
            stretch water for all uses.

    <bullet> Temporary fallowing proposals should be approached in a 
            thoughtful, thorough manner only after urban, energy and 
            environmental users of water demonstrate a better 
            management of their share of the finite supply.

    <bullet> Unintended consequences associated with reducing 
            productive agricultural land/groundwater recharge/riparian 
            habitat benefits should be avoided and, if unavoidable, 
            minimized and fully mitigated.

    We offer the following specific actions that Federal policy makers 
can address in new water supply legislation:
Encourage accurate measurement and portrayal of water use and related 
        beneficial use data
    As is often the case, what happens in California often has a ripple 
effect that extends to other western states. For example, the common 
misconception that ``farmers use 80 percent of the water'' is applied 
by critics of irrigated agriculture in areas throughout the West. We 
need to find clear and comparable ways to present these types of water 
use numbers as we struggle with finding the appropriate way to 
prioritize our water uses among competing demands. And, we need a solid 
understanding of how water used for environmental purposes is really 
benefiting the species or habitat it is intended to protect, and how to 
more efficiently manage such uses for maximum benefit using less water, 
the same standard to which irrigated agriculture is currently being 
held.
Find ways to streamline regulatory hurdles to assist in developing new 
        environmentally sensitive storage projects and other necessary 
        infrastructure improvements
    In past Congresses, several bills have been introduced that were 
intended to facilitate the construction of new surface storage 
facilities. Congress should work to pass legislation to increase water 
storage throughout the western United States.
    The President and Congress will prioritize whatever Federal funds 
are available to meet existing and future water supply needs. As for 
the rest of the necessary capital needed to develop and construct this 
new water infrastructure, it must come either from state and local 
governments or from the private sector. If the Federal Government 
cannot fund the required investments, it should take meaningful steps 
to provide additional incentives for non-Federal entities to fill the 
void, and remove barriers to the new ways of doing business that will 
be required.
    The Alliance believes that the Federal Government must seriously 
consider adopting a policy of supporting new projects to enhance water 
supplies while encouraging state and local interests to take the lead 
in the planning and implementation of those projects. Local and state 
interests (see Sites JPA example above) have shown enormous creativity 
in designing creative water development projects. Water agencies have 
at times obtained additional Federal funding through the appropriations 
process; however, Reclamation could also supplement this effort by 
providing funding for local partnership agreements, especially where 
Reclamation and its water contractors are identified as potential 
beneficiaries.
Provide additional funding to support WaterSMART and/or other programs 
        that provide incentive-driven cost share money for new water 
        conservation projects
    Small Federal investments in cost-shared, competitive grants help 
irrigation districts make larger investments in water conservation and 
management technologies that can help stretch water supplies to meet 
unmet needs. The Secure Water Act should be reauthorized to extend 
these grant programs into the future. Additionally, legislation should 
be enacted to authorize Reclamation to develop or access a WIFIA-like 
loan program, which would increase access to affordable, long-term, 
credit-based loans to help support locally developed water projects 
across the West.
Require fish and wildlife agencies to set scientifically based 
        priorities and be accountable in their effort to manage 
        environmental water
    In the western United States, environmental enhancement and 
mitigation programs are increasingly competing for existing sources of 
water. In some instances, these actions have caused major conflicts, 
costly lawsuits and delayed benefits for endangered species and the 
environment. Water is far too important a resource in an era of a 
changing climate to utilize it in an ineffective or inefficient manner. 
Accordingly, the Alliance believes that all users of water should be 
held to the same level of accountability in their water use. 
Environmental interests, fish and wildlife agencies and water managers 
must set scientifically based priorities and be held accountable in 
their effort to manage environmental water. Legislative language that 
requires fisheries agencies to demonstrate quantifiable benefits to 
targeted imperiled fish species would be helpful. An institutional 
structure that ensures true peer review and impartial decision making 
relative to this objective would also be useful.
                               conclusion
    California and the West need to manage water as if every year is a 
drought year. We need to invest in new water storage facilities to 
capture water in wet years, we need to look to innovative technology to 
enhance management of water supplies and delivery and we need to 
maximize the benefits from the water we have available to meet multiple 
needs. The ability to measure, assess and show value for how that water 
is used is incumbent on every water manager--environmental, urban and 
agricultural.
    It will be hard work to reach an agreement and enact legislation to 
wisely manage the West's water now and in the future, but that's the 
kind of work we elected you to do. Farmers work hard, and we expect 
Congress to do the same. We need you--all of you, urban and rural, 
Republican and Democrat--to come together and find a way to fix this 
broken system, now, before it breaks us all.
    Only together can we in California and the West plan and prepare 
for our collective future. If we don't, we ensure only that the water 
supply reliability will continue to decline.
    Thank you.

                                 ______
                                 

    Mr. Huffman. Thank you, Mr. Diedrich. The Chair will now 
recognize Mr. Harrison Ibach.
    Mr. Ibach is President of the Humboldt Fishermen's 
Marketing Association and is a commercial fisherman in my 
district.
    Welcome, Mr. Ibach. In my district and across the Pacific 
Coast, native fisheries provide a livelihood for fishermen and 
their families and are a key element of our local economy and 
culture. I want to personally thank you, Mr. Ibach. I 
appreciate you being here to tell this Subcommittee how drought 
and water supply shortages have affected fishing communities 
all along the Pacific Coast.
    Welcome. You are recognized for 5 minutes.

 STATEMENT OF HARRISON IBACH, PRESIDENT, HUMBOLDT FISHERMEN'S 
          MARKETING ASSOCIATION, HUMBOLDT, CALIFORNIA

    Mr. Ibach. Good morning Chairman Huffman, members of the 
Committee. It is good to be with you today. My name is Harrison 
Ibach. I am the President of the Humboldt Fishermen's Marketing 
Association, and I am the owner and captain of the fishing 
vessel Oceana from which 100 percent of my income is generated. 
I fish for salmon, Dungeness crab, and groundfish out of Eureka 
in Northern California. I have come here today so you can hear 
directly from the North Coast about the devastation that water 
mismanagement has caused to my family and my community.
    I am going to give you the salmon industry's perspective on 
California's water resources, the ways these resources are 
being managed and abused, and what Congress might do in order 
to save the Central Valley from itself and assure a more 
equitable use of our vital water system to benefit all of the 
food producers of our state who rely on it.
    Salmon are part of a cycle that nature has managed well for 
millions of years. But in the last century, water mismanagement 
in the West has sent our salmon into a death spiral. When I was 
born, in the early 1980s, there were around 4,500 commercial 
salmon fishermen in California. Today, there are fewer than 450 
who can afford the time and the financial investment to fish 
for salmon each summer. It has become so bad that we have lost 
90 percent of our fishery.
    When King Salmon fisheries are healthy, they are an 
economic powerhouse, feeding America. These fish support 23,000 
jobs in California and 11,000 in Oregon in a normal, non-
drought year. The industry serving both sport and commercial 
salmon generates about $1.4 billion in economic activity by the 
time you add in all the multipliers, and about half that much 
again in jobs and dollars in Oregon, where as much as 60 
percent of their ocean-caught salmon originate in California's 
Central Valley.
    We haven't had a decent salmon season since 2013, and the 
fishery hasn't been reliable since long before. Decisions at 
the Federal level have a tangible impact on salmon stocks and 
on our incomes. I have personally witnessed the devastating 
effects of mismanagement of water. I saw the largest salmon 
kill in the western United States on the Klamath River in 2002. 
Up to 70,000 adult salmon died when water was diverted away 
from the river for use inland.
    Relaxed regulatory oversight and maximized Delta pumping 
between 2003 and 2006 led to the complete closure of the salmon 
fishery in 2008 and 2009. Imagine that for a second. For 2 
years straight, an entire industry was told it could not go to 
work. This shutdown was a nightmare for the fishing industry. 
We had to rely on Federal disaster relief to scrape by. 
Fishermen don't favor handouts. We know how to work hard, and 
we prefer to go to work.
    In 2013, there was a good season because of the strong 
salmon protections coming from the Endangered Species Act's 
2009 salmon Biological Opinion and a wet spring in 2011. In the 
years since, California went through the worst drought it has 
had in decades.
    The 2009 Biological Opinion gave salmon a break for a 
couple of years. If it hadn't been implemented, the drought 
would have wiped us out for good. The overwhelming success of 
the 2009 Biological Opinion was short-lived due to the 
stressors of the 2012-2016 drought. But now the Federal 
Administration wants to erase the gains we made by installing 
an even more regressive water regime than we had before 2009. 
And if this Subcommittee doesn't pump the brakes and stop this 
callous action, we won't have a salmon fishery. And that is the 
truth.
    Today's Bureau of Reclamation appears to me to be run more 
like a cash faucet for irrigators than a water agency that owns 
and operates storage and flood-control infrastructure. The 
Bureau has recently released a Biological Assessment for a new 
Central Valley Project Operations Program. According to experts 
who my organizations work with, this new management regime 
would be ruinous to our salmon. It would certainly bring 
economic devastation to the coastal communities like mine.
    Members of the Subcommittee, this Administration's war on 
salmon must be stopped in its tracks. We know that water 
management can make or break a fishing season and can determine 
if a fisherman will be able to provide for his family. Sending 
water to the ocean is not wasting it--it is an investment in 
biodiversity, in the fishing industry, and our coastal 
communities. The industry is looking toward our Federal and 
state water managers to determine the future of salmon and our 
industry.
    Looking forward, the projects and standards being pursued 
at the Federal level will only help push salmon and West Coast 
commercial fishermen to extinction.
    Honorable members of the Subcommittee, please make sure 
salmon fishermen are protected so we can continue to share 
nature's bounty with you and our fellow Americans. Thank you.

    [The prepared statement of Mr. Ibach follows:]
     Prepared Statement of Mr. Harrison Ibach, President, Humboldt 
                   Fishermen's Marketing Association
    Good morning Chairman Huffman, members of the Committee. It's good 
to be with you today. My name is Harrison Ibach, I'm the President of 
the Humboldt Fishermen's Marketing Association and I'm the owner and 
captain of the fishing vessel Oceana from which 100 percent of my 
income is generated. I fish for salmon, Dungeness crab, and groundfish 
out of Eureka in Northern California. I've come here today so you can 
hear directly from the North Coast about the devastation that water 
mismanagement has caused to my family and my community. I'm going to 
give you the salmon industry's perspective on California's water 
resources, the ways these resources are being managed and abused, and 
what Congress might do in order to save the Central Valley from itself 
and assure a more equitable use of our vital water system to benefit 
all of the food producers of our state who rely on it.
    Commercial fishing has been a noble occupation since before the 
founding of this country. The ocean's bounty has been a cultural and 
culinary mainstay of the West Coast for thousands of years. And in our 
part of the world, salmon is king. Or at least it was.
    Salmon are part of a cycle that nature has managed well for 
millions of years. But in the last century, water mismanagement in the 
West has sent our salmon into a death spiral.
    When I was born, in the early 1980s, there were around 4,500 
commercial salmon fishermen in California. Today, there are fewer than 
450 who can afford the time and financial investment to fish for salmon 
each summer. It has become so bad that we've lost 90 percent of our 
fishery.
    When king salmon fisheries are healthy, they're an economic 
powerhouse, feeding America. These fish support 23,000 jobs in 
California and 11,000 in Oregon in a ``normal'' non-drought year. The 
industry serving both sport and commercial salmon generates about $1.4 
billion in economic activity by the time you add in all the 
multipliers, and about half that much again in jobs and dollars in 
Oregon, where as much as 60 percent of their ocean caught salmon 
originate in California's Central Valley.
    We haven't had a decent salmon season since 2013, and the fishery 
hasn't been reliable since long before. Decisions at the Federal level 
have a tangible impact on salmon stocks, and on our incomes.
    I have personally witnessed the devastating effects of 
mismanagement of water. I saw the largest salmon kill in the western 
United States on the Klamath River in 2002. Up to 70,000 adult salmon 
died when water was diverted away from the river for use inland.
    Relaxed regulatory oversight and maximized Delta pumping between 
2003 and 2006 led to the complete closure of the salmon fishery in 2008 
and 2009. Imagine that for a second. For 2 years straight an entire 
industry was told it couldn't go to work. This shutdown was a nightmare 
for the fishing industry. We had to rely on Federal disaster relief to 
scrape by. Fishermen don't favor handouts--we know how to work hard and 
we prefer to go to work.
    In 2013, there was a good season because of the strong salmon 
protections coming from the Endangered Species Act's 2009 salmon 
biological opinion and a wet spring in 2011. In the years since, 
California went through the worst drought it's had in decades.
    The 2009 Biological opinion gave salmon a break for a couple of 
years. If it hadn't been implemented, the drought would have wiped us 
out for good.
    The overwhelming success of the 2009 Biological Opinion was short 
lived due to the stressors of the 2012-2016 drought. But now, the 
Federal Administration wants to erase the gains we made by installing 
an even more regressive water regime than we had before 2009. And if 
this Subcommittee doesn't pump the brakes and stop this callous action, 
we won't have a salmon fishery. And that's the truth.
    Today's Bureau of Reclamation appears to me to be run more like a 
cash faucet for irrigators than a water agency that owns and operates 
storage and flood control infrastructure. The Bureau has recently 
released a Biological Assessment for a new Central Valley Project 
operations program. According to experts who my organization works 
with, this new management regime be ruinous to our salmon. It would 
certainly bring economic devastation to coastal communities like mine. 
Members of the Subcommittee, this Administration's war on salmon must 
be stopped in its tracks.
    We know that water management can make or break a fishing season 
and can determine if a fisherman will be able to provide for his 
family. Sending water to the ocean is not wasting it--it is an 
investment in biodiversity, in the fishing industry, and our coastal 
communities. The industry is looking toward our Federal and state water 
managers to determine the future of salmon, and of our industry.
    Looking forward, the projects and standards being pursued at the 
Federal level will only help push salmon, and West Coast commercial 
fishermen, to extinction.
    We have a saying in California fisheries: are you here for the 
salad, or are you here for the main course? Honorable members of the 
Subcommittee, please make sure salmon fishermen are protected so we can 
continue to share nature's bounty with you and our fellow Americans. 
Thank you.

                                 ______
                                 

    Mr. Huffman. Thank you, Mr. Ibach. I thank the panel for 
the testimony. I want to remind Members that Committee Rule 
3(d) imposes a 5-minute limit on questions. The Chair will now 
recognize Members for any questions they may wish to ask the 
witnesses.
    I will start by deferring to Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. I would first 
like to introduce a letter that I sent as Chair of this 
Committee on August 28, 2009 to Mr. Ken Salazar, Secretary of 
the Interior, on recycled water.
    I focus mostly on recycled water because in California we 
are in the desert in the south of California. And we have had a 
long battle with Northern California over the water. And the 
spectrum is everything. There is no silver bullet to the water 
wars that we have in California. However, I would like to 
suggest that we refocus on making water. By making water I say 
recycled water, specifically.
    The letter included how to look at the establishment of a 1 
million acre-foot new water program, help farmer irrigation 
efficiency, and establish a water conservation initiative for 
urban and rural water districts.
    That said, I understand the Committee's effort to bring it 
all together. I would like to ask a few questions, Mr. 
Willardson.
    Title XVI has been successful in helping construct water 
recycling infrastructure and is greatly underfunded. We 
currently have $64 million approved by the Committee, but none 
funded. There is no way to fund these projects with $50 million 
a year. I introduced a bill that increased the authorization to 
$500 million so we can finally start to adequately fund and 
complete the approved projects.
    I have heard firsthand not only from my water agencies, but 
from up and down California and other states, how vital the 
program is. Do you believe recycled water projects are the most 
cost-effective solution to drought management or one of the 
tools in the box?
    And to start refocusing investments to our recycled water, 
do you think an increase in Federal funding would help this 
problem?
    Mr. Willardson. Yes, Representative Napolitano. The Council 
supports an all-of-the-above approach to diversifying our water 
resources and supplies. Obviously, water reuse is something 
that is being used in many areas, particularly in the 
Southwest. States are making their own investments, as are 
local communities.
    As I mentioned, with respect to the Reclamation fund, the 
current receipts are roughly $2 billion, something under that 
now. We are spending about $1 billion on authorized Reclamation 
programs. If all of that money were spent, we could go a long 
ways to funding water reuse projects, or addressing some of the 
infrastructure deferred maintenance backlog, and a number of 
other projects, including rural and tribal water supply 
projects.
    Mrs. Napolitano. Thank you. We are working in Southern 
California to limit demand for imported water, due to the 
unpredictability of supply. Can you discuss the predictability 
that recycled water provides and how that affects the cost in 
the long run?
    Mr. Willardson. Obviously, it is an area that has sometimes 
been called drought-proof, in that we do have the opportunity 
to reuse it over and over again. I have toured the Orange 
County facility twice. The first time they wouldn't let me 
drink the water. The second time I did get to try it.
    It is an important area. It is not inexpensive. There are 
many other areas that we have to look at. I can tell you that I 
have looked at conservation early in my career, and that is not 
inexpensive, either. I think it is one of many important areas 
that we need to look at, particularly in Southern California.
    Mrs. Napolitano. Southern California has long been the 
leader in modernizing water infrastructure. The county recycles 
more than 100 million gallons of water per day for irrigation 
purposes. Has the farming community gone to recycling?
    Mr. Willardson. I can tell you that there are a number of 
opportunities to capture tailwater and to reuse that water, as 
well as to move toward the appropriate use of different 
qualities of water.
    Northern water, I think, in Colorado, they are looking to 
use wastewater that has been treated after it has been used for 
municipal purposes. So, there are changes that are happening, 
as well, of reuse in the agricultural community.
    Mrs. Napolitano. Thank you.
    Mr. Huffman. Thank you. The Chair now recognizes Ranking 
Member McClintock for 5 minutes.
    Mr. McClintock. Thank you.
    Mr. Willardson, let me ask you this question. What is 
better, abundance or scarcity? I know that sounds like a trick 
question, but it is a very important one that we are exploring 
with this last line of questioning. What is better, abundance 
or scarcity?
    Mr. Willardson. Well, obviously, we would like more water 
or more money, or both.
    Mr. McClintock. OK, so let me go over these figures again. 
And these are from San Diego County. They come to us from the 
California Energy Commission. The mean cost of surface water 
storage for San Diego County was $600 per acre-foot; 
groundwater storage, $737 per acre-foot; importing water, $925; 
recycling, $1,500 per acre-foot; and desalination, which San 
Diego has made an enormous investment in, cost them a 
staggering $2,300 per acre-foot. So, desalination costs us 
roughly four times what surface water storage costs in San 
Diego, a very dry area of the country.
    The question is, shouldn't we be focusing on the least 
expensive sources of water before we put money into the most 
expensive? What is better, 1 gallon of water or 4 gallons of 
water?
    Mr. Willardson. Well, I minored in economics. I know a 
little bit about markets, enough to know I don't like macro or 
micro, but I can tell you----
    Mr. McClintock. It is pretty much a rhetorical question, 
because I want to go on to another question I think is also 
very important.
    Mr. Willardson. I would state simply that there are many 
different factors that go into water cost that have to be 
considered. And obviously, as an economist, we look at what are 
the lower costs, but they are not always available.
    Mr. McClintock. Again, my time is limited, so I want to go 
on to another question for you.
    We have heard that snowpacks are going to be reduced in the 
future. Precipitation is going to be realized more as rain than 
as snow. We are not going to be able to store precipitation as 
snow in the mountains as long. Doesn't that suggest that we 
need to be capturing that runoff in reservoirs, rather than 
lose it to the ocean?
    Mr. Willardson. Obviously, it is going to change the regime 
in which we look at our water supplies.
    Mr. McClintock. If we can't store it as snow, doesn't that 
mean we need to store it as water?
    Mr. Willardson. Surface reservoirs are one. Groundwater 
recharge or other opportunities which are being used widely.
    Mr. McClintock. Right, so, again, it gets back to a very 
simple question--if we can't store it as snow, we have to store 
it as water, or we lose it.
    Mr. Diedrich, would you agree?
    Mr. Diedrich. I absolutely agree.
    Mr. McClintock. How about the Shasta Dam? That was built in 
the 1940s. It was built to an elevation of 600 feet. It was 
actually designed to be 800 feet. We can't even get a minor 20-
foot extension over decades of studies. Would that be an 
appropriate policy avenue to pursue, if our objective is clean, 
cheap, and abundant water?
    Mr. Diedrich. I believe it would.
    Mr. McClintock. Mr. Udall, what is your view of that?
    Mr. Udall. I don't claim to have any particular expertise 
on Shasta and the raising of its elevation. Clearly, in some 
places raising existing reservoirs makes sense. Other places, 
it doesn't.
    Mr. McClintock. Your father thought it made sense; he is 
the one who authored the 1980 legislation authorizing the 
expansion of Shasta.
    Mr. Willardson, my limited understanding of meteorology is 
that the El Nino is actually triggered by warmer than average 
temperatures in the Pacific. Doesn't that mean, if the climate 
is warming, we should be expecting more precipitation overall, 
not less?
    Mr. Willardson. Again, I am not a climatologist, but I 
would expect that that is the case.
    Mr. McClintock. And, certainly, that is what we are 
observing. I cited the EPA study in my opening statement. Just 
within the 48 contiguous states, we have seen 17 one-hundredths 
of an inch per decade of increased precipitation. Over 12 
decades, that is 2 inches of additional precipitation per year, 
so it seems like we are looking at more water, not less.
    The problem is how we are able to store it, transfer it as 
snow in the mountains to water in our reservoirs, to transfer 
it from wet years to dry years, and to transfer it from wet 
regions to dry regions.
    Mr. Willardson. The challenge, really, is where that water 
is going to fall, and how that is going to change. And we do 
not have an understanding of the dynamical earth systems to be 
able to make those predictions.
    Mr. McClintock. Mr. Diedrich, you testified we are at 115 
percent of snowpack right now. You are getting 35 percent of 
allocations. Why the difference?
    Mr. Diedrich. The difference is because of cold water being 
held in Shasta for salmon, basically.
    Mr. McClintock. Well, let's look at the salmon, looking at 
the relative numbers for California. Agriculture produces about 
$50 billion a year in direct product. The salmon industry, $88 
million. So, for every dollar that the salmon industry 
produces, agriculture generates $568. Am I in the ballpark 
there?
    Mr. Diedrich. I believe you are.
    Mr. McClintock. Great, thank you.
    Mr. Huffman. The Chair now recognizes himself for 5 
minutes.
    Mr. Willardson, since you were asked to respond to some 
hypotheticals, let me ask you one. What is more valuable to 
western states, paper water or wet water?
    Mr. Willardson. Wet water.
    Mr. Huffman. And does building new dams make it rain or 
snow any more?
    Mr. Willardson. It does not. It does provide the 
opportunity to store what we do get.
    Mr. Huffman. Is it fair to say that over the last century, 
California and other western states have identified the most 
productive sites for dams, for the most part, and built them?
    Mr. Willardson. We obviously depend now on the investments 
that have been made in the past, and will continue to do so. 
And it has provided a lot of flexibility.
    Mr. Huffman. And with respect to new surface water storage 
projects, the cost estimates that you just heard for dams that 
were built in the previous century, the most productive sites 
that were identified and constructed, these new projects now 
that are being proposed are at a much higher cost, are they 
not?
    Mr. Willardson. They are at a greater cost, both----
    Mr. Huffman. Mr. McClintock has cited some costs in 
questioning you for recycled water and desalination, over 
$1,000 an acre-foot. I will just say that the new storage 
projects in California, if you back away the public subsidy, 
are very much in that range.
    And lest we disparage desalination and recycling, let me 
just point out under the new Majority one change you see is 
that we don't have these little bottled water units at every 
desk, because for the last 6 years, while criticizing recycling 
and desalination as too expensive, our colleagues across the 
aisle thought that the taxpayer dollars should be spent on 
bottled water for each Member of Congress that, if you pencil 
it out, is over $3 million an acre-foot. So, perspective is 
also important.
    Let's go to you, Mr. Udall. Of course we would all like to 
see abundance. But your testimony urged us to plan for 
increased scarcity and increased volatility because of climate 
change. What do you think is the most prudent baseline 
assumption as we go forward and think about the infrastructure 
and the policy solutions to build a resilient water supply, and 
why?
    Mr. Udall. The Southwest is not homogenous with regard to 
future water supplies. The southern portion of the United 
States and the southern portion of the Southwest clearly are 
looking at hotter and drier conditions. As you go north--and I 
would suggest that line might be the Colorado-Wyoming border, 
maybe the middle of Colorado--we expect to see increased 
precipitation.
    Congressman McClintock's remarks about increased precip 
globally are true, but we have regional winners and losers. And 
unbelievably, we get both more floods and more droughts out of 
climate change. We lose on both sides.
    Mr. Huffman. Mr. Nelson, you spoke eloquently about 
communities that have been impacted by water shortages in the 
Central Valley. If you did away with the Endangered Species Act 
and all the other environmental laws that we have heard 
criticized in some of the testimony and the comments, would 
that solve the problem for the communities that you represent?
    Mr. Nelson. No, it wouldn't. And, in fact, we would expect 
that it would make the challenge even worse. And we would say 
that it is a false choice to choose between environmental 
protections that in fact do protect our communities and in 
making sure that every American can have access to safe 
drinking water.
    Mr. Huffman. Mr. Udall just mentioned the notion of winners 
and losers. And Mr. Ibach, you offered some testimony that was 
a little different than what we often hear in this Committee. 
When there are water shortages for agriculture, I think we are 
very familiar with the concept of fallowing and the hardships 
that sometimes are felt. But we haven't had a chance to hear 
about what happens to fishing communities because of droughts 
and water management decisions. Can you speak specifically 
about what you have seen in your community from those impacts?
    Mr. Ibach. Yes, absolutely. I know in my community we have 
seen a lot of hardship. I have personally witnessed many 
families go through many financial hardships. I have witnessed 
people not only lose their jobs, but forced to sell everything.
    And that is not just in my community. When we are talking 
about coastal communities that are affected by a lack of 
salmon, it is not just our community in Northern California. It 
extends as far south as Santa Barbara in California, and all 
the way up to the Oregon border. And not just up to the Oregon 
border, it actually extends all the way up into Oregon and 
Washington. And not only Washington, it actually extends all 
the way up into Alaska, as well.
    The fall-run salmon from Sacramento are actually caught up 
and down the entire West Coast of the United States. So, it is 
not just our local communities, it is actually up and down the 
entire West Coast.
    Mr. Huffman. Thank you. The Chair now recognizes Mr. Hice 
for 5 minutes.
    Dr. Hice. Thank you, Mr. Chairman. I appreciate it. I do 
live in what is referred to as Lake Country in Georgia. We have 
over 800 miles of shoreline in my district. And just for 
clarification and simplification, let me just say that dams 
protect us both from floods and drought. I think that is an 
important thing for us to come to just a basic understanding, 
which I know we know, but it is good for it to be restated.
    Mr. Diedrich, let me go to you. I am not an expert, by any 
means, on California. But my basic understanding is, current 
population there is ballpark 39 million. But the water supply 
is really suited for approximately 22 million. Is that your 
understanding?
    Mr. Diedrich. That is a fair characterization.
    Dr. Hice. A fair characterization, all right. I also am 
under the impression that California is expected to double in 
size by 2050 and have approximately 80 million. If that is the 
case, what in the world are they going to do? What needs to 
happen to catch up from currently being behind in the capacity 
of water? And what in the world needs to happen to be prepared 
for the influx of population growth?
    Mr. Diedrich. It is absolutely going to take a portfolio 
approach to every area.
    But Number 1 is that we are going to have to have increased 
storage in the state of California. You cannot put water in the 
ground when there is a flood. You have to put water in the 
ground off season. And in order to do that, you have to store 
it when it comes down.
    So, storage is absolutely vital. We have to find additional 
storage that can be built as soon as possible in the state of 
California.
    Dr. Hice. Sounds like it is going to require a significant 
amount of storage, as well.
    Going along with that, we also all know how much produce is 
provided for our country that comes out of California, just 
with fruits and nuts and vegetables, all that sort of thing. 
Probably 50 percent or so for our country comes out of 
California.
    If what you just highlighted does not take place, the 
increase of storage capacity for water, how would that impact 
the rest of the country, in terms of produce coming out of 
California?
    Mr. Diedrich. The safe and affordable food supply that 
comes out of the Central Valley and all of California is going 
to be in jeopardy. I cannot tell you at this time to what 
degree, other than it is going to be significant.
    There are only two ways that you can deal with this. It is 
to control the demand, which is going to require fallowing, and 
land taken out of production, on top of all of the other things 
that we already are doing, which is conservation, water use 
efficiency, reuse, all of that. Or increase supply.
    And Representative McClintock represented the situation 
fairly when he said it is just a matter of where the 
precipitation falls and the timing of the precipitation. So, in 
order to control that, we have to have additional storage.
    Dr. Hice. I think your point is well taken. And it seems 
obvious to me that you are barking up the right tree, in terms 
of a solution.
    One of you mentioned a while ago, someone briefly, about 
the Endangered Species Act. How has the Endangered Species Act 
complicated water rights? Or has it?
    Mr. Diedrich. I believe that the solution is going to be a 
collaborative effort. I am in no way proposing that the 
Endangered Species Act be eliminated. What I propose is that it 
be managed and implemented in an equitable, scientific, and 
fair way.
    I understand that collaboration is required between all of 
the stakeholders and the agencies. There are things that we can 
do that are non-flow projects that will increase habitat and 
increase the viability and the propagation of endangered 
species that don't have to do with water flow. Water flow is 
essential, obviously, but there are many other projects that we 
need to undertake to mitigate the harm to the endangered 
species.
    I believe that some of the characterization today has been 
unfair, although I understand that this is going to be an 
effort that we all are going to be involved in. Mr. Nelson's 
problem, Mr. Ibach's problem, and our farm problem are all very 
much related.
    Dr. Hice. I thank each of our witnesses. Thank you for your 
answers, and I yield back.
    Mr. Huffman. Thank you, Mr. Hice. The Chair now recognizes 
Mr. Costa for 5 minutes.
    Mr. Costa. I thank the Chairman and the Ranking Member. I 
think this topic is an important part of this Subcommittee's 
jurisdiction, and one that we will continue to work on for this 
Congress.
    Clearly, the sustainability of our water resources, not 
only for California, but for the West and for our Nation, are 
really a determiner as to whether or not the world can deal 
with the challenges of climate change and the impacts of water 
availability for the sustainability of not only our Nation, but 
the world. That is really what is at risk here.
    And many of you who I have worked with over the years know 
that I like to make a reference to using all the water tools in 
our toolbox, because there is not, I don't think, one single 
solution, but it is a combination of strategies and 
collaborations, as Mr. Diedrich was suggesting, I think.
    Let me quickly get to a couple of questions here. Mr. 
Diedrich, you stated in your written testimony--and you 
restated it just a moment ago--that environmental interests, 
fish and wildlife agencies, and water managers set 
scientifically-based priorities and to be held accountable in 
the efforts to manage those. And, of course, water flow is a 
key component. No one denies that. But could you elaborate more 
specifically on what kinds of things you think would be helpful 
in increasing fish populations in this effort?
    Mr. Diedrich. A lot of that work is going on right now, 
today. Public water agencies that fly farm water are very much 
engaged. There are projects--anybody that is interested, they 
can Google Floodplain Fatties. Right now, we are flooding rice 
fields to mimic the flood plain to produce food for salmon 
smolt. That is a project that we are collaborating with. And we 
are dropping root balls into certain areas of the river to 
provide habitat and cover for the salmon smolt to protect them 
from predators. There is a tremendous amount of work that is 
ongoing today to identify the stressors that are in the system 
that are affecting the endangered species.
    Mr. Costa. I appreciate that. Let me go on, because there 
are a lot of examples, as you noted, and others that I would 
like to submit for the purpose of the hearing that are 
collaborative efforts that we should acknowledge.
    Mr. Ibach, the impacts of your fishing communities are 
heartfelt, and I know of them from my colleagues. They are very 
similar to the stories that we have had during the height of 
the drought in our farm-working communities, where we have had 
unemployment levels as high as 40 percent, and close to 50 
percent. So, the drought has had mutual negative impacts.
    When we look at the impacts of climate change, sea levels 
rising, the impacts of water temperatures--and you noted on the 
Sacramento River--and we had a great debate in the last year--
between 56 and 57 degrees temperature on the cold water pool 
behind Shasta. I have seen historical maps of the Pacific Coast 
up to the Canadian border, up to Kamchatka Peninsula on salmon 
runs. And clearly, climate change is going to impact, 
notwithstanding our best efforts, would you not agree?
    Mr. Ibach. Yes. I agree that climate change definitely 
plays a role, as well.
    Mr. Costa. I mean, there are multiple factors in this. We 
have more population, we have rivers down the coast far below 
San Francisco that no longer provide the fishery resource that 
they used to because of a whole combination of factors and 
decisions that were made. Is that not the case?
    Mr. Ibach. Yes, it is multiple factors. But one of the key 
main factors is water. Salmon need water----
    Mr. Costa. No, I understand. But 40 years ago, we had 20 
million people in California. Today, we have 40 million people. 
By the year 2030, we are going to have 50 million people. I 
wish I could do something about that. Actually, I have. I have 
not contributed to that population growth.
    [Laughter.]
    Mr. Costa. But the fact is it continues, so we have to deal 
with the reality.
    Mr. Udall, the law of the river--I studied a lot, your 
father was involved--do you think that is going to have to be 
revisited on the Colorado when California gets its water 
resource from Northern California, from the Colorado, and from 
the east side of the Sierra? One of the seven states. What is 
your thought?
    Mr. Udall. There is a terrific opportunity with the 
negotiations that come up next year to redo the 2007 interim 
shortage sharing guidelines. And I think we have to look at 
every aspect of the law of the river during that 6-year period.
    Mr. Costa. My time has expired, Mr. Chairman. But 
obviously, this is a discussion that we need to continue. And 
your opening comments about attempting to try to put aside some 
of the politics that have made dealing with these issues 
difficult and providing solutions, I welcome, and I will work 
with you.
    Mr. Huffman. Thank you, Mr. Costa. The Chair now recognizes 
Mr. Fulcher for 5 minutes.
    Mr. Fulcher. Thank you, Mr. Chairman. A question for Mr. 
Diedrich.
    In my state of Idaho, I get feedback from our stakeholders 
quite frequently in regard to who really is making the 
decisions on water management. And as you know, the Western 
States Water Council--I think it is position 425--says that the 
state is to be the primary decision maker, or more local, on 
how the allocation, administration, and management of that 
water is to be handled.
    In reality, because of ESA--at least the stakeholders in my 
state frequently come to me and argue that, hey, look, that is 
really not what is happening here.
    So, (a) are you in line with that? Do you see some of those 
conflicts? And (b) if so, what types of reforms to ESA do you 
think we need to make, in order to allow more local control of 
administration of that water?
    Mr. Diedrich. That is a very difficult question. I believe 
that many of our stakeholders feel the same. It is a very 
complicated system, where the state and the Federal cooperate 
with the Federal agencies. In California, we have some very 
powerful state agencies--we have a California State Endangered 
Species Act also. Everybody has to collaborate on making 
decisions on operation of the system. So, we need inter-agency 
and collaborative effort. They all need to work to the same 
goal.
    One of the things that would be helpful, I believe, is the 
FISH Act. I believe that if we can get Fish and Wildlife to 
have the anadromous fish species that are in commerce under one 
roof, it might be helpful.
    Mr. Costa. Would the gentleman yield?
    Mr. Fulcher. Yes.
    Mr. Costa. I think the point that Mr. Diedrich is making is 
important. And not that California is always a good example, 
because we have our own challenges, I believe.
    But Mr. Diedrich, we have been through this, you and I, for 
a long time. But if you could give some perspective to the 
gentleman as to that collaborative effort over the last 10 
years, the last 5 years, a descriptive as to whether it is 
getting better, worse, or the same.
    Mr. Diedrich. Well, I think certainly 5 years ago we had 
issues with--we had section 7 of the Endangered Species Act, 
for example, where we are managing each species individually. 
And a lot of the times what is good for one is not good for 
another. And if they are at a conflict, it is a problem. We 
have that problem with smelt and with salmon.
    So, we just feel like if we could get this all in one 
house, it might be managed a little bit more effectively.
    Mr. Costa. Do you think the collaboration is getting better 
or worse?
    Mr. Diedrich. I think it is--I went on a Delta tour 
recently, and I was hopeful. I think some of this Biological 
Assessment and this activity that is going on right now with 
the President's memo is a good thing. It is going to help----
    Mr. Costa. I thank the gentleman for yielding.
    Mr. Fulcher. Yes. Thank you, Mr. Costa. So----
    Mr. Huffman. Reclaiming your time, Mr. Fulcher?
    Mr. Fulcher. I am, thank you, and just more of a statement 
than a question at this point.
    Mr. McClintock made a statement about the economic impact 
of the Ag. community--versus the fish and that component, 
economically. As I close up my amount of time, I need to echo 
that sentiment for my home state.
    And I would also like to point out that we have made some 
pretty good progress with salmon flows. Frankly, it has been 
our Native American population and the fisheries and hatcheries 
that have been very integral in developing and managing, and 
they have helped bridge that gap.
    But to think for a moment that we can sidestep the economic 
engine of our entire state by breaching and those types of 
things, we just simply have to find a smarter way.
    So, Mr. Chairman, thank you. And Mr. Costa, Mr. McClintock, 
the panel.
    Mr. Huffman. Thank you. The Chair recognizes the gentleman 
from Orange County, Mr. Levin--Orange County being a place 
where they actually drink highly treated wastewater as part of 
their baseline water supply. And it looks pretty healthy, looks 
pretty good.
    Mr. Levin. I have consumed it myself, Mr. Chairman, and I 
have lived to talk about it.
    I wanted to thank you for holding this hearing. As many of 
my colleagues here on the dais know, California has a 
complicated water system that faces sustainability challenges, 
given our changing climate. Snowpack is projected to lessen as 
the climate warms, and the state will see a larger percentage 
of its precipitation in the form of rain.
    With these changes and our continually growing population 
in mind, we must consider how to make our water resources more 
sustainable and reliable for our population centers.
    In my district, in North San Diego County, in South Orange 
County, we have a number of projects that are moving our 
communities toward a sustainable future. I am pleased to say 
that the Bureau of Reclamation recognizes the value of those 
projects, and that the Doheny Ocean Desalination Project and 
the expansion of Oceanside's Mission Basin Groundwater 
Purification Facility are set to receive a combined $11 million 
from Reclamation. Together, these projects will increase access 
to locally sourced, great, clean drinking water.
    I am proud that the water agencies in my district are 
building toward the future in a way that will allow them to 
more sustainably manage their water supply. I am also 
encouraged that we are finally having a long-overdue discussion 
on climate change, and how it relates to water supplies.
    To Mr. Udall, as a scientist who studies the impact of 
climate change on water supplies, you may have seen reports 
that President Trump plans to establish a group at the White 
House to review climate science. The group would be led by 
William Happer, a physics professor who has no formal training 
as a climate scientist.
    In November 2017, Mr. Happer said--and I quote--``It is not 
as though if you double CO<INF>2</INF> you make a big 
difference. You make a barely detectable difference.''
    Mr. Udall, do you think Mr. Happer's statement is 
scientifically accurate? And how would you respond to his 
assertion?
    Mr. Udall. That statement is not scientifically accurate.
    When Chevron tells us that the Intergovernmental Panel on 
Climate Change is right, as it recently did, and when Exxon 
decides we need a carbon fee, I think the debate is over on 
whether or not this issue is a real issue, and we need to do 
something about it.
    Mr. Levin. Another quote from Mr. Happer in March 2016. He 
said, and I quote, ``I am trying to explain to my fellow 
Americans the serious damage that will be done to us and, 
indeed, to the whole world by cockamamie policies to save the 
planet from CO<INF>2</INF>.''
    As a trained climate scientist, sir, how would you respond 
to that?
    Mr. Udall. It is not correct.
    Mr. Levin. Finally, in November 2015, Mr. Happer said, and 
I quote, ``If plants could vote, they would vote for coal.''
    As a trained climate scientist, how would you react to 
that?
    Mr. Udall. CO<INF>2</INF> does, in fact, fertilize plants. 
But it causes a whole series of other problems, which we are 
now experiencing, including 50-plus inches from Hurricane 
Harvey, of which 40 percent was due to climate change.
    Mr. Levin. I appreciate your good work on behalf of 
evidence and climate science. And I would hope that others 
would acknowledge the overwhelming scientific consensus. And 
hopefully that will happen eventually in the White House, as 
well.
    With that, Mr. Chairman, I yield back my time.
    Mr. Huffman. Thank you. The Chair now recognizes the other 
gentleman from the Central Valley, Mr. Cox, for 5 minutes.
    Mr. Cox. Thank you so much, Mr. Chairman. Thank you, 
everyone, for being here today.
    There is probably no place that feels effects of climate 
change greater than the Central Valley of California. We have 
seen it in our shorter winters, our hotter summers, reduced 
precipitation, and certainly in the unreliability of our water 
supply. And our Nation's water supply has been clearly impacted 
by climate change in my district, in California's Central 
Valley, as Mr. Nelson well knows and previously testified.
    Everyone, from our farmers, our ranchers, and, most 
importantly, our rural communities, have been severely impacted 
by California's last drought and the ongoing lack of water 
supply and access.
    Water supply reliability is an issue that affects every 
other issue. You can't talk about health care without talking 
about lack of access to clean drinking water. You can't talk 
about job security, you can't talk about economic growth, or 
the stability of our communities without talking about a 
reliable water supply and long-term water storage. And the 
reality of it is that our way of life is completely determined 
by our access to reliable and clean drinking water.
    And this isn't a partisan issue at all. We must find 
compromise and smart solutions to address our water supply 
reliability. That is why we were elected to Congress, that is 
why we sit on this Committee today, and it is why we are here 
today.
    So, with that, I have a few questions.
    Mr. Nelson, rural communities, as you pointed out, are 
especially vulnerable to running out of water during times of 
drought. They often rely on groundwater wells that tend to be 
relatively shallow. In recent years, many communities in my 
district have literally run out of drinking water and have had 
to rely on emergency bottled water deliveries.
    What specific impacts have you seen in the communities you 
serve in California from the drought?
    Mr. Nelson. Thank you for that question. It manifests as a 
human catastrophe. I mean, just imagine going home and having 
to take your children to a community portable shower in a 
trailer. That is the reality.
    There are also, as already has been pointed out, economic 
impacts. How can we expect our communities to thrive, when we 
can't provide something as basic and fundamental as safe 
drinking water?
    That is a public health crisis of our time, and it needs to 
be addressed.
    Mr. Cox. Mr. Ibach, you said something that kind of piqued 
my interest. And if you could provide a little bit more color. 
When you said, ``what Congress must do in order to save the 
Central Valley from itself,''--could you give me a little more 
explanation on that statement?
    Mr. Ibach. I think that goes right along with the other 
communities.
    Another community that we failed to mention was that the 
inland community around the Sacramento River also relies on 
salmon, as well. There is a large portion of people, small 
communities up and down the entire river system, that benefit 
with more salmon in that river.
    Mr. Cox. I appreciate that. But how does that go back to 
the Central Valley saving itself from itself? I mean, I am 
still unclear what you meant by that. I am not trying to put 
you on the spot or anything like that, but it is----
    Mr. Ibach. I think that the point I was trying to make 
there, is that we need to further have better water management, 
all together. And we do need to work together. And the Central 
Valley, I think, obviously, needs to put--in my personal 
opinion--a lot more effort into our salmon stocks, because we 
are a dying industry.
    It has almost been a nail in the coffin for our industry 
and for a lot of people. So, I just can't emphasize enough how 
bad we need water to really help salmon for----
    Mr. Cox. Well, fair enough. And I could tell you that the 
people I represent, the Ag. community, the rural communities, 
we are all looking for a collaborative approach, so it is not 
fish versus farms.
    And I think Mr. Diedrich could probably speak a little bit 
about that, with some of the conservation efforts that you are 
taking. And, if you wouldn't mind, providing a little more 
color around some of the things that you do.
    Mr. Diedrich. Absolutely. One of the things Representative 
Napolitano had asked earlier was about whether or not we are 
engaged in reuse. And I would like to address that, because we 
are.
    There are some very large water supply projects, where we 
are taking the same water that Orange County is drinking and 
putting it back in the Delta-Mendota Canal. And we are using it 
for irrigation water, so we are using every available tool in 
the toolbox, as Representative Costa mentioned earlier, to try 
to produce a reliable water supply so we can continue to 
produce a safe and affordable food supply. So, absolutely.
    Mr. Cox. Thank you so much.
    Mr. Huffman. And Mr. Cox, just for what it is worth, I took 
that statement about saving the Central Valley from itself to 
mean that, in the absence of better water management, we will 
continue to see chronic groundwater overdraft, and the need for 
infrastructure repairs, and other things.
    But maybe at some point we can go into more depth into 
that. I think that there is a broader explanation of what that 
might mean.
    Mr. Cox. Yes. Frankly, it wasn't a loaded--I wasn't trying 
to make a point. I was just really trying to understand the 
context of the statement.
    Mr. Huffman. Absolutely. Well, let's do this. We are going 
to close now, and I thank the witnesses and the Members for 
their engagement.
    But one of the things I would like to do before we do that, 
Mr. Gosar, who, I believe, is on this--no, he is not on this 
Subcommittee, but he has been in the past. He has this little 
thing when he chaired this Subcommittee, where he would close 
by asking each witness, in 1 minute or less, to say what is the 
question you were not asked that you wish you had been asked, 
and see if they can just close out with that 1 minute or less.
    Let's do that, starting with Mr. Ibach here on the end, and 
we will give Mr. Udall the final word. One minute or less, what 
do you wish you had been asked, and what would you have said?
    Mr. Ibach. I really wish I would have been asked more about 
the impacts on our fishery, honestly, and the people that I 
represent. The fishing community has been in peril. We heavily 
rely on salmon in a big way. And I wish I could just have more 
time to elaborate on how bad our situation is in the fishing 
industry.
    A lot of salmon rivers, 80 percent of the water is taken 
away from salmon rivers, rivers that have salmon in them. That 
leaves a remaining 20 percent. I just can't emphasize enough 
how bad we have been struggling, and how bad we need this 
water. Water going to the ocean is not being wasted. That water 
going to the ocean is a crucial key factor for the survival and 
the longevity of keeping salmon around, which we need.
    Mr. Huffman. Thank you, Mr. Diedrich, what do you wish you 
had been asked, and what would you have said, in 1 minute or 
less?
    Mr. Diedrich. Well, I don't know if it hasn't been asked, 
but I have a few other things I can say. The issue for 
California agriculture is, obviously, the Central Valley, 
California overall, produces a safe and reliable food supply.
    And we believe that it is a national security issue, not 
only in the economic dollars involved with our production, but 
having the control of our own food supply, and having it be 
safe, and have it being produced under a highly regulated, 
sustainable system. There is no doubt that our water supply 
reliability is a prime factor in our ability to do that. And in 
order to produce a reliable water supply, we are going to have 
to deal with many, many other issues.
    Ag. has done its part in water conservation, water use 
efficiency--today we produce more food per drop of water than 
we ever have. We have increased our production incredibly. We 
take advantage of every door that we see open. Every tool 
available, we take advantage of.
    Mr. Huffman. Thank you.
    Mr. Diedrich. I just ask that this Committee do their work, 
do their job, and encourage Federal agencies and Federal water 
management to cooperate with the state and all the regulatory 
agencies.
    Mr. Huffman. Thank you, sir.
    Mr. Willardson?
    Mr. Willardson. I think I would emphasize the collaborative 
nature and the difficult choices that we are going to have to 
make, moving forward.
    I would mention, on the Endangered Species area and 
changes, Governor Kempthorne of Idaho--then Senator--and now 
the Western Governors, have a long list of recommendations for 
addressing endangered species.
    I would also point out that farmers are fishermen. Being in 
Utah, we do have some kokanee, but I don't fish much for 
salmon. But I used to fish for trout. I think finding these 
economic and environmental balances are important.
    And Representative McClintock, one of my first papers 40 
years ago, when I went to work for the Council, was on 
conservation. It does not create new water. But it is something 
that we have to look at. And it can be expensive.
    These are very site-specific issues. I live in the Salt 
Lake Valley. Utah is the second-highest per-capita water user, 
next to Nevada, in the West. And in Salt Lake City, I live next 
to the mountains, where we get our snowpack. Our supply is the 
snowpack. We don't have to move it through large canals, as 
they do in California. We don't have to treat it much. We live 
on lots, and we all have large families, which contributes to 
that.
    They are in the process of beginning to discuss metering my 
secondary water system, which I now have. And I pay a lot less 
than when I was using municipal water to irrigate my property.
    But it is really site-specific when you look at 
conservation, when you look at water supply, and you look at 
the costs and benefits. And we have to do that in a 
collaborative manner, recognizing everyone's needs.
    Mr. Huffman. Thank you, Mr. Willardson.
    Mr. Nelson?
    Mr. Nelson. Thank you, Chairman. One question that comes to 
mind is how do we secure every American's basic human right to 
water?
    As I have already shared, this is a public health crisis. 
It is happening under our watch. It is an environmental justice 
crisis. And because of climate change, it is only going to 
become more of a challenge.
    So, as already has been mentioned, we do need more funding 
for water infrastructure. But to go back to this concept of a 
portfolio approach, we would say that it needs to be a smart, 
protective, and environmentally just portfolio approach. And we 
need to act not in the future, not in any other moment. We need 
to act right now. Thank you.
    Mr. Huffman. Very good.
    Mr. Udall, last word.
    Mr. Udall. My question is what is the risk if the Colorado 
River Drought Contingency Plan is not put into place. And the 
risk is, if we empty Lake Mead, all bets are off. Water rights 
are meaningless at that point. We will have no rules for how 
this system operates. And the Federal Government will be in 
charge of allocation decisions, which should scare everyone. 
And they will be making these decisions without full 
understanding of the consequences. The DCP has to get across 
the finish line.
    Mr. Huffman. Very good. Well, thanks again to all of the 
witnesses. This hearing has helped spotlight some of the 
challenges we will have to manage now, and in the years to come 
to secure our Nation's water supply. This Subcommittee will 
work hard and thoughtfully to craft policy solutions that 
promote water supply reliability for all affected stakeholders. 
And I thank our witnesses for joining us to inform that 
important work.
    Members of the Committee may have some additional questions 
for the witnesses, and we will ask you to respond to these in 
writing if that is the case.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following the 
hearing, and the hearing record will be held open for 10 
business days for these responses.
    If there is no further business, without objection, the 
Committee stands adjourned.

    [Whereupon, at 11:27 a.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Submission for the Record by Rep. Cox

            Statement of the South Valley Water Association
    The South Valley Water Association (SVWA) consists of nine 
irrigation districts that wield water for agriculture within the 
Central Valley Project's (CVP) Friant Division. SVWA represents more 
than 400,000 acres of the world's most productive farmland in the 
southern end of the Great Central Valley of California. Farmers in SVWA 
grow a diverse group of agriculture commodities including: cotton, 
grapes, oranges, and a variety of different nuts and dairy products.
    Collectively, the SVWA irrigation districts deliver up to 1 million 
acre-feet of water annually to farmers in the Central Valley.
    Water supply reliability in the San Joaquin Valley will require 
robust state, Federal and local investment in infrastructure, along 
with coordinated and balanced approaches to water management to ensure 
that one of the world's most productive agricultural regions can 
continue to provide good jobs and safe, affordable food to all of the 
United States.
                               subsidence
    Subsidence is an issue that plagues the entire state of California 
but nowhere are the impacts as visible as in the San Joaquin Valley. 
Because of subsidence, the Friant-Kern canal, which relies entirely on 
gravity to deliver water to communities and a total of 1 million acres 
of farmland, has lost roughly 60 percent of its carrying capacity, as 
the canal has literally sunk into the ground creating pinch points 
upstream of some of the largest users of water. These pinch points 
prevent the efficient movement of water and have caused severe economic 
impacts.
    As the state of California moves toward implementation of the 
Sustainable Groundwater Management Act (SGMA), the inability to 
efficiently move water through the Friant-Kern canal creates 
significant hurdles as it limits the ability to move water from 
Millerton Lake through to the southern end of the Friant service area. 
This part of the San Joaquin Valley has significant groundwater 
recharge potential, but it can only be fully realized if the 
infrastructure exists to deliver water during times when excess flows 
are in the system.
    The double-sided impact of subsidence is not just the inability to 
deliver irrigation and recharge water and gain the resulting benefits, 
but also that the diversion of that water into the Friant-Kern Canal is 
also part of mitigating flood impacts on the levy systems below Friant 
Dam.
    Subsidence is also not limited to just the Friant-Kern Canal. In 
2017, the levies of the lower Kings River had sunk enough that flood 
releases threatened the communities of Huron and Tranquility. Scenarios 
like that will continue to play out in the San Joaquin Valley until the 
impacts of subsidence are addressed.
                         multi-benefit projects
    Farmers in the San Joaquin Valley will inevitably have to fallow 
land in order to reduce groundwater demand and meet the requirements of 
SGMA. Because of this, SVWA has developed a unique partnership with The 
Nature Conservancy (TNC) to advance multi-benefit land retirement 
projects. SVWA and TNC are in the process of implementing a strategic 
land retirement program to ensure that land retirement is done in a way 
that minimizes impacts to disadvantaged communities and creates 
ecosystem benefits. A scattered approach to land retirement will have 
severe socio-economic impacts and limit habitat connectivity. The 
program will identify lands for fallowing based on their habitat 
potential and will create habitat connectivity in a region that has 
historically been characterized by a checkerboard of farmland and 
habitat.
    Strategically retiring and restoring parts of the farming landscape 
to natural habitats, as opposed to leaving them fallow and unused or 
converting them to houses or industrial uses, could significantly 
increase the potential for recovery of dozens of endangered species in 
the San Joaquin Valley.
    Restoring former agricultural lands to natural habitats can also 
deliver other environmental benefits that provide tangible services for 
farmers and San Joaquin Valley residents. Restored lands can be a 
reservoir of abundant native pollinators needed for crop production and 
natural enemies of agricultural pests which can reduce the pest burden 
in many crops. Reducing the agricultural footprint may also help reduce 
air quality problems that are leading to chronic human health issues in 
the San Joaquin Valley, like high rates of asthma. Retiring and 
restoring targeted agricultural areas will create the possibility of 
reducing overall nitrate loading in groundwater over time that 
currently affects rural communities and contributes rates of birth 
defects that are higher than state averages. Further, it could also 
significantly contribute to helping the state meets its 2030-2050 
targets for reducing greenhouse gas emissions a potential source of 
funding for landowners and water agencies to help defray the costs of 
lost production and restoration.
                           healthy ecosystems
    SVWA recognizes that healthier fisheries lead to more reliable 
water supplies and that the two are not mutually exclusive. Farmers 
versus fish is a counterproductive approach that only fosters 
division--the traditional paradigm that more flows lead to more fish 
hinders progress. Science shows that efforts to improve fish 
populations should focus on habitat restoration, predator control and 
functional flows--flows at the right time and place, rather than 
additional requirements for minimum instream flows. Efforts to 
reactivate floodplains for fish in the Sacramento Valley have shown 
incredible promise and should be replicated on the Lower San Joaquin 
River.

                                 ______
                                 

Submission for the Record by Rep. Napolitano

                   U.S. House of Representatives,  
                    Committee on Natural Resources,
                                       Washington, DC 20515

                                                    August 28, 2009

Mr. Kenneth Salazar
Secretary of the Interior
U.S. Department of the Interior
1849 C Street NW
Washington, DC 20240

    Dear Mr. Secretary:

    As chair of the Subcommittee on Water and Power, I have grave 
concerns I felt I must share with you. Please forgive the lengthy 
explanation; I felt it must be given.
    Drought in California is polarizing the state, taking up valuable 
time and resources resulting in considerable debate and finger-pointing 
as to who/what to blame. Thank you for recognizing that the issue is 
big enough and requires you dedicating high level staff to addressing 
the problem.
    The quandary we face is to both reduce demand and increase supply. 
Historically, water developers have focused on increasing the size of 
the water pie. Developing new water supply takes years to accomplish 
(fifteen years by the Governors own estimate), costs billions of 
dollars, presently lacks public consensus, public and political will, 
and united support. Addressing the water equation by reducing demand 
has already resulted in extensive efforts in Southern California to 
reduce water consumption (local regulations), improving conservation 
efforts (low flow toilets and shower heads) and educating the public 
(PSA's and notices in water bills). This has lessened impacts, but as 
the population continues to grow and the drought continues, the demand 
will increase beyond what conservation alone can provide.
    The California Congressional delegation is a diverse group. One 
thing that we all agree on is that the water crisis in California is 
significant, requires leadership and development of a solutions 
portfolio that builds upon our abilities to confront problems, and uses 
our innovation and ideas to mobilize the resources necessary to 
addresses the issues. Some of us have been giving the California water 
issue serious review and determined that the Subcommittee needed to 
explore options.
What Does a Water Solution Look Like?
    Over the past two months I have had the Water and Power 
Subcommittee staff director, Dave Wegner, researching the issue and our 
potential roles. I have been briefed on initial findings and we will be 
briefing the subcommittee upon our return in September. We are offering 
our full assistance to address the long, mid and short-term actions 
that can be taken to develop water solutions for California and, by 
learning from these efforts, provide opportunities for the rest of the 
Western United States. Our concern is that the drought of the last 
three years may continue into 2010, possibly further. We need to 
implement actions now that will provide the ability to let the 
Department focus on the long-term solutions.
    Solutions to the California water crisis must be based on a 
diversified and dynamic approach, allow for appropriate planning and 
permitting that will ultimately allow delivery of water in a timely and 
cost effective manner. There is no one single ``silver bullet'' that 
will solve the water crisis. The challenge we face is to develop a 
cooperative approach that cumulatively will yield a diversified 
portfolio and strategy that will result in increased supply, reduced 
risk, and improved water security, sooner rather than later.
    It is indisputable and imperative that discussions and efforts 
directed at long-term solutions continue. At the same time, we must 
recognize that when creating new water from large water projects, all 
parties and all interests are defined by an immutable rule: the last 
dollar must be spent to get the first drop of water. The bottom line is 
that until we spend the last construction dollar, no one gets the first 
drop of water from any of these proposed projects.
    In the course of our research, we have asked state water leaders 
when new water supplies could be brought on-line, addressing the 
question, when does California achieve that ``first drop?'' The answers 
range from 2020 to 2030, depending on a plethora of unknown factors. In 
reality the year doesn't really matter. The point is there is no 
immediate construction action that can be taken to create new water.
    Creating solutions to water demands must incorporate a range of 
ideas and approaches. Water managers must continue to explore, and 
analyze long-term solutions associated with the Delta, evaluating new 
water sources, including storage and conveyance. At the same time, it 
is equally imperative that a plan be adopted to address our immediate 
challenges.
The Goal: Creating 1 MAF of Water for California in the Near Term
    Let me reiterate again Mr. Secretary, we want and are anxious to 
work with the Department on a portfolio of solutions for the water 
crisis in California. We want to look for solutions and approaches 
where Congress and the Administration can work collaboratively on 
solutions. As Chairwoman of the Subcommittee on Water and Power, I 
submit the following recommendations for immediate actions on your 
part, to address challenges to the California water crisis. Each is 
based on the concept of stretching existing water supplies in order to 
increase the amount of available water and does not require new 
legislation, only strong and decisive leadership.
(1) Bureau of Reclamation to establish a 1 Million Acre Foot new water 
        program

    <bullet> Grow new water in the State--throughout the State

    <bullet> Create, in the next 48-60 months, 1 MAF of new water 
            annually

    <bullet> Develop this new water without regional water user or 
            environmental conflict

    <bullet> Accomplish this objective utilizing the Bureau's Title XVI 
            program, identified by the Commissioner on July 21, 2009, 
            as part of Reclamation's core mission. (We agree with the 
            Commissioner's statement made before the Subcommittee and 
            believe that by working with 0MB we can develop support for 
            funding.)

(2) Bureau of Reclamation to establish a ``Farmer Helping Farmer'' 
        Irrigation Efficiency Initiative

    <bullet> Make funds available to water districts, water agencies 
            and individual irrigators to invest in on-farm irrigation 
            efficiencies to stretch our existing available irrigation 
            water. These funds could come from the Reclamation Rural 
            Water Program and other funding vehicles identified in 
            previous legislation.

    <bullet> Consistent with CVPIA and Reclamation law, allow districts 
            or irrigators to sell, rent or lease water savings to other 
            irrigators.

    <bullet> Implement improved and less bureaucratically cumbersome 
            transfer incentives for farmers and water districts to 
            allow the efficient and timely movement of water from and 
            through existing facilities.

(3) Bureau of Reclamation to establish ``Water Conservation'' 
        Initiative for urban and rural water districts

    <bullet> Make funds available to water districts, water agencies 
            and others as appropriate to invest in conservation efforts 
            (i.e. irrigation methods, scheduling, land leveling, etc.) 
            that stretch existing water supplies. These funds could 
            come from the Reclamation Rural Water Program and other 
            funding vehicles identified in previous legislation.

    <bullet> Consistent with CVPIA and Reclamation law, allow districts 
            and/or irrigators to sell, rent or lease water saved to 
            others.

    The objective of these recommendations is to stretch the water 
supplies we have. In the short term, we have adequate water supply to 
meet the needs of the State of California. What is lacking is the 
bureaucratic ability to efficiently move water, incentives for water 
right holders to allow for the efficient use of water, and leadership 
to address how to get it done.
    We can implement programs here and now to create 1 MAF of new water 
annually through Title XVI, and supplement that initiative with 
projects to stretch existing supplies throughout the State--from our 
cities to our farms.

    Recommendations requiring action:


    <bullet> The Interior Department and Bureau of Reclamation submit, 
            urgently, a $250 million budget amendment to the Bureau of 
            Reclamation's budget for FY 2010 adding funds in the 
            following amounts:


          Title XVI....................  $200 million
          Water Efficiency (Farmer-to-   $ 25 million
 Farmer).
          Water Conservation Initiative  $ 25 million
 

    <bullet> OMB, Interior, the Administration, and others as 
            appropriate and necessary, work with the House Budget 
            Committee, Appropriations Committee, Energy and Water 
            Appropriations Subcommittee, Natural Resources Committee, 
            and the Water and Power Subcommittee to implement this 
            prior to when the Energy and Water Appropriations bill for 
            FY 2010 is finalized in conference. Concurrently, 
            coordinate with the appropriate Senate committees and 
            subcommittees.

    <bullet> The Title XVI funds should go to develop a new generation 
            of projects--throughout the State. The objective is to (a) 
            fund projects not funded by the Stimulus Program; and (b) 
            underwrite at least 40 congressionally approved new 
            recycling projects. Today, projects throughout Southern 
            California--in LA, San Diego, Riverside, Orange and San 
            Bernadino Counties are on track to develop approximately 
            500,000 acre-feet of new water annually. This program will 
            double that--to produce 1 MAF of new water annually and do 
            so within 48-60 months.

    While California puts 1 MAF water into service and on-line, long-
term plans can proceed with the efforts of the Department of the 
Interior leading toward actions. California can manage our way through 
this challenge rather than be overwhelmed by it. When the day arrives 
where California runs short of water, the direct and indirect costs 
will be measured in billions and the bureaucratic stress will increase 
exponentially. We need to act now and act in a concerted, strategic 
approach.
What can be done immediately?
    Congress has provided tools so we can begin work now to resolve the 
water crisis. First, the Title XVI water recycling and water 
reclamation program can be the centerpiece of a constructive solution. 
As a result of investment in it, new wet, not paper, water can be 
created and placed in service throughout the State. Recycled water 
developed throughout California relieves pressure on the Delta, and, in 
turn, helps water districts and water users in the San Joaquin Valley, 
particularly those on the West Side, who have junior water rights and 
water entitlements.
    A $200 million investment in Title XVI automatically leverages an 
additional $600 million from the water districts and financial lenders. 
By law and policy, water districts are eligible for a 25% cost-share, 
not to exceed $20 million. This is the most cost-shared water resources 
program in the Federal Government. This investment stimulates new 
business, puts people to work, develops green jobs, produces 1 MAF of 
new water annually and helps the State manage its way through this 
water crisis.
    The bottom line to the Water and Power Subcommittee is that we 
believe that Congress has given the Department tools to address the 
California water crisis. We believe that solutions must include near, 
mid and long-term actions. And finally, we believe that cooperatively 
we can work with the Department to strategically plan for and implement 
actions that will result in water in the faucet, will work with local 
water districts, will put people to work, and will provide leadership 
in addressing long-term water planning and production.
What we would like to Suggest.
    We respectfully request a sit down meeting to discuss these ideas 
with you, identifying what we can do to work with the Department in 
meeting the water needs of California, and doing so in a cost effective 
and environmentally sensitive manner. We look forward to your favorable 
reply and meeting with you in September. Please contact the Water and 
Power Subcommittee or myself to set up the meeting.

            Warm Regards,

                            Grace F. Napolitano, Chairwoman
                                       Water and Power Subcommittee

                                 *****

                               ATTACHMENT

Supporting Justification for Proposal Suggestions

This request is consistent with:

    <bullet> Bureau of Reclamation Feasibility Study on Water Recycling 
            in Southern California

    <bullet> Bureau of Reclamation Feasibility Study on Water Recycling 
            in the Bay Area

    <bullet> State of California Task Force on Water Recycling

    <bullet> DWR's Bulletin 160

    <bullet> MWD and SAWPA approved programs

    <bullet> Other?

Water Recycling Benefits

    <bullet> Consistent with stimulus objectives

    <bullet> Creates green jobs

    <bullet> Provides for continuity of construction jobs in counties 
            most impacted by the recession

    <bullet> Relieves pressure on the Delta, short-term and long-term

    <bullet> Consistent with reduced energy and lower carbon objectives

    <bullet> Provides drought relief

    <bullet> Consistent with climate change policy objectives

    <bullet> Develops new water supplies (and does so without 
            generating political conflicts)

    <bullet> Projects can be designed, approved, funded, constructed 
            and operated within a short time

    <bullet> No other alternative can produce 1 MAF as quickly or 
            efficiently.

Farmer to Farmer Initiative Benefits

    <bullet> Allows farmers to develop and implement solutions locally

    <bullet> Can be accomplished with days, weeks and months . . . all 
            short term

    <bullet> Proven technologies can be applied to modernize and 
            improve water management locally

    <bullet> Maximizes flexibility to local districts and irrigators 
            within their immediate regions

Conservation Initiative Benefits

    <bullet> Fastest and least expensive way to ``create'' new water

    <bullet> Urban water agencies have a demonstrated capacity

                                 ______
                                 

Submission for the Record by Rep. Van Drew

                   Congress of the United States,  
                          House of Representatives,
                                       Washington, DC 20515

                                                  February 26, 2019

Hon. Raul M. Grijalva, Chairman,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Grijalva:

    Please excuse my absence for today's Water, Oceans and Wildlife 
Subcommittee hearing on ``The State of Water Supply Reliability in the 
21st Century'' due to a family emergency.

            Sincerely,

                                             Jeff Van Drew,
                                               U.S. Representative,
                                             New Jersey--District 2

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
